<html>
<title> - LEGISLATIVE HEARING ON H.R. 3407, H.R. 3787, H.R. 4541, H.R. 5064, H.R. 5549, AND DRAFT LEGISLATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
LEGISLATIVE HEARING ON H.R. 3407, H.R. 3787, H.R. 4541, H.R. 5064, H.R. 
                      5549, AND DRAFT LEGISLATION

=======================================================================



                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 1, 2010

                               __________

                           Serial No. 111-89

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
58-056                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

DEBORAH L. HALVORSON, Illinois       DOUG LAMBORN, Colorado, Ranking
JOE DONNELLY, Indiana                JEFF MILLER, Florida
CIRO D. RODRIGUEZ, Texas             BRIAN P. BILBRAY, California
ANN KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                              July 1, 2010

                                                                   Page
Legislative Hearing on H.R. 3407, H.R. 3787, H.R. 4541, H.R. 
  5064, H.R. 5549, and Draft Legislation.........................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    35
Hon. Doug Lamborn, Ranking Republican Member, prepared statement 
  of.............................................................    36

                               WITNESSES

U.S. Department of Veterans Affairs, Thomas J. Pamperin, 
  Associate Deputy Under Secretary for Policy and Program 
  Management, Veterans Benefits Administration...................    26
    Prepared statement of Mr. Pamperin...........................    50

                                 ______

Adler, Hon. John H., a Representative in Congress from the State 
  of New Jersey..................................................     5
    Prepared statement of Congressman Adler......................    39
American Legion, Barry A. Searle, Director, Veterans Affairs and 
  Rehabilitation Commission......................................    14
    Prepared statement of Mr. Searle.............................    45
Disabled American Veterans, John L. Wilson, Assistant National 
  Legislative Director...........................................    12
    Prepared statement of Mr. Wilson.............................    42
Donnelly, Hon. Joe, a Representative in Congress from the State 
  of Indiana.....................................................     6
    Prepared statement of Congressman Donnelly...................    39
Hastings, Hon. Alcee L., a Representative in Congress from the 
  State of Florida...............................................     3
    Prepared statement of Congressman Hastings...................    37
Walz, Hon. Timothy J., a Representative in Congress from the 
  State of Minnesota.............................................     2
    Prepared statement of Congressman Walz.......................    36
Veterans of Foreign Wars of the United States, Eric A. Hilleman, 
  Director, National Legislative Service.........................    16
    Prepared statement of Mr. Hilleman...........................    48
Vietnam Veterans of America, Richard F. Weidman, Executive 
  Director for Policy and Government Affairs.....................    10
    Prepared statement of Mr. Weidman............................    40

                       SUBMISSIONS FOR THE RECORD

Association of the United States Navy, Captain Ike Puzon, USN 
  (Ret.), Director of Government Affairs-Legislation, statement..    54
Enlisted Association of the National Guard of the United States, 
  Master Sergeant Michael P. Cline, USA (Ret.), Executive 
  Director, statement............................................    57
Military Officers Association of America.........................    60
National Guard Association of the United States, Peter J. Duffy, 
  Deputy Director Legislation, statement.........................    61
Reserve Officers Association of the United States and Reserve 
  Enlisted Association, joint statement..........................    61
The Retired Enlisted Association, Master Sergeant Larry D. 
  Madison, USAF (Ret.), Legislative Director, Washington Office..    63

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

Hon. John J. Hall, Chairman, and Doug Lamborn, Ranking 
  Republican, Subcommittee on Disability Assistance and Memorial 
  Affairs, Committee on Veterans' Affairs, to Thomas Pamperin, 
  Associate Deputy Under Secretary for Policy and Program 
  Management, Veterans Benefits Administration, U.S. Department 
  of Veterans Affairs, letter dated July 21, 2010, and VA 
  responses......................................................    66


LEGISLATIVE HEARING ON H.R. 3407, H.R. 3787, H.R. 4541, H.R. 5064, H.R. 
                      5549, AND DRAFT LEGISLATION

                              ----------                              


                         THURSDAY, JULY 1, 2010

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. John J. Hall 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Hall, Donnelly, and Lamborn.

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. Good morning, ladies and gentlemen, would you 
please rise and join me for the pledge of allegiance.
    [Pledge of Allegiance.]
    Mr. Hall. Thank you.
    The purpose of today's hearing will be to explore the 
policy implications of five bills and one draft measure, H.R. 
3407, H.R. 3787, and related draft legislation H.R. 4541, H.R. 
5064, and H.R. 5549 that were recently referred to the House 
Committee on Veterans' Affairs Disability Assistance and 
Memorial Affairs Subcommittee.
    Ranking Member, Mr. Lamborn and I, because we understand 
there are votes coming shortly, will delay our opening 
statements until after our first panel has spoken, because 
these are Members who are the authors and sponsors, prime 
sponsors of these bills. I know they all have busy days and 
other meetings to go to.
    So with no further ado, if the Committee doesn't mind we 
will go to the Honorable Timothy Walz of Minnesota.
    Mr. Walz, you have 5 minutes, your full statement is 
already entered for the record.
    [The prepared statement of Chairman Hall appears on p. 35.]

    STATEMENTS OF HON. TIMOTHY J. WALZ, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF MINNESOTA; HON. ALCEE L. HASTINGS, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA; HON. JOHN 
 H. ADLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
  JERSEY; AND HON. JOE DONNELLY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

               STATEMENT OF HON. TIMOTHY J. WALZ

    Mr. Walz. Well thank you, Chairman Hall and Ranking Member 
Lamborn, Mr. Donnelly, and the staff of this Subcommittee, I 
personally thank you for the work you do for our veterans, and 
I understand and truly appreciate how much you are making a 
difference.
    I rise today, and I am here to speak on H.R. 3787, the 
``Honor America's Guard and Reserve Retiree Act.''
    I have submitted my full statement for the record, so I 
will just summarize this.
    It may seem like it is a small piece of legislation, but it 
is an important one that hinges on honor of your National Guard 
and Reserve soldiers who served in uniform.
    What this piece of legislation does is, those who 
volunteered, wore the uniform, were subject to the uniform code 
of military justice, learned their jobs, went to training, 
stood on the ready to serve this Nation, but were never called 
to long enough periods of Federal active service, they can 
still be considered veterans. And I think this is really 
important.
    We already give them retired pay, they already have access 
to TRICARE, they can already be buried in a military--a veteran 
cemetery, but what it does is, is it gives them the honor of 
being ready. These are our true minutemen. They are the ones 
that serve on the ready.
    I was speaking briefly with a representative of the 
Minnesota National Guard, Colonel Eric Ahlness who is here 
today, and we had devastating tornados in Minnesota 2 weeks 
ago, and I was out there the following morning, and already 
throughout the entire night our young National Guard soldiers 
were on duty where power lines were down helping the injured, 
removing debris.
    Those soldiers can be called up to tornados, to floods, to 
other things. But they are not considered veterans. So what 
this piece of legislation does is it honors that service.
    The conclusions by the Congressional Research Service (CRS) 
and the U.S. Department of Veterans Affairs (VA) is this is at 
no cost to the Federal Government. The benefits are already 
there, it doesn't change any of those. We have the unending 
support.
    As I always say, we always come to this room backed by 
those who know best. The Veterans of Foreign Wars (VFW), the 
Disabled American Veterans (DAV), the organizations that 
support this, and we think it is clear, I think--my friend 
Larry Madison is here, he served 31 years in uniform, and now 
works making sure that we take care of our veterans. Larry has 
earned the right to be called a veteran, and I hope the rest of 
you would stand in support of this.
    I think it is incredibly important. They have raised their 
hand, they did what was needed, and now this Nation can honor 
them and allow us to pay back those respects.
    So Chairman Hall, I thank you again for all the work you 
do. I thank you for considering this piece of legislation and 
to the staff that made it possible, and I would certainly 
encourage my colleagues to join me in honoring those Guard 
retirees for the service they gave us.
    And I yield back.
    [The prepared statement of Congressman Walz appears on p. 
36.]
    Mr. Hall. Thank you, Mr. Walz.
    Mr. Hastings? The Honorable Alcee Hastings of Florida, you 
are recognized for 5 minutes.

              STATEMENT OF HON. ALCEE L. HASTINGS

    Mr. Hastings. Thank you very much, Chairman Hall and 
Ranking Member Lamborn and other Members, and I wish to echo 
the sentiments of my colleague and good friend, Mr. Walz, in 
thanking you, the staff, and all for holding this hearing and 
for the incredible work that you do on behalf of all of us.
    I would ask unanimous consent that my full statement be 
made in the record, and try to be as brief as Mr. Walz was.
    I am here to testify regarding H.R. 4541, the ``Veterans 
Pension Protection Act of 2010.''
    Before I begin I would like to welcome and recognize the 
veterans in the room today and express my gratitude for their 
service to our Nation. Each of you has made a difference in the 
history of our Nation and in the lives of so many. And I would 
also like to thank the veterans' organizations for their 
constant hard work improving veterans' lives and for appearing 
before the Subcommittee today.
    In the spring of 2009, one of my constituents, a Navy 
veteran with muscular dystrophy, reached out to the district 
office that I am privileged to serve in desperate need of 
assistance.
    The Department of Veterans Affairs had abruptly canceled 
his pension and he had fallen below the poverty line. Unable to 
pay for daily expenses, unable to meet his mortgage payments, 
Carey Scriber was on the verge of losing his home and joining 
the ranks of the 100,000 homeless veterans in our Nation.
    Mr. Scriber didn't break any law, nor did he commit any 
crime.
    In March of 2008 he was hit by a truck when crossing the 
street in his wheelchair, along with his service dog.
    Mr. Scriber was on his way to the pharmacy. Persons who saw 
it, and he said, that he went 10 feet into the air, landed 
head-first into the pavement, and suffered numerous injuries, 
as well as his service dog was injured and his wheelchair was 
destroyed.
    As a law-abiding citizen, he reported to the Veterans 
Administration the insurance settlement payment that he 
received from the driver's insurance ought to cover his medical 
expenses and other replacement costs of his wheelchair. As a 
result, the VA cancelled his pension benefits for an entire 
year.
    And I might add, they did that in 2 days after he made the 
assertion to them regarding his receipt of the insurance 
settlement.
    You know the particulars of how veterans are assessed, and 
I will skip through that, it is in my full record.
    Under the current law, if a veteran is seriously injured in 
an accident or is the victim of a theft and receives insurance 
compensation to cover his or her medical expenses, the 
replacement cost of the stolen items, or for pain and 
suffering, he or she will likely lose their pension as a 
result. This means that the law effectively punishes veterans 
when they suffer from such an accident or theft.
    Mr. Scriber reached out to the VA several times asking to 
have his pension reinstated and pointed to the particulars 
having to do with his circumstances, and each time they refused 
to reinstate his pension. This is when I became personally 
involved. I contacted the West Palm Beach VA Medical Center, 
wrote several letters to Secretary Shinseki, and I do quarrel 
with the bureaucracy. I recall very vividly that the first 
letter that I wrote to him was in August, the second was in 
October, and the third, that was a scathing letter, was in 
February, not having heard from the Department.
    And I understand that secretaries have an extraordinary 
amount of work to do, but too often the bureaucracy, not only 
in Veterans Affairs, but in our country, don't respond to 
inquiries appropriately. And I am distraught that they can 
cancel the pensions of unemployed and disabled veterans without 
further notice.
    In my view, the VA has a moral responsibility to care for 
our veterans and ensure that they live decent lives. After 
serving our Nation as valiantly as they have, they deserve no 
less than the very best benefits. No veterans should be unable 
to pay their medical bills, unable to get the care that they 
need, or be in a situation where they could lose their home 
because they had an accident and told somebody that they got 
the money and then find that they are losing their pension. It 
is unacceptable and this is why I introduced this legislation.
    This is companion legislation. Our friend and colleague in 
the Senate, Mr. Tester of Montana, introduced this provision 
last month, we have 45 co-sponsors, and I am fully cognizant, 
Mr. Chairman and Mr. Lamborn and other Members, of the backlog 
of claims filed by those who serve in uniform and the fact that 
it is growing, and I understand these difficulties, but I 
refuse, as I am sure you will, to let them overtake our 
veterans' well being.
    The VA must ensure that no veterans are left behind like 
Mr. Scriber was. There is clearly something wrong with the law 
that allows for the circumstances that I just described to you.
    My full record is in the record, Mr. Chairman. I ask that 
for the support of the Committee, and that concludes my 
testimony, and I would be pleased to answer any question you 
may have, and I thank you for the opportunity to appear.
    [The prepared statement of Congressman Hastings appears on 
p. 37.]
    Mr. Hall. Thank you, Mr. Hastings, and thank you for this 
common sense piece of legislation, and I think all of us are 
amazed at how slowly the VA moves a lot of the time, but how 
quickly they moved in in this instance to cancel a pension. It 
is certainly something that we will look into.
    Mr. Adler, the Honorable representative from New Jersey.

                STATEMENT OF HON. JOHN H. ADLER

    Mr. Adler. Mr. Chairman, I thank you, I thank the Ranking 
Member, Mr. Lamborn, I thank the Members of the Subcommittee 
and the staff for the opportunity to testify on behalf of H.R. 
5064, the ``Fair Access to Veterans' Benefits Act.''
    The need for H.R. 5064 came from a Federal Appeals Court 
ruling in which a Korean War veteran, David Henderson, who 
suffers from paranoid schizophrenia, was denied benefits 
because his appeal was filed 15 days late. The deadline that 
Mr. Henderson missed was one that required filing an appeal 
within 120 days of the final notice from the Board of Veterans' 
Appeals (BVA), the highest administrative authority in the 
claims process.
    Mr. Henderson appealed to the U.S. Court of Appeals for 
Veterans Claims (CAVC), but he filed his appeal 15 days late. 
He tried, but failed, to get the Court to reconsider, arguing 
that his service-connected disability caused him to miss the 
deadline. The Veterans Court rejected his argument and the U.S. 
Court of Appeals for the Federal Circuit Court agreed, in 
Henderson v.  Shinseki, that the Veterans Court was right to 
reject a late appeal.
    My bill would require the U.S. Court of Appeals for 
Veterans' Claims to hear appeals by veterans of administrative 
decisions denying them benefits when circumstances beyond the 
veterans control render them unable to meet the deadline for 
filing an appeal.
    ``Fair Access to Veterans' Benefits Act'' would require the 
U.S Court of Appeals for Veterans Claims to excuse late filings 
if the veteran demonstrates good cause so that meritorious 
benefits claims are not denied their day in Court.
    This bill also requires the Court of Appeals for Veterans 
Claims to reinstate untimely appeals already dismissed as a 
result of the Court's failure to toll the filing period for 
good cause.
    The veterans claims process is extremely difficult to 
navigate, especially when doing so without the aid of an 
attorney or while suffering from a mental disability.
    While the Court of Appeals for Veterans Claims was intended 
to be informal and fair, the imposition of rigid deadlines has 
resulted in the denial of benefits for many veterans.
    Oftentimes, the reason these veterans missed the filing 
deadline was because of the very service-connected disabilities 
that should entitle them to the benefits they are seeking.
    It is my hope that H.R. 5064 will help ensure that no 
veteran is denied disability benefits simply because they have 
missed an arbitrary rigid deadline.
    I would again like to thank Chairman Hall, Ranking Member 
Lamborn, and Members of the Subcommittee for allowing me to 
testify on this important matter.
    I, like the others, would be happy to answer any questions 
you may have.
    [The prepared statement of Congressman Adler appears on p. 
39.]
    Mr. Hall. Thank you, Mr. Adler.
    Now I will recognize the Honorable Joe Donnelly, 
Congressman from Indiana.

                 STATEMENT OF HON. JOE DONNELLY

    Mr. Donnelly. Thank you, Mr. Chairman and Ranking Member 
Lamborn, and I want to thank my colleagues for being here with 
us today too. Thanks for the opportunity to discuss this bill 
before the Subcommittee today.
    And I want to give my gratitude to the veterans for the 
service they have given and for all the help the veterans 
service organizations (VSOs) have given us with these pieces of 
legislation.
    After closely working with the Iraq and Afghanistan 
Veterans of America (IAVA) and the Disabled American Veterans, 
H.R. 5549, ``The Rating and Processing Individuals' Disability 
Claims Act,'' or the ``RAPID Claims Act,'' was introduced by 
myself, along with Chairman Hall. The goal of the ``RAPID 
Claims Act'' is to improve the disability claims process for 
our Nation's veterans, something we all agree is necessary.
    In 2008, Congress passed the Veterans' Benefits Improvement 
Act, and included in the bill was the Fully Developed Claim, or 
the FDC pilot program. This allows veterans to Fully Developed 
Claims, and they can waive the lengthy development period and 
receive expedited consideration.
    FDC was originally a 1-year pilot program conducted at 10 
VA Regional Offices (ROs). Due to its significant success, VA 
recently announced that it is going to implement the program 
nationwide.
    I support this decision to roll out the program nationwide; 
however, I would like to see FDC become law with a couple of 
small improvements.
    The ``RAPID Claims Act'' would codify FDC while also 
modifying it to protect a veteran's effective date for 
disability compensation and ensuring the veteran who mistakenly 
files an unsubstantially complete claim in FDC is given fair 
notice what further evidence might be needed to complete the 
claim.
    When participating in the normal claims process, a veteran 
can submit a claim at any time, marking the claim's effective 
date, and the veteran still has up to a year to gather 
evidence. However, a veteran seeking to participate in FDC may 
gather evidence independently, preventing an establishment of 
an effective date for that veteran's disability compensation. 
This evidence period can take months or up to a year, costing a 
veteran hundreds or even thousands of dollars in missed 
benefits.
    The ``RAPID Claims Act'' allows a veteran gathering 
evidence for a Fully Developed Claim to mark an effective date 
for his or her compensation by notifying VA that a Fully 
Developed Claim is forthcoming. Marking this effective date 
would help ensure that the vet's compensation is made 
retroactive to an appropriate date.
    Additionally, some vets will submit claims through FDC that 
VA will decide do not qualify for the program for a number of 
reasons, including missing evidence. If VA determines that a 
claim submitted through FDC is ineligible, I am concerned that 
the Veterans Administration may not immediately notify the 
veteran of what else is needed to substantiate his or her 
claim. If VA processes the claim before notifying the veteran, 
this could lead to incomplete and unsatisfactory results.
    The ``RAPID Claims Act'' would modify FDC to require VA to 
notify and assist the veteran to help substantiate such claims.
    Finally, the ``RAPID Claims Act'' also has a provision 
targeted at the appeals process. This bill would require that 
the VA appeals form is included with the Notice of Decision 
letter, instead of waiting for a veteran to exercise his or her 
appeal rights before sending the form to the veteran. This is a 
simple courtesy the VA could extend to our Nation's veterans.
    Once again, thank you Chairman Hall, Ranking Member 
Lamborn, and all of my colleagues for the opportunity today to 
highlight what I think are simple solutions to help improve the 
disability claims process for our veterans.
    We have worked hard to achieve much on behalf of our 
veterans in recent years, and there is also further steps that 
we can continue to take to help them even more. They certainly 
deserve our very best.
    Thank you, Mr. Chairman.
    [The prepared statement of Congressman Donnelly appears on 
p. 39.]
    Mr. Hall. Thank you, Mr. Donnelly.
    We also will be considering when we get to our next panels, 
another piece of legislation that is sponsored by Mr. Buyer, 
who is unable to be here to discuss it with us right now.
    But before we have the votes called, we will ask a couple 
of quick questions, if we may. I have one for Mr. Walz.
    In your testimony you stated that the sole purpose of this 
legislation is to grant veteran status to those who have been 
denied up to this point and to avoid having, in your words, 
second class veteran status.
    Could you elaborate what you mean by this statement? And is 
it your intention to provide these veterans with any benefits 
to which they are not already entitled?
    Mr. Walz. No. Thank you, Chairman Hall.
    No, there are no added benefits that would be here other 
than the honor of being called veterans. These are folks that 
did 20 years, attended their annual trainings, attended their 
schooling that they needed to that were all under the exact 
same requirements of active-duty forces, but because they were 
under--the way it is titled under title 38, section 101(2), the 
definition of a veteran consists of if they did that certain 
period of time on Federal service, and many of those veterans 
did not.
    There was a tendency, and some of the folks in this room 
understand, there was a tendency to fall a day or so under that 
prescribed amount at one time, so we have a lot of veterans 
that did that.
    And my point on the--I don't think it is asking so much 
that on a Veterans' Day event that these folk can fully 
participate being veterans, render a hand salute when the 
National Anthem is played, and consider themselves amongst 
their colleagues who serve. They were the true minutemen, they 
were on the ready.
    There is no additional cost, CRS. And we are certainly 
willing to work with the Subcommittee if anything should come 
up. The VA itself had said there would be no more additional 
benefits offered, no cost to the government.
    It is just--to me though it is the honorable, the right 
thing to do to make sure we move these citizens, especially 
with the current reliance on the National Guard and Reserve, of 
understanding at any given time any one of these folks could 
have been and would have honorably served.
    Mr. Hall. Thank you, Mr. Walz.
    Mr. Hastings, we greatly appreciate your sharing Mr. 
Scriber's story with us.
    What pitfalls, if any, do you think this legislation has 
that would fail to meet the needs of people such as Mr. Scriber 
or could cause them any increased burden?
    Mr. Hastings. Well it is really specific, Mr. Chairman, and 
addresses accidents, thefts, or casualty loss from being 
included in the determination of a veteran's income.
    If anything, I would think that there may be other kinds of 
situations that veterans might bring to the attention of VA 
regarding their impact on their pensions from outside income. I 
would think if a veteran hit the lottery, that might be an 
entirely proposition. However, feeling very strongly about it, 
I don't think that should impact the person's right to receive 
their pension, and certainly not for accidents.
    The overall set of circumstances, if there is to be a 
pitfall, would likely be that most veterans would not be made 
aware of a law if we can, as I indicated, Mr. Tester filed it 
on the Senate side, and if it does become law, then I hope that 
there is early notice. Because I have a suspicion with the 
number of claims that veterans can bring about--let us use the 
Gulf for example right now, the number of veterans that are in 
the fishing business that may receive some kind of 
compensation, what are they supposed to do? If they report it 
and they are already marginal in terms of whether or not they 
are near the poverty line as it were, then are their pension 
benefits going to be cut off?
    So there is some other things to look at, but ours states a 
specific within the realm of casualty, theft, and accident.
    Mr. Hall. So it is basically reimbursement----
    Mr. Hastings. Yes, sir.
    Mr. Hall [continuing]. For medical expenses or loss due to 
theft?
    Mr. Hastings. That is correct.
    Mr. Hall. Thank you so much.
    Mr. Adler, we understand that the veterans' claims and 
appeals processes are difficult to navigate and need to have 
major improvements made to them.
    With that said, you mentioned in your testimony that the 
Court of Appeals for Veterans Claims can reinstate untimely 
appeals that have already been dismissed based on the Court's 
failure to toll the filing period for good cause.
    Please explain to us how you believe the Court can fairly 
determine which appeals should rightly be reinstated for good 
cause versus those that simply miss the deadline for another 
reason.
    In other words, how can we believe that a windfall effect 
can be avoided adding to the further delays in appeals?
    Mr. Adler. Mr. Chairman, thank you for the question. I 
don't think it is a windfall effect, it is a question of making 
sure that people who are truly entitled have access to the 
right litigation process, right appeals process so they can 
have their appeals considered.
    This case with Mr. Henderson was a guy that was 100-percent 
disabled because of mental incapacity suffered during his 
service in the Korean War, 100-percent disability. He wanted to 
have a bump up from out of home care to in-home care because of 
his disability. Apparently his mental incapacity rendered him 
unable to file in a timely way his claim.
    I think our courts traditionally have been just, but 
tempered with mercy, and I think that is all we are asking here 
is for a veteran who is going to win to have a chance to have 
that appeal considered. If, in fact, he is not going to win, it 
will be denied on the merits, but I would hate to have a timing 
issue block fair consideration of a change in his disability 
status.
    Mr. Hall. Thank you. I think that is something our later 
panels may help us address. I mean 100-percent disability for a 
psychological or psychiatric condition, there is no question I 
think that your proposal is a good one and clear.
    The question is, what level, I think the Court will 
probably need to define when the disability is sufficient to 
justify delaying the deadline.
    Let me just move quickly to Mr. Donnelly for one question 
and then turn it over to the Ranking Member.
    Mr. Donnelly, your testimony highlights the risk that some 
veterans may submit Fully Developed Claims without providing 
all necessary evidence.
    Can you expand upon the steps that VA would be required to 
take when informing veterans of insubstantial claims prior to 
processing it? Are you suggesting that the VA include a 
checklist?
    Mr. Donnelly. Well, it explicitly requires the VA to notify 
a vet within 30 days if it determines that this is an 
incomplete claim, and they would be required to revert back to 
notification and assistance regulations under the Veterans' 
Claims Assistance Act (VCAA).
    So it is just a continuing way to try to be in front with 
the vet and be helpful to them.
    Mr. Hall. Thank you. Mr. Lamborn?
    Mr. Lamborn. Well, Mr. Chairman, I think each of the people 
presenting their bills has done a good job of explaining it and 
these are well considered bills that I intend to support.
    So in the interest of saving time as well I am just going 
to refrain from questions for now. But I thank each of them for 
appearing and for presenting their bills.
    Mr. Hall. You ousted Mr. Walz in brevity, so 
congratulations. Thank you, Mr. Lamborn.
    I have one more question for Mr. Donnelly since there is 
time before these votes are called, which is I am always the 
guy that talks longer than anything else, so I am maintaining 
my consistency.
    Mr. Donnelly, pertaining to your legislation, the date that 
a claim is filed is considered the effective date, and upon its 
approval the claimant receives benefits retroactively.
    The ``RAPID Claims Act'' that you are proposing would 
provide, among other things, a way for veterans to signal the 
intent of filing an FDC, a Fully Developed Claim, while being 
able to file an informal claim to protect the effective date.
    Do you foresee any shortcomings or potential exploitations 
or confusion to such a system, and would there be a way to 
avoid them, such as veterans filing meritless claims and then 
using FDC?
    Mr. Donnelly. I think what this does is drop a marker down. 
And from what we have seen in other voluntary programs, I think 
in regards to claims that have been reviewed with findings that 
95 percent were exactly what they were supposed to be.
    When we give the benefit of the doubt we give the benefit 
of the doubt to the veteran, and that is what we are doing 
here, is giving them a chance to put a marker down so that in 
their diligence and in their work they don't look up and find 
themselves 60 days further behind.
    So I don't see that there will be any abuse in this 
process.
    Mr. Hall. Thank you, Mr. Donnelly.
    I would like to thank our first panel, Mr. Walz, Mr. 
Hastings, Mr. Adler, Mr. Donnelly, for the legislation and the 
work that you have done bringing these bills forward, and thank 
you for testifying. You are now excused.
    And we would ask the changing of the guard, our second 
panel to join us, please. Richard Weidman, Executive Director 
for Policy and Government Affairs of the Vietnam Veterans of 
America (VVA); John L. Wilson, Assistant National Legislative 
Director, Disabled American Veterans; Barry A. Searle, the 
Director of Veterans Affairs and Rehabilitation Commission for 
the American Legion; and Eric A. Hilleman, Director, National 
Legislative Service, Veterans of Foreign Wars of the United 
States.
    Gentlemen, thank you so much for joining us. We will try to 
get through as much of this testimony as we can, and if the 
bell rings we will have to recess and come back. But we will 
start with Mr. Weidman, you are recognized for 5 minutes.

STATEMENTS OF RICHARD F. WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY 
 AND GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA; JOHN L. 
   WILSON, ASSISTANT NATIONAL LEGISLATIVE DIRECTOR, DISABLED 
AMERICAN VETERANS; BARRY A. SEARLE, DIRECTOR, VETERANS AFFAIRS 
  AND REHABILITATION COMMISSION, AMERICAN LEGION; AND ERIC A. 
 HILLEMAN, DIRECTOR, NATIONAL LEGISLATIVE SERVICE, VETERANS OF 
               FOREIGN WARS OF THE UNITED STATES

                STATEMENT OF RICHARD F. WEIDMAN

    Mr. Weidman. Mr. Chairman, thank you very much for the 
opportunity to present testimony here this morning. I will take 
them in numerical order.
    H.R. 3407, the ``Severely Injured Veteran Benefits 
Improvement Act.''
    First and foremost from our point of view, there was a good 
deal of need that was answered by the Caregivers Act which you 
all passed earlier this year, and that addressed the needs of a 
single generation.
    This Committee historically has always sought to have 
equity between the generations, and the only problem with the 
Caregivers
Act, was that it ignored the fact that caregivers of Vietnam 
generation, Korean generation, and World War II generation were 
not eligible for this kind, and it provide extraordinary 
service to country over many, many years.
    In addition to that all of those older generations of 
veterans are just that, getting older. And so this increase 
from our point of view will bring some degree of equity back 
into the situation for those older care providers.
    Do I need to stop, Mr. Chairman?
    Mr. Hall. No, that is okay, you can continue your 
testimony. We have 13 minutes to go,
    Mr. Weidman. Actually, I have 3 minutes and 43 seconds.
    Mr. Hall. You may finish your statement and we will 
probably hear one other witness before we recess.
    Mr. Weidman. Very good, sir.
    Anyway, we are very much in favor of this, and VA's 
objections to it we find unpersuasive and in the extreme.
    Same with--it does something very important, which is 
recognize that people with severe burns and traumatic brain 
injury (TBI) need adaptive equipment and access to automobiles, 
and we thank Mr. Buyer for addressing that as well in this bill 
and all of co-sponsors from both sides of the aisle.
    So we believe that it takes a somewhat different approach 
than the Caregivers Act, but it is something that is needed and 
will restore some degree of equity to the situation between the 
generations.
    The ``Honor America's Guard and Reserve Retirees Act.'' 
When I served on active duty in the U.S. military, there was a 
dramatic difference between those of us who served on active 
duty and those who served in the Guard and Reserve, but that 
was in a long, long time ago in a country very far away called 
the 1960s, and we are no longer there today.
    I believe Congressman Walz is right on the money, is that 
being subject to being activated at any given time is something 
that all of the Guard and Reserve are subject to today, and it 
is materially different than it was at an earlier time.
    So we favor the ``Honor America's Guard and Reserve 
Retirees Act.''
    The ``Veterans Pension Protection Act'' is just simply good 
common sense and provides the latitude to make sure that one 
time payments are not--then don't turn around and exclude 
people from non service-connected pension.
    Frankly, some of the VA's testimony is a little surprising, 
and sometimes they wonder why the veterans, community, and 
others regard them as mean spirited, and it comes across as 
mean spirited, whether that is the intent or not. That if an 
individual gets a pain and suffering settlement as a result of 
being run over by a truck when you are in your wheelchair and 
then you are going to strip the guy of his pension, we think 
that is just nuts and is not humane and is not in the best 
tradition of either the VA or the United States of America.
    H.R. 5549, the ``Rating and Processing Individuals' 
Disability Claims Act,'' or the ``RAPID Claims Act.'' We think 
it is well thought out, it is simple like most things that will 
be useful, it conforms to the military axiom of KISS, Keep It 
Simple Soldier, some use a different ``S'' for the last word, 
but any way it works. And we favor passage, it can only help.
    H.R. 5064, the ``Fair Access To Veterans Benefits Act.'' 
Once again it is just common sense. If an individual is not 
intellectually capable of recognizing that a deadline is hard 
and fast because of schizophrenia, that first onset of which 
was in the military, then shame on the Court and shame on the 
Board for not allowing the individual additional time.
    We also would note that VA's attitude when they take 
sometimes literally years to make basic decisions is la-di-dah, 
you will just have to wait. But you can't extend it for I 
believe it was 22 days in a particular incident cited for the 
individual veteran who is incapable of recognizing the 
importance of it?
    I think that this will provide the latitude that will allow 
the Court to render more just decisions, and I thank Committee 
for considering it, and we favor early enactment.
    Thank you again, Mr. Chairman. I would be happy to answer 
any questions.
    [The prepared statement of Mr. Weidman appears on p. 40.]
    Mr. Hall. Thank you, sir.
    Mr. Wilson.

                  STATEMENT OF JOHN L. WILSON

    Mr. Wilson. Mr. Chairman and Members of the Subcommittee, 
good morning. I am pleased to have this opportunity to appear 
before you on behalf of Disabled American Veterans to address 
legislation under consideration today. There are four bills I 
will address in my oral remarks this morning.
    First, H.R. 3407, the ``Severely Injured Veterans Benefit 
Improvement Act of 2009.'' I will address one of its several 
provisions, which is the expansion of eligibility for 
automobile and adaptive equipment grants to disabled veterans 
and members of the Armed Forces with severe burn injuries.
    DAV supports the expansion of this important benefit to 
those with severe burns.
    We also want to raise a related issue of the adequacy of 
automobile and adaptive equipment grants themselves. Because 
benefit adjustments have not kept pace with increasing costs of 
automobiles over the past 53 years, the value of the allowance 
has been substantially eroded.
    Today the current $11,000 automobile allowance represents 
only 39 percent of the average cost of a larger sedan, which is 
typically necessary for such veterans.
    To restore equity between the cost of a new vehicle and the 
allowance, based on 80 percent of the average cost, the amount 
would rise from $11,000 to $22,800.
    In accordance with The Independent Budget and DAV 
Resolution 171, our recommendation is that Congress increase 
the automobile allowance to 80 percent of the average cost of a 
new automobile today.
    Second, H.R. 5064, the ``Fair Access to Veterans Benefits 
Act of 2010,'' which would provide for the equitable tolling of 
the timing of review for appeals of final decisions of the 
Board of Veterans' Appeals.
    Current law does not provide for equitable tolling of the 
appeal period if a veteran is physically or mentally 
incapacitated and is thus unable to file, as has been 
previously indicated. Yet, it is the very disabilities that may 
significantly impact a veteran's ability to file the appeal 
paperwork in the first place.
    DAV certainly supports this legislation to allow good cause 
equitable tolling for issues such as physical or mental 
incapacities.
    Third, H.R. 5549, the ``RAPID Claims Act,'' which would 
expedite those claims certified as fully developed for 
claimants who waive the development period. If the claimant 
submits a written notice of their intent to submit a Fully 
Developed Claim and then does so within 365 days of that 
notice, the Secretary will accept the then formal claim using 
the date of the informal claim. That would protect the 
effective date and save them substantial amounts of time as 
previously indicated.
    In addition, this bill reinstates VA's duty to assist when 
VA deems a claim is not ready to rate and moves it into the 
traditional claims process, requiring VA to then notify the 
claimant accordingly.
    DAV was pleased to work with Congressman Donnelly, and add 
provisions that strengthen protections for veterans, and we 
support this important legislation.
    VA recently rolled out the Fully Developed Claim or FDC 
program, which as previously indicated, was mandated by 
Congress under Public Law 110-389, and seeks to expedite claims 
that are ready to rate. However, VA's FDC program was missing 
key protections for veterans that H.R. 5549 offers.
    VA has since added to the FDC program a provision so 
veterans can file an informal claim to protect their effective 
date before submitting the formal FDC application.
    We also want to be assured by VA however that when a claim 
is not ready to rate and, therefore, no longer eligible for the 
FDC program, that VA will inform the veteran accordingly.
    We are pleased that H.R. 5549 directs VA to inform the 
claimant should their claim be returned to the normal claims 
process, and we support this legislation as I previously 
indicated.
    Fourth, I would like to clarify my remarks in my written 
statement regarding the amendment in nature of a substitute 
offered by Mr. Walz to H.R. 3787. This amendment clearly 
addresses our concerns, which was the extension of veteran 
status to individuals who had completed 20 years of military 
service and reserve status potentially leading to later efforts 
to extend benefits to these newly defined veterans. This 
potential for the expansion of benefits could then negatively 
impact the benefits available to veterans, their dependents, 
and survivors as currently defined.
    Since that amendment excludes access to such benefits, it 
resolves our concern with the original bill.
    Mr. Chairman, we are pleased with the interest that 
Congress has shown as oversight of the benefits delivery 
process, we also applaud the Veterans Benefits Administration's 
(VBA's) openness and outreach to VSOs and incorporation of our 
suggestions to accept informal claims into the FDA program. 
However, we remain concerned about their failure to integrate 
us into their reform efforts or solicit our input at the 
beginning of the process.
    This is a mistake for a number of reasons. VSOs not only 
bring vast experience and expertise about claims processing, 
but our local and national service officers hold power of 
attorney for hundreds of thousands of veterans and their 
families. In this capacity, we are an integral component of the 
claims process. We make VBA's job easier by helping veterans 
prepare and submit better claims, thereby requiring less time 
and resources for VBA to develop and adjudicate claims. We 
would like to see ourselves more actively involved in each of 
these new processes and new pilots as they come on Board.
    I would be glad to answer any questions may have, sir.
    [The prepared statement of Mr. Wilson appears on p. 42.]
    Mr. Hall. Thank you, Mr. Wilson.
    We have a few minutes left in the vote across the street, 
so at this point we will recess the hearing, and when we come 
back we will hear from Mr. Searle and Mr. Hilleman.
    This meeting is in recess.
    [Recess.]
    Mr. Hall. The Subcommittee on Disability Assistance and 
Memorial Affairs will resume our hearing on pieces of 
legislation, which we have already been discussing. And I 
apologize for whoever it is that makes the schedules and calls 
these votes when we have important business to do.
    Mr. Barry Searle from the American Legion, you are 
recognized for 5 minutes.

                  STATEMENT OF BARRY A. SEARLE

    Mr. Searle. Thank you for the opportunity to present the 
views of the American Legion on several important topics. H.R. 
3407. The American Legion is well-known for its advocacy for 
veterans. We feel that all veterans, but particularly severely 
injured veterans and those who have received the Purple Heart 
deserve our utmost respect and have earned the thanks of a 
grateful Nation.
    We who do not on a daily basis contend with injuries both 
physical and psychological, which were received due to selfless 
service to this Nation, can never fully repay these severely 
injured heroes.
    H.R. 3407 focuses on increased compensation for disabled 
veterans and recipients of the Purple Heart. It further adds 
traumatic brain injury for eligibility for aid and attendance 
benefits, and severe burn injuries for both veterans and 
active-duty members for adaptive equipment to automobiles, and 
extends the provisions of an existing pension for certain 
hospitalized veterans.
    Traumatic Brain Injury, the signature wound of Iraq and 
Afghanistan, along with severe burns, are a legacy of the 
tactics being conducted by our enemies in Iraq and Afghanistan. 
The improvised explosive device (IED) is a weapon of choice for 
our enemy and is insidious in its utilization and often even 
more devastating in its long-term effects than gunshots due to 
the multiple wounds, concussion, and burns it produces.
    Terrible scars and the attending loss of appendages and 
range of motion due to the fires resulting in an IED explosion 
are a life-long sacrifice our veterans and military personnel 
must endure as a result of service to the Nation.
    The American Legion believes that these warriors have 
suffered, and will continue to suffer, for their entire life 
and should not be forced to pay for daily attendance or 
adaptive equipment necessary to bring some normalcy to their 
life upon their return.
    H.R. 3407 authorizes the VA Secretary to increase monthly 
special pension for recipients of the Congressional Medal of 
Honor.
    The American Legion feels that these recipients are a 
special class of veteran. These recipients have given this 
Nation conspicuous gallantry above and beyond the call of duty.
    The American Legion supports H.R. 3407.
    H.R. 3787, to amend title 38 U.S. Code to deem certain 
service and Reserve components as active duty service for 
purposes of laws administered by the Secretary of Veterans 
Affairs, and H.R. 4541, the ``Veterans Pensions Protection Act 
of 2010.''
    The American Legion has no position on either of these 
legislations.
    H.R. 5064, the ``Fair Access to Veterans Benefits Act of 
2010.'' This bill impacts the issue of equitable tolling, a 
principle of tort law stating a statute of limitations will not 
bar a claim if despite use of due diligence the plaintiff did 
not or could not discover the injury until after expiration of 
the limitations period.
    Currently the appellant has 120 days from the date of 
notice of the final decision of the Board of Veterans' Appeals 
is mailed to file a notice of appeal to the United States Court 
of Appeals.
    A Supreme Court ruling on an unrelated matter rendered its 
decision that the timely filing of a notice of appeal in a 
civil case is a jurisdictional requirement and thus could not 
be waived.
    On 24 July, 2008, the Court of Appeals for Veterans Claims 
ruled in a two to one decision that this ruling prohibited from 
using equitable tolling to extend the 120-day appeal period.
    The American Legion supports proposed legislation that 
would allow the CAVC to apply equitable tolling in certain 
situations, especially in such instances where the veterans 
service-connected disability hindered the filing of a timely 
appeal.
    The American Legion supports H.R. 5064.
    H.R. 5549. H.R. 5549 allows for the waiver of a claim 
development by VA in those cases where a veteran certifies that 
he or she has submitted a Fully Developed Claim.
    While this measure stands to potentially increase the speed 
with which a veteran may receive benefits, there are still 
concerns about this legislation.
    The American Legion supports efforts to streamline the 
claims process and to fast track those claims where additional 
work is unnecessary. However, it is essential that the veterans 
ensure and fully understand what is being asked of them when 
they submit these waivers.
    The American Legion believes that there must be further 
clarification on what mechanism is provided by H.R. 5549 to 
protect a veteran in situations where a veteran may erroneously 
believe, and therefore, certify, that all necessary development 
has been performed on a claim.
    It is critical that the veteran be entitled to return to 
the traditional claims or general population process at any 
point when it becomes clear that the claim is in fact not fully 
developed. In this way the rights of the veteran would be 
protected while allowing more speed in processing.
    It is understood that the veteran has a right to file a 
notice of disagreement with a decision and enter into an 
appeals process; however, this would delay the claim as it 
moves through another backlogged system and, therefore, defeat 
the purpose of the original intent of H.R. 5549, to expedite 
accurate decisions of original claims.
    In short, there are still concerns about the implementation 
of the measure such as this and how it will affect veterans.
    The American Legion would like to see more clarification 
and assurances of protection for veterans so that they are not 
put in a situation where they sacrifice their ability to 
receive thorough review of their claim and in hopes of having 
it processed more swiftly.
    With the previous concerns noted, the American Legion 
supports H.R. 5549.
    As always, the American Legion appreciates the opportunity, 
and thanks this Subcommittee to testify and present the 
position of over 2.5 million veterans of this organization and 
their family.
    This concludes my testimony.
    [The prepared statement of Mr. Searle appears on p. 45.]
    Mr. Hall. Thank you, Mr. Searle.
    Mr. Hilleman.

                 STATEMENT OF ERIC A. HILLEMAN

    Mr. Hilleman. Thank you, Mr. Chairman, Members of the 
Subcommittee.
    On behalf of the 2.1 million men and women of the Veterans 
of Foreign Wars and our Auxiliaries I thank you for the 
opportunity to testify on these bills pending before the 
Subcommittee.
    Due to the time constraints I will limit my remarks to 
three bills.
    Beginning with H.R. 5549, the ``Rating and Processing 
Individuals' Disability Claims Act,'' or ``RAPID Claims Act.''
    The VFW is heartened by this legislation, which would 
provide VA a mechanism for identifying and expediting claims 
that are ready to rate by granting the Secretary the authority 
to wave the mandatory 60-day development period with written 
permission of the veteran.
    As of June 15th, VA announced a new expedited claims 
process reminiscent of this legislation.
    VA is seeking to advance ready to rate compensation and 
pension through a fast track process.
    The details are yet unclear, but this Committee's continued 
effort to reduce the backlog through oversight and advancing 
ideas such as ready to rate, claims have encouraged the VA to 
adopt this practice.
    Under this bill, if a veteran submits a statement which 
indicates the veteran's intent to submit a Fully Developed 
Claim, the veteran would have 1 year from the date of 
submission to provide the Secretary with a Fully Developed 
Claim and access the expedition treatment of their claim.
    If the Secretary determines a claim to be underdeveloped, 
the VA would notify within 30 days the veteran of more evidence 
and information is required for their case.
    The backlog of veterans claims for disability compensation 
and pension is approaching 900,000, and over 100,000 new claims 
are expected to be filed every year for the foreseeable future.
    This legislation will create an incentive for veterans and 
their duly appointed representatives to represent VA with fully 
developed cases in a timely fashion. In turn, it will reduce 
the time and energy required of VA to track down external 
evidence while developing the case.
    While this legislation creates an incentive to compile 
outside evidence quickly and address a veteran's claim, it does 
not stress the importance of quality rating decisions.
    The VFW has always believed quality rating decisions are 
central to addressing a long-term backlog and instilling 
confidence in the VA's disability benefits system.
    The VFW cannot support this legislation as written due to 
the absence of the date of preservation in Section 2, paragraph 
2, which allows a veteran to submit a statement of intent to 
submit a Fully Developed Claim.
    As worded, we believe the intent of this section was to 
imply that a veteran could preserve the date of claim and still 
access the expedited claims process.
    We would be happy to fully support this legislation with 
the inclusion of language preserving this right to the date of 
claim.
    The second bill is H.R. 3407, the ``Severely Injured 
Veterans Benefits Improvement Act of 2009.''
    We are proud to support this legislation, which would 
increase the aid and attendance for severely injured veterans, 
qualify severely burned veterans for adaptive grants, increase 
pension for housebound veterans, expand aid and attendance to 
cover veterans with traumatic brain injury, and increase the 
service pension for Congressional Medal of Honor recipients.
    We would like to highlight Section 3, which expands the 
eligibility for those who have suffered severe burn injuries to 
qualify for automotive and adaptive grants.
    Given the severe burns caused by many improvised explosive 
devices, veterans are living with scar tissue that decreases 
the range of motion and limits the use of digits and 
extremities. Burn injuries in some cases are extreme enough to 
require special adaptation to simply achieve basic 
functionality and independent living.
    The VFW believes every possible accommodation should be 
made to restore the highest level of independence to these 
deserving veterans.
    H.R. 3787, the ``Honor America's Guard and Reserve Retirees 
Act.''
    H.R. 3787 has in mind an extremely important goal, to give 
men and women who choose to serve our Nation in the Reserve 
component the recognition their service demands.
    The mission of many Guard and Reservists is to facilitate 
and support the developments of their comrades so that the unit 
is fully prepared when called upon. Unfortunately, the law does 
not currently allow those who serve several years and are 
entitled to retirement pay, TRICARE, and other benefits, to 
call themselves veterans.
    Such men and women have been extremely busy and have made 
extraordinary sacrifices in support of missions and Operation 
Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF). That 
is why we are in full support of this legislation.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Hilleman appears on p. 48.]
    Mr. Hall. Thank you, Mr. Hilleman.
    First to Mr. Weidman--or is it Weidman, I am sorry.
    Mr. Weidman. It is Weidman, sir.
    Mr. Hall. Thank you so much. Forgive my memory lapses.
    According to your testimony, VVA supports H.R. 3787 on the 
grounds that the nature of service of Reservists and members of 
the National Guard--reflects the changes in the nature of 
service of Reservists and members of the National Guard; 
however, the VA differs contending that benefits eligibility 
could continue to be based either on active duty or a 
qualifying period of active service during which a member was 
physically engaged in serving the Nation in an active military 
role.
    VA argues that this bill would extend the same status to 
those who were never called to active duty and did not suffer 
disability or death due to active duty for training or inactive 
duty training, and hence do not have active service.
    Can you tell us why you support this bill and what are the 
pros and cons of H.R. 3787 and the draft legislation?
    Mr. Weidman. As I mentioned in the brief summary in my oral 
remarks, Mr. Chairman, there was a really big difference in 
that long ago, far away land known as the 1960s America between 
those who went into the Guard and Reserve and those of us who 
went into active duty.
    Today anybody who joins the Guard and Reserve should have 
an expectation that they can be called to active duty at any 
given time, number one.
    And number two is, because that is the case the training 
frankly is a heck of a lot more serious and the preparation is 
a heck of a lot more diligent than it was some 40 to 45 years 
ago.
    And third, the prejudice and the price that one pays in a 
society in general is actually very heavy for anybody in the 
Guard and Reserve.
    In another Subcommittee they have--Ms. Herseth-Sandlin and 
Mr. Boozman have heard testimony documenting the prejudice on 
the part of employers against employing anybody who is in the 
Guard and Reserve because of the likelihood that that 
individual will be deployed not just once but possibly multiple 
times over the course of the next decade.
    And so as a result, you are paying all the price in terms 
of giving up latitude of personal freedom and movement, you are 
paying the price in terms of an economic price in terms of a 
civilian job market, and number three is you essentially signed 
on the line.
    We often, within Vietnam Veterans of America, have to 
really work hard to encourage Vietnam era veterans, those who 
served in the military on active duty during Vietnam, but were 
not sent in theater, if you will. Well frankly, most of us were 
18, 19, 20 years old, and as we used to call it, the big green 
machine, didn't give a good doggone where you wanted to go on 
your dream sheet, you got sent wherever Uncle Sam wanted you. 
And the same is true in today's Guard and Reserve. So it may 
well be that people do not get deployed and activated and 
deployed.
    To not be able to call yourself a veteran when you have 
made all of those sacrifices and prepared for war and prepared 
to be deployed it seems to us that it is so changed in degree 
as to be different in nature today and that retirees should in 
fact be recognized as veterans. And you have Members of this 
Committee incidentally that would fall under the same category. 
Not just because of that, it is because of the change of the 
nature of the service itself and where it fits into the total 
forced concept.
    I hope that hasn't been too meandering an answer, Mr. 
Chairman.
    Mr. Hall. No, it is been a good one, and I think it is 
clear to all of us who are paying attention that men and women 
who serve in the Guard and Reserve today and their families 
live with the possibility and the expectation that at any 
moment, that any day they may be called on for another tour of 
duty.
    Mr. Weidman. Right.
    Mr. Hall. So it is not just not going to training on 
weekends anymore and going about your business. Today you may 
actually, and will and do serve in combat along with our active 
duty troops.
    Vietnam Veterans of America supports H.R. 5549 on its 
belief that the key to eliminating the backlog is proper 
preparation of claims and making the process yield more 
accurate determinations.
    Could you elaborate on how VVA believes this bill would 
achieve this goal and what downside, if any, do you see from 
this legislation?
    Mr. Weidman. We have maintained for longer than it has been 
an issue actually much on the Hill that getting it right the 
first time, doing it right the first time was the way to go 
when it came to claims. We also believe the same thing is true 
in terms of the medical side of the House, which is why we 
still take great exception to VA's refusal to take a military 
history from every individual and use it in a full diagnosis 
and structuring of a treatment plan.
    On the benefits side, if you get the case prepared 
correctly, the adjudication will take care of itself almost.
    What we mean by that and what we have advocated over and 
over and over again and don't advocate with the leadership of 
VBA, is that there be an agreed upon set format for what goes 
into a C-file even while we are working on paper so that you 
can find the most salient documents, number one.
    Number two, is that there has to be, Secretary Shinseki 
calls it, a template, we call it a summary, of what are the 
most salient facts in a case so that you cite the law or 
regulation then summarize the evidence with footnotes one, two, 
three, four, five, and you have a tab in the paper thing. You 
can also do that kind of tab in electronic. And you go right to 
it so about why the individual qualifies for that particular 
disability under the statute. The evidence is either there or 
it is not there. Then you cite the second regulation or 
statute, and then summarize, and then footnotes, five, six, 
seven, eight. All of that goes in the preparation.
    If it is properly prepared you could adjudicate a 
complicated claim in 1 to 2 hours max. Max. And in many cases 
you can do it in 30 minutes. It is either there or it is not 
there. But that takes effort in the initial preparation.
    The more we can reward by an express line or a RAPID 
mechanism as described in this legislation, mechanisms whereby 
you are rewarded for putting that effort into a Fully Developed 
Claim in the beginning, then your backlog will start to come 
down.
    The very first meeting that then National President Tom 
Corey of Vietnam Veterans of America and I had with Secretary 
Principi when he came in in 2001, he said his--and that was 10 
years ago, sir--said that his top priority was reducing the 
backlog, which at that point was 300,000, and we said, don't go 
for speed, go for accuracy. If you get the claims adjudicated 
properly, we won't churn them back and forth through the 
system, but in order to do that you have to do the stress on 
the proper preparation.
    So we think that the concepts are advanced in this RAPID 
legislation put forth by Mr. Donnelly, are good common sense, 
they are not dissimilar than the things that the Congress has 
already advanced in the FDC or the Fully Developed Claims 
process, but it goes a step further.
    So we think it is sound, and as long as the guarantees of 
the individual rights are reserved to the individual, as 
mentioned by my colleagues from the DAV and the VFW and 
American Legion are preserved, we have no problem with this 
legislation and think it is worth pursuing.
    Mr. Hall. Thank you, sir.
    Mr. Wilson, you suggested in your testimony that there are 
currently unfair restrictions on the eligibility for adaptive 
equipment to veterans who qualify for automobile grants under 
section 3901 of title 39 U.S. Code.
    To what extent does section 3 of H.R. 3407 address the need 
to expand the eligibility for adaptive equipment grants, and 
where does it fall short, if at all?
    In other words, is there anything else that we need to do 
in this area?
    Mr. Wilson. That is a good question, sir, and I would like 
to respond for the record to have an accurate comment to that 
detailed consideration.
    If you are going to provide a benefit for an adaptive 
equipment for a vehicle, given that we have had 53 years of no 
substantial change in how these particular benefits have been 
funded and you have a vehicle allowance of $11,000, it will not 
cover the cost of a vehicle, which is substantially more today. 
Disabled veterans typically are going want a larger sedan to be 
able to get your chair in and out, to be able to use it 
properly, to have the accessories as far as moving the seat 
back and forth electronically, or adjust the steering wheel. 
These all seem like simple things to us who have all of our 
physical abilities but when you have to use various prosthesis 
and the like and have to be dependent upon the chair or the 
scooter, these things become key, and only a larger sedan can 
do that, and only in the current allowance prohibits such a 
purchase for veterans as they usually are not in the most 
financially advantageous situation.
    So we certainly continue to lobby for an increased 
allowance for this particular issue.
    And I would be glad to comment as I said for the record on 
other provisions regarding that section of the bill.
    [The DAV subsequently provided the following information:]

        DAV supports this critical provision of Section 3 of H.R. 3407 
        which expands eligibility for adaptive equipment grants to 
        veterans who have severe burn injuries. We also contend that 
        restrictions on the eligibility for adaptive equipment to only 
        those veterans who qualify for the automobile grant as 
        specified in section 3901 of title 38, United States Code does 
        not address the needs of veterans whose service-connected 
        disabilities prohibit the safe operation of a motor vehicle. 
        Veterans suffering from joint replacement surgeries or severe 
        arthritis for example would also be benefit from automotive 
        adaptive equipment grants as such equipment could facilitate 
        safer operation of their motor vehicles. We urge Congress to 
        expand such eligibility accordingly.

    Mr. Hall. Thank you, sir. I think I would agree that most 
of us probably--most of the public would not view a $22,000 
vehicle as a luxury vehicle.
    Mr. Wilson. Yes, sir.
    Mr. Hall. It is not top of the line. It is sort of medium, 
and certainly if you are looking for an adequate sedan or a van 
with lift gate capabilities and so on I don't think you will 
find it in a smaller less expensive car.
    Mr. Wilson. Yes, sir.
    Mr. Hall. Which would probably be less reliable too.
    Mr. Searle, H.R. 5549 would allow veterans to certify that 
they have submitted a Fully Developed Claim, which would 
expedite the process in order to get better veteran results and 
relieve the VA of some of the backlog.
    You have suggested on behalf of the American Legion that 
this legislation would benefit from further clarification to 
prevent veterans from mistakenly certifying a Fully Developed 
Claim.
    Could you suggest what further steps or modification might 
be necessary in order to ensure veterans to not make this 
mistake?
    Mr. Searle. Yes, Mr. Chairman. My approach on that was we 
have a concern about the adjudication of the claim once it is 
submitted and a veteran certifies it is been fully developed. 
We are looking at--while there are numerous--most of the 
adjudicators are veterans focused and wanting to help the 
veterans, there are some cases an attitude that the veteran may 
be trying to cheat the government.
    What our concern is that a rater, when he gets a veteran, 
would say is a Fully Developed Claim he would go with the 
attitude of saying okay, I want to justify this claim rather 
than reject it. Our concern is that rather than returning the 
claim saying that there is something missing, the claim would 
simply be rejected and then have to go into the appeals 
process.
    What we are saying is that the unassisted veteran is not a 
professional at this complicated effort. What we may do in good 
faith assume, because he has lived the event, it is a Fully 
Developed Claim. The claim would then be turned in, certified 
as fully developed, the adjudicator would look at it and say 
well there is something missing, but rather than returning it 
we want the safeguard that it does in fact get returned for 
further development rather than simply saying, no, I reject 
this claim and then it would have to go into the appeals 
process.
    Mr. Hall. Mr. Hilleman, you emphasized in your testimony 
the importance of addressing quality rating decisions calling 
them quote,``central to addressing the long-term backlog and 
instilling confidence.''
    What do you believe can be done specifically to address the 
VA's ability to render quality and consistent rating decisions?
    Mr. Hilleman. That is an excellent question,
    Mr. Chairman. It is a very broad question though. This 
Committee has had a number of hearings based on that issue. You 
have gone over issues such as the credit system, you have 
addressed issues such as rating decisions and how rating 
decisions are made.
    At this time, I don't think I could give you an answer that 
would satisfy the amount of work that this Committee has put 
forward. I am happy to have a conversation with you or with 
staff or get back to you for the record if there is some 
specifies you would like.
    Mr. Hall. That is okay. Just one last brief question to 
each of you.
    We heard Congressman Hastings' story about his constituent 
veteran who had his pension removed in 2 days after having 
insurance claim resolved in his favor after being hit by a 
truck and having his service dog injured and needing veterinary 
care, as well as his wheelchair being totaled and he himself 
being injured.
    Does it strike you as odd and contradictory and 
unbelievable as it strikes me that the VA can make a decision 
in 2 days to take somebody's pension away when they get 
reimbursed for actual expenses, but yet it takes an average of 
180 days to decide a claim for benefits?
    It seems to me like the swiftness, alacrity and speediness 
of that decision gives us some indication of how quickly the VA 
might be able to move if the system were streamlined in the 
right way.
    Mr. Weidman.
    Mr. Weidman. Well that is exactly what I was talking about, 
is that most people who work for the VA get up every day and 
want to do something good for vets, and that is true in VBA as 
well as on the medical side of the House. But when they do 
things like that they earn a reputation of being able to move 
quickly when it is in the government's quote/unquote 
``interest,'' and not in the interest of the individual versus 
moving quickly, as an example if someone is on the street and 
they need an adjudication quickly and the evidence should be 
there to adjudicate quickly. In order to get them off the 
street it can still take forever.
    But 2 days to take away somebody's non service-connected 
pension we just think it smacks a mean spiritedness.
    And a lot of what happens within the VA has to do with 
organizational structure and rethinking things in a good way. I 
am trying to answer your question. It is thinking of things in 
a different way.
    One of the extraordinary things about General Eric Shinseki 
is he is pushing people to think about things in a different 
way.
    An example of that had to do with the GI Bill and a fact 
that we had an instant backlog on the 21st Century GI Bill. So 
what did he do? He called all 56 of those education 
coordinators into Washington, sat them down and said, what do 
we actually need to adjudicate this and why does it take so 
long? And they went through the procedures. And he said, well 
why does it take so long? Well it takes that long to follow the 
procedures. Well who wrote the procedures? And they said, well 
we did. And he said, all right, let us come back to, what do 
you actually need from these? And they reduced the number of 
key strokes per claim from 18 to 4 on the computer.
    It is a matter of having the same kind of commitment to 
moving with alacrity that you do in a case where there is a 
material change that would go against the veteran to move with 
that kind of alacrity when it goes to the veteran, that is 
number one.
    Number two, a one-time shot of cash does not constitute 
income, and we think that Mr. Hastings' bill will make that 
clear, particularly when it is just to hold the veteran 
harmless for something that happened to him or her beyond their 
control like an insurance settlement.
    And we vehemently disagree with whether it is VA's 
contention of Office of Management and Budget's (OMB's) 
contention, who knows, but that a veteran should be penalized 
for getting an award for pain and suffering for going through 
somebody running over him in a truck when they are going down 
the street in their wheelchair.
    Mr. Hall. Thank you.
    Mr. Wilson.
    Mr. Wilson. This is one of those circumstance in which you 
wish the VA had been more deliberative and taken an extended 
amount of time in order to respond to a situation of such 
devastation to an individual so severely handicapped as to lose 
essentially most every means of ability to manage themselves in 
their lives due to the injuries that they suffered and were 
fortunate to come back physically from that injury.
    We do believe the VA is moving in a proper direction to 
modify such outcomes and provide what we would hope would be an 
accurate quality decision.
    The whole business of the 30 plus pilots that we have in 
place now is an effort to do just that. And we have--we as VSOs 
sitting at this table have been actively engaged with them on 
the issue of pensions, on the issue of every other type of 
claim that VA has, and we appreciate being actively engaged. We 
would like to see ourselves engaged at the beginning of these 
particular processes, not later on, with an approach of oh, by 
the way we didn't talk to the VSOs, perhaps we should do so.
    For example, there is these VONAPs, Veterans Online 
Application, that was rolled out last year with modifications. 
After it had been modified we were brought into a briefing to 
see it, what does it look like? Mr. Augustine, our Deputy 
Services Director was there and said, it would be great to have 
a pop-up menu that says you have an opportunity to have a 
veteran service organization or other representation provided 
to you if you wish, and do you want to do so? Just as a prompt 
when you go through the application. That wasn't considered 
because we had not been involved in the beginnings of the 
VONAPs discussion to provide that kind of input.
    The virtual regional office (VRO) in Baltimore. They had 
subject matter experts go up and see it. We talked about having 
an opportunity to get up there, but they completed the entire 
VRO test without a single VSO having an opportunity to see the 
process.
    Lastly, the Providence, Rhode Island situation. An 
excellent idea is being tested there. We didn't have an 
opportunity to talk to them about setting it up. When we go and 
we find they have a contact center and they are calling up 
veterans who they know are represented by powers of attorney 
from the screens that they are seeing, asking them for 
information with no consideration of the power of attorney hold 
that we had and other organizations had. We said, let us know 
that you are talking to the veteran asking for information so 
then we can advise the veteran, who we hold power of attorney 
on, about whether it is wise to submit the information that is 
requested or what is the best information that needs to be 
provided.
    Those are concerns that we have. We are hopeful that 
Congress, and this Committee in particular, will continue to 
hold oversight hearings on particular issues about to ensure 
there is a deliberative and focused structure in place to 
monitor all 30 plus pilots; to access if the information 
technology (IT) system that they are putting together is 
adequate?
    We would suggest that perhaps an independent body coming in 
and looking at what is being done--not that VA is not perfectly 
capable--might be a useful thing to do to validate that the 
VA's approach to IT is correct.
    That kind of oversight involvement with the VSOs dealing 
with issues such as pension and all types of claims we think 
would be very useful to all concerned.
    Mr. Hall. Thank you, sir.
    Mr. Searle, do you have a brief comment to make about my 
observation or Mr. Alcee Hastings'?
    Mr. Searle. Yes, Mr. Chairman. I think back to your 
original question, that is an example of what I was trying to 
get at with the original question on the Fully Developed 
Claims.
    I think a movement like that, while it could technically be 
accurate and lawful, lends to the cynicism on the part of some 
veterans that the VA really is not there so help there.
    I think there is no question that General Shinseki, you 
know, has put the policy out and enforces a policy of, you 
know, the benefit goes to the veteran.
    Our concern is when you get down to the regional level, 
down to the individual taking a look at the claims level there 
appears to be in some cases more of an adversarial type of 
position and not trusting the veterans.
    And an example that you had shown would be the same type of 
thing you were concerned about with the Fully Developed Claims. 
No, everything is not there, we will deny the claim, rather 
than okay, let us pull it back out, put it in the general 
population and assist the veteran.
    Mr. Hall. Thank you.
    Mr. Hilleman.
    Mr. Hilleman. Mr. Chairman, unfortunately in the case of 
this gentleman who lost his pension in 2 days VA was enforcing 
the law, and we urge you to change that, because it was 
callous. VA was executing as it should have, unfortunately it 
was callus.
    VFW believes and maintains that any insurance claim, 
whether it be life insurance, auto insurance claim for an 
accident, or in this individual's case an insurance settlement 
for being struck by an automobile be exempt from pension. 
Pension is an extremely low threshold for any additional 
income.
    So we are talking about individuals who are living very 
close to the bottom of the poverty line.
    Thank you.
    Mr. Hall. Thank you, sir. I am pretty certain that this 
legislation--Mr. Hastings' legislation will change the law as 
you say and probably come out of the Subcommittee without a 
dissenting vote, and my guess out of the full Committee 
unanimously, and my guess is that it will pass the House and 
the Senate and be signed into law.
    And so my point is, in my own observation, and maybe it is 
not, it is apples and oranges, but if the law can be followed 
so quickly in one way, even if it is a mean spirited seeming 
decision, it may be legal, but they are following the law in 2 
days as opposed to when it is on the veteran's side. When it is 
for the veteran's benefit, it seems to take much longer to 
follow the law, and I guess that is what we are all getting at.
    At any rate, gentlemen, thank you for your testimony, and 
your written statements which we have made a part of the 
hearing record. And you are now free.
    Mr. Weidman. Mr. Chairman, can I just add one short thing?
    Mr. Hall. Yes, sir.
    Mr. Weidman. And this is I think an important point.
    I mentioned before that most people at VA get up in the 
morning and they do what they do because they care about 
serving vets. Many of them can serve outside of VA and make a 
good deal of more money. On both sides of that house whether it 
be Veterans Benefits Administration, or the Veterans Health 
Administration.
    And when they come up here to testify, Tom Pamperin is not 
a mean guy, loves his kids, doesn't kick dogs as far as I know, 
but you know, the answers are prepared by OMB, and yet they are 
the ones who are subject to it.
    I would just make one point that I have to make over and 
over again about Office of Management and Budget. You have less 
than 10 veterans out of 960 permanent employees at OMB, and 
they are subject to veteran's preference. Now how the heck does 
that happen if they are following the law? Real good question. 
The point is that none of them ever served a day in uniform, 
and the people that work on veterans.
    Back in 2001 they assured the veterans organizations, the 
big six, then deputy director, assures us that not only would 
she go to a VA hospital in a regional office, but that all of 
her staff would--the permanent staff. When we met last spring, 
a year ago, with the President and with the Office of 
Management and Budget people I saw those same people again on 
permanent staff and I said, so have you guys made it to a VA 
hospital yet? And the answer is none of them had ever been 
across the threshold of a VA hospital or across the threshold 
of a VA regional office, and probably didn't know any vets.
    My point is this, is that the Committee somehow, it strikes 
me and my organization, should communicate with Director Orszag 
and with the President that the people at Office of Management 
and Budget who are going to be making decisions that 
dramatically affect the impact of veterans lives should get 
beyond the numbers and go out and at least see what happens at 
VA regional offices, what happens at VA hospitals. Because if 
we didn't learn anything else in Vietnam we sure as hell 
learned that body count, even when accurate, didn't mean you 
were winning the damn war.
    And the OMB needs to stop setting up essentially a 
confrontation between VA staff, who now have a more open 
attitude than we have ever seen from Veterans Benefits 
Administration and the Congress, and the people who really set 
that confrontation up aren't even in the room.
    We have a real problem with that kabuki dance, and somehow, 
some way Office of Management and Budget and Mr. Orszag and his 
people need to be held accountable.
    Thank you for that opportunity to express that, Mr. 
Chairman.
    Mr. Hall. Thank you, Mr. Weidman. Thank you. I am sure Mr. 
Pamperin thanks you. And this panel is excused, and we will 
call our third panel: Thomas Pamperin, the Associate Deputy 
Under Secretary for Policy and Programs Management of the VBA, 
U.S. Department of Veterans Affairs, accompanied by Richard J. 
Hipolit, Assistant General Counsel of the U.S. Department of 
Veterans Affairs.
    Welcome gentlemen. Your written statements are made a part 
of the hearing record, so you are free to expand or to speak 
extemporaneously as you wish.
    Mr. Pamperin.

    STATEMENT OF THOMAS J. PAMPERIN, ASSOCIATE DEPUTY UNDER 
SECRETARY FOR POLICY AND PROGRAM MANAGEMENT, VETERANS BENEFITS 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
 ACCOMPANIED BY RICHARD J. HIPOLIT, ASSISTANT GENERAL COUNSEL, 
 OFFICE OF GENERAL COUNSEL, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Pamperin. Mr. Chairman, Members of the Committee, I am 
pleased to provide the Department of Veterans Affairs' views on 
pending legislation. Assistant General Counsel, Richard J. 
Hipolit, accompanies me, and I do appreciate Rick's endorsement 
of my character.
    VA did not have sufficient time to develop and coordinate 
the Administration's position and costs on H.R. 5549, the 
``RAPID Claims Act.'' With your permission we will provide this 
information for record.
    We also will provide in writing the completed cost 
estimates for Sections 3 and 5 of 3407.
    [The VA subsequently provided the cost estimates in the 
Post-Hearing Questions and Responses for the Record, which 
appear on p. 66.]
    Section 2 of H.R. 3407 would increase the special monthly 
rates for severely injured veterans.
    The VA cannot support the provision as written. We already 
have numerous authorities to provide the most severely disabled 
veterans with higher levels of care. Congress would need to 
identify appropriate offsets for the benefits costs, which are 
estimated at $351 million over 10 years.
    Section 3 would provide eligibility for automobile and 
adaptive equipment to disabled veterans and members of the 
Armed Forces with severe burns.
    VA does not object to the provision, subject to Congress 
identifying appropriate cost savings.
    We will provide cost estimates associated with the 
enactment of this provision on the record.
    Section 4 would increase non service-connected disability 
pension for certain wartime veterans.
    VA supports the intent of this provision, but VA couldn't 
support the provision without a better understanding rather of 
how the new proposed pension level was developed.
    Benefit costs are estimated at $160 million over 10 years.
    VA submitted a legislative initiative on May 26 to address 
special monthly pension changes required by the Court of 
Appeals for Veterans Claims decision in Hartness v.  Nicholson, 
and we believe--which we believe to be inconsistent with 
Congressional intent.
    Section 5 would provide eligibility for aid and attendance 
under Section O and R of special monthly compensation (SMC) for 
all levels of TBI.
    VA believes that expansion of eligibility should be 
reserved to those with severe TBI.
    Section 6 would authorize VA to increase the Medal of Honor 
special pension.
    We have serious concerns with this provision. This proposal 
does not indicate the purpose for providing only a temporary 
rate increase and provides no guidelines to determine the 
extent of an increase.
    VA estimates the cost of this provision would be $2 million 
over 2 years.
    Section 7 would extend current provisions relating to 
pensions for certain veterans in Medicaid approved nursing 
homes.
    VA supports this proposal and estimates that enactment of 
this provision would result in VA cost savings of approximately 
$6.2 million over 10 years.
    VA will provide the net budgetary effect to the Federal 
Government, including Medicaid costs in writing at a later 
date.
    Also States may incur costs as Medicaid will pay a larger 
share of nursing home care.
    H.R. 3787 would deem former members of the National Guard 
and Reserve who are not otherwise qualified--who do not 
otherwise have qualifying service to have been on active duty 
for VA purposes.
    VA does not support this bill, and we estimate that it 
would incur benefit costs of $15.5 billion over 10 years. VA 
administrative costs are estimated at $111 million.
    The alternate version of H.R. 3787 would broaden the 
definition of the term veteran in Section 101, but the broader 
definition of the term would not be applicable for purposes of 
compensation, dependency, indemnity compensation, and hospital, 
nursing home, domiciliary, or medical care.
    VA does not support this alternative version because it 
represents a departure from the active services of foundation 
for veteran status.
    H.R. 4541 would liberalize the existing exemptions from 
income for improved pension.
    We oppose excluding income payments received for pain and 
suffering because such payments do not represent reimbursement 
for expenses paid.
    VA does not oppose the remaining provisions of this 
section.
    The current law does permit exclusions from pension income 
calculations for reimbursements for any casualty loss that 
would not--and there would be no benefit costs associated with 
those provisions.
    Finally, H.R. 5064 would require the Court of Appeals for 
Veterans Claims to extend the 120-day period for appealing a 
Board of Veterans' Appeals decision to the Court of Veterans 
Appeals.
    Although VA supports the extension of the 120-day appeal 
period under certain circumstances, VA has several concerns 
with this bill.
    To avoid potential problems resulting from an unlimited 
appeal period and retroactive application, Secretary Shinseki 
submitted to Congress the Veterans Benefits Improvement Act of 
2010, which would take a more focused approach.
    We estimate the enactment of VA's legislation as proposed 
would result in no significant costs or savings.
    This concludes my statement, sir.
    [The prepared statement of Mr. Pamperin appears on p. 50.]
    Mr. Hall. Thank you, Mr. Pamperin. And you mentioned 
providing cost estimates to some of the bills that you don't 
have at the moment, and we would appreciate that--or to the 
sections of bills.
    You note in your testimony that VA does not support Section 
2 of H.R. 3407 stating that the VA already has numerous 
authorities to provide the most severely disabled veterans with 
higher levels of care. Specifically you named the Caregivers 
and Veterans Omnibus Health Services Act of 2010.
    Could you please explain why you feel that the Caregivers 
Act is more beneficial to veterans than Section 2 of this 
legislation?
    Mr. Pamperin. Sir, I don't--I would not mean to imply that 
it is better, merely that we have the capacity to pay higher 
levels of SMC based upon disabilities. They would be 
complimentary, but I would not say that one would be better 
than the other.
    Mr. Hipolit. If I might add to that. There are several 
provisions in that Caregivers Act that specifically apply to 
veterans with TBI, which I think are very beneficial. You may 
be familiar with it, but just to run down it quickly.
    Financial assistance and other benefits are given to 
caregivers for veterans who have severe disabilities from TBI. 
There is also a specialized residential care provision where we 
can contract to get care for veterans with TBI. There is also a 
provision for use of non-department facilities for rehab for 
traumatic brain injuries.
    So there are a number of very beneficial provisions in 
there for TBI veterans.
    I am not saying that qualitatively one is better than the 
other, but there are a number of good things in there for TBI 
veterans.
    Mr. Hall. Are those some of the quote ``numerous 
authorities,'' that VA has in place under written submission to 
provide care for severely disabled veterans? Are there others 
that you could specify?
    Mr. Hipolit. I think that basically what we are referring 
to are those provisions.
    Mr. Hall. Okay, thank you.
    Mr. Pamperin. The other thing, sir, that I would point out 
is that with the revision of the TBI rating schedule about a 
year and a half ago, with the expansion of it to enable the 
potential for 100-percent individual evaluation for TBI that 
there currently exists the ability to award aid and attendance 
benefits, SMC benefits for TBI.
    Now they are not at the O or R level, they are at the 
special monthly compensation L or aid and attendance rate. But 
we do have the authority right now to give SMC for TBI.
    Mr. Hall. Thank you, sir.
    And according to your testimony VA does not support the 
extension of eligibility for increased compensation for those 
veterans with multiple levels of TBI, or as you stated, 
characterized by minor symptoms.
    Could you please describe what you mean by minor symptoms 
resulting from TBI?
    Mr. Pamperin. Sir, as you may know, TBI is characterized as 
mild, moderate, or severe, approximate in time to the time of 
the injury, and that basically is a measure of how long a 
person is unconscious, and whether or not they have penetrating 
head wounds and things like that.
    It is possible with a mild TBI for an individual to 
completely or nearly completely recover if they only have one.
    So the notion that the current bill would enable for any 
level of TBI some sort of relatively minor spatial adjustment 
that would normally be compensated at the 10 percent level, we 
don't quite believe that that is the way SMC has normally been 
contemplated.
    SMC historically has always required that a veteran have 
100-percent disability rather than something less than that.
    Mr. Hall. On H.R. 3787, could you please elaborate on why 
the VA opposes the draft legislation proposed by Mr. Walz, why 
is it problematic, what are the implications?
    His intent, as I see it, is to have a--essentially a change 
of title of status of a Guard and Reservist to be able to call 
himself or herself a veteran but with no costs or benefits 
further than, you know, are already there.
    So what unintended consequences----
    Mr. Pamperin. Sir, I believe that the--obviously the bill 
as initially drafted would have been very, very expensive. The 
substitute bill----
    Mr. Hall. Right.
    Mr. Pamperin [continuing]. On its face articulates that it 
does not qualify people for additional benefits.
    Our concern is not with the immediate event as much as it 
is in a blurring of the definition so that over time additional 
benefits would be expended, fully recognizing that members of 
the Guard and Reserve today do sign up, as Mr. Weidman says, 
for the--not only the chance, but the increasing likelihood of 
a period of activation. Those individuals who do experience 
that activation indication are veterans under the title.
    What I would say that we are mostly concerned about is that 
a watering down of that particular word, which is foundational 
in the entire development of a benefit scheme, would be our 
concern.
    Mr. Hall. What are the implications of the draft 
legislation in amending Section 101 of title 38?
    Mr. Hipolit. I want to add on this subject or that there 
are a number of State laws that rely on our definition of 
veteran in title 38. We did a survey and we found that many 
States have laws that use the title 38 definition of veteran 
for purposes of various benefits that they give. We haven't 
done a complete survey, but I know there are at least a couple 
of status laws that we came across where being a veteran under 
title 38 gets you something under State law, for example a 
veteran's license plate.
    For most of the State benefits that we have seen you need 
something else, like a service-connected disability, as well as 
being a veteran under title 38, so these Reservists wouldn't 
qualify. But by changing the definition of veteran it could 
have an impact on some State law of benefits.
    So that is another thing that probably needs to be 
considered.
    Mr. Hall. Thank you. I understand your concern about 
lowering, or watering down, as you put it, the description or 
definition of a veteran and extension by State law of other 
benefits. At the same time, I have been to many events where 
those who serve this country in uniform are saluting the 
colors, and those such as I who have not are holding our hands 
over our hearts, and it is a symbolic status that is deserving 
of respect and honor. I think that if there is something that 
we can do to help Mr. Walz in the intention of this bill to 
fulfill that intent it is worth looking into. However, you have 
to look, Mr. Pamperin, down the road at future Congresses and 
future legislation that may use that definition for other 
purposes, but the Guard and Reserve today are not the Guard and 
Reserve of 30 years ago, and their service is not.
    We had a Colonel Norton who was a West Point grad and 
testified and said a number of interesting things before this 
Subcommittee, but I believe it was he who said the same 
uniform, same war zone, same benefits. We should treat these 
people the same way.
    So my question is, I guess whether the current definition 
of the number of deployments, the number of days, et cetera, is 
sufficient or whether Mr. Walz' amended bill is sufficient?
    Mr. Pamperin. Sir, we would be glad to work with the 
Committee on that, and our concerns in no way imply a lack of 
honor and respect for people who wear the uniform every day and 
the Guard and Reserve.
    Again, those who are activated are considered veterans, 
whether it is for--if you were called to active duty as a 
result of OEF/OIF, whether that period of service is a year or 
it is 6 months or it is 30 days, if you are mobilized under 
title 10, as long as you serve the period for which you are 
called you are considered a veteran.
    Mr. Hall. Regarding H.R. 4541, could you please tell us why 
VA opposes the exclusion of pain and suffering payments from 
pension and income calculations? How do these reimbursements 
differ from accident, theft, loss, casualty loss, or 
reimbursements that are addressed in Mr. Hastings' bill?
    Mr. Pamperin. Mr. Chairman, it may sound like a cold 
distinction, but the law, Public Law 95-588 that created the 
current pension law was very, very clear that all income from 
all sources other than public assistance is income for VA 
purposes.
    Through the process of regulations, and there was a 
mechanism to having reductions to income, we have made clear 
that insurance payments that are to recover for the veterinary 
expenses, the medical expenses, the wheelchair, those are 
excludable income.
    I realize that the individual in that case was injured and 
that they no doubt are fully deserving of the pain and 
suffering payment that they got, but the law as constructed and 
as having been interpreted has always been very clear that 
every source of income other than welfare is income.
    Mr. Hall. So we are considering changing the law.
    Mr. Pamperin. Yes, you are, sir.
    Mr. Hall. And can you tell me if you had any cost estimates 
or how you would go about costing this bill?
    Mr. Pamperin. I will get back to you on the status of the 
cost estimate, but I am sure there is data out there about the 
number of insurance settlements for pain and suffering that you 
could derive a percentage based upon the total veteran 
population and go from there.
    [The VA subsequently provided the information in the answer 
to Question 2(b) of the Post-Hearing Questions and Responses 
for the Record, which appear on p. 66.]
    Mr. Hall. Now we have been discussing and VA has been 
discussing on working on, as Dole-Shalala suggested, among 
others, payments for lost quality of life.
    Mr. Pamperin. Uh-huh.
    Mr. Hall. And it seems to me that--I mean even this 
particular incident that Mr. Hastings' constituent suffered 
through happened when he was not in the middle of his service 
but after his service, resulted in some loss of quality of his 
life, which was already suffering from his injuries during 
service.
    It seems kind of cross purposes to me to on one hand talk 
about quality of life and on the other hand exclude--or to 
include, to offset pain and suffering payments that are not 
coming from the government, they are coming from insurance 
companies.
    But any way, Mr. Hastings isn't here to ask these 
questions, so I am just trying to imagine what he would ask.
    Mr. Pamperin. Clearly, sir, this is a public policy issue 
that is directly what this body is intended to address.
    Mr. Hall. So your understanding of the VA's position today 
is that if pain and suffering payments were excluded from this 
bill you might support it?
    Mr. Pamperin. If pain and suffering is excluded from the 
bill, we believe that the items articulated there are already 
excludable.
    Mr. Hipolit. With the exception of medical expenses. I 
think the medical expenses would be a change, but we do not 
oppose that part of it. The pain and suffering is the one that 
we take a position against.
    Mr. Hall. Now do you know if on an occasion like this when 
someone in an RO makes a decision that a veteran is going to 
have their pension reduced or taken away for a year or whatever 
it is and then makes that decision within 2 days of receiving 
information and then a Congressional office advocates for the 
veteran and gets it reinstated. Does that caseworker at the VA 
get some reeducation? Is there some conversation about what 
just happened?
    Mr. Pamperin. One would hope that there would be. We will 
attempt to find out exactly who this particular veteran is.
    Mr. Hall. We know who the veteran is, but we don't know who 
the----
    Mr. Pamperin. Well we know his last name.
    Mr. Hall. That is true. Well Mr. Hastings I am sure can----
    Mr. Pamperin. Okay. You know, it would be rash of me to 
speculate as to what happened. If the benefit was actually 
restored, clearly somebody said well what about, you know, all 
of these expenses? But we will--we can look into it and find 
out exactly what happened.
    Mr. Hall. That would be good.
    I think we would appreciate having the VA provide a fuller 
explanation of the position of the Administration and the cost 
estimate for H.R. 4541 for the record if you could do that for 
us, please.
    And also I would like to know, I have no desire to go after 
an individual, but this is an example, about which, that I 
think that many of us, and certainly many veterans, would like 
to know more.
    When something is reversed like this, when an adverse 
decision is made for a veteran and then somebody else like a 
Member of Congress steps in or their representative or their 
staffer steps in and makes a call and it gets changed back 
again, and in this case it would seem to me like changing it 
back was the just thing to do, whether that ripples out through 
the VA to other people so that we try to keep this from 
happening again. At any rate, that is enough on that bill.
    Regarding H.R. 5064. Mr. Pamperin, in your testimony you 
made reference to the General Secretary Shinseki's proposed 
VBA--or ``Veterans' Benefits Programs Improvement Act of 
2010.'' This act, which would allow the VA to grant a 120-day 
extension for appeals, as long as the request is made within 
120 days of the expiration of the claimant's previous 120-day 
window.
    Given the often demanding nature of physical rehabilitation 
and debilitating effects of mental disabilities, would setting 
yet another strict deadline on top of a previous hard deadline 
adequately address the problem and provide the discretion to 
the Court to make equitable decisions?
    Mr. Pamperin. Sir, I believe that there are not that many 
cases where the Court has declined to accept jurisdiction 
because the person has not timely filed.
    We are talking about people who have gone through a fairly 
lengthy adjudication process through the Board of Veterans' 
Appeals.
    I think that somebody who now at the end of that process is 
not capable of fulfilling the 120-day situation when they have 
fulfilled every other time filing requirement, that those are 
exceptional cases, and that that is what an expectation to what 
would normally be a hard and fast rule where it would be 
important to have that kind of capability, but that it would be 
exercised fairly rarely.
    Mr. Hall. Could I ask you, Mr. Hipolit, if you have 
anything to say about the equity issue?
    Mr. Hipolit. On the good cause exception? Yes, we think 
that there needs to be some kind of reasonable extension 
available for good cause but that it needs to have some 
limitations on it.
    I think the bill as originally introduced would be 
extremely open ended, so that somebody could come back even 20 
years later and ask for a good cause exception and at that 
point it would be very difficult to know what the circumstances 
really were in the past.
    And so we think that our proposal places some reasonable 
limits on it. It would give essentially 240 days.
    Most of the cases that we have seen where somebody did miss 
a deadline, it wasn't by a huge amount of time. I think in Mr. 
Henderson's case it was 15 days.
    So I think that kind of limited exception would capture 
most of the cases and provide the Court with an opportunity to 
provide relief in cases where it was equitable.
    Mr. Hall. Thank you. And lastly regarding H.R. 5549.
    Mr. Pamperin, could you tell us why VA does not support 
this bill? Particularly how would the bill change the way VA 
currently preserves effective dates and provides VCAA notices?
    Mr. Pamperin. We haven't had the time to develop a position 
on the legislation. The legislation is very, very similar as 
Congressman Donnelly pointed out to the Fully Developed Claim 
process that was tested and is now being deployed.
    The notion that a person can't have an informal filing date 
protected is something that is--I don't believe is consistent 
with our perception of what the Fully Developed Claim is, that 
there is a possibility of doing an informal claim.
    And what happens in a Fully Developed Claim assertion where 
in fact the case is not fully developed is not that the case is 
denied, it merely reverts to a standard case that is not case 
managed to rapidly move it through the process.
    I mean, all cases are managed from a workload perspective, 
but on a Fully Developed Claim we are trying to move that as 
rapidly as possible so that, you know, there is much more 
management involvement in that specific case to make sure that 
it gets done timely.
    Mr. Hall. Is a VCAA then issued?
    Mr. Pamperin. Yes.
    Mr. Hall. Does the FDC program change the way these things 
are currently done, and if so, how?
    Mr. Pamperin. It doesn't change the decision process. I 
mean you need a claim, you need evidence, you need to decide 
it, and you need to notify.
    What the Fully Developed Claim does do is relieve you of 
some of the VCAA time limits and it puts it in a category of 
intensively managed cases so that they are done as quickly as 
humanly possible so that they don't spend a lot of time in cues 
in various areas of the regional office.
    Mr. Hall. Thank you.
    Mr. Hipolit, since you are here, this is not actually on 
our agenda, but I thought you might have some knowledge of this 
when the final language would be revealed on the presumed 
service-connection for post-traumatic stress disorder.
    The public hearing comment process was last fall, and my 
understanding is that is sort of any day now?
    Mr. Hipolit. I think we are pretty close on that now. We 
received a very large number of comments on that proposed rule 
and it took quite a while to sort that out, but the process is 
pretty far along now.
    I can't give a specific date when we will have the final 
rule out, but that is moving along very well now. I think we 
are----
    Mr. Hall. Well as we approach one of the more patriotic 
weekends that we celebrate, 4th of July, Independence Day, it 
would seem like a really good time to announce that all men and 
women who have served in uniform in this country in a war zone 
and who later have post-traumatic stress disorder will be not 
just treated, but compensated if they are unable to work 
because of their injuries. But if it is not this weekend one 
can hope that it will be soon.
    Mr. Pamperin. Sir, I believe you may get your wish.
    Mr. Hall. Well I'll keep my fingers crossed, thank you.
    Thank you very much for the work you do for our veterans, 
and I would like to talk to you about your relationship with 
OMB and with Mr. Weidman's comments in mind. Maybe we could set 
up a field trip for all of us to, you know, go visit some VA 
facilities together.
    I never see enough myself and learn enough myself, and the 
folks who are doing the financial analysis of some of these 
proposals perhaps could use some more exposure to what is 
really going on with our veterans. So we will work on that. We 
will put our staff to work on that.
    But thank you again.
    All Members have 5 legislative days to revise and extend 
their remarks.
    We thank all of our panelists for their service to our 
country and to our veterans. We thank everybody here for their 
testimony.
    And this hearing stands adjourned.
    [Whereupon, at 12:34 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Prepared Statement of Hon. John J. Hall, Chairman,
       Subcommittee on Disability Assistance and Memorial Affairs

    Good Morning Ladies and Gentlemen:
    Please rise for the Pledge of Allegiance.
    The purpose of today's hearing will be to explore the policy 
implications of five bills and one draft measure, H.R. 3407, H.R. 3787 
and accompanying draft legislation, H.R. 4541, H.R. 5064 and H.R. 5549 
that were recently referred to the House Committee on Veterans' 
Affairs' Disability Assistance and Memorial Affairs Subcommittee.
    The first bill we will discuss is the Severely Injured Veterans 
Benefits Improvement Act, H.R. 3407, introduced by Ranking Member Buyer 
which seeks to significantly increase the level of benefits available 
to our severely disabled veterans and Medal of Honor recipients. As a 
cosponsor of this bill, I support its provisions which would amplify 
the ancillary benefits relating to aid and attendance for traumatic 
injury for our veterans and to severe burn injuries of both veterans 
and active duty members for adaptive equipment automobiles, as well as 
increases for the non service-connected pension and Medal of Honor 
special pension.
    The second bill on today's agenda, H.R. 3787 and its accompanying 
draft legislation, Honor America's Guard-Reserve Retirees Act, both 
sponsored by Chairman Walz would grant honorary veteran status to 
retired members of the Guard and Reserve who completed 20 years of 
service. I support this bill and look forward to working through the 
kinks to ensure that these deserving men and women receive the 
distinction of being called veterans. Our Guard and Reserve comprise a 
large component of those called to serve in our two current wars. Those 
changing dynamics need to be reflected in the policy to reflect their 
level of sacrifice.
    Third is the Pension Protection Act of 2010, H.R. 4541, introduced 
by Mr. Alcee Hastings of Florida, which would prohibit VA from counting 
casualty windfall payments as income for the purposes of determining 
eligibility for the non service-connected pension benefit.
    Our fourth bill is the Fair Access to Veterans Benefits Act, H.R. 
5064 introduced by Congressman Adler of New Jersey which deals with the 
issue of equitable tolling for appeals filed before the Court of 
Appeals for Veterans Claims. The Court recently decided in Henderson v. 
 Shinseki that it does not have the ability to extend its 120-days 
filing period deadline and the Federal Circuit Court affirmed that 
decision. As a cosponsor of this legislation, I clearly believe that 
our veterans deserve the benefit of the doubt and the CAVC should be 
able to exercise its judgment to give it to them unfettered. This bill 
would ensure that those veterans who have good cause, just like in the 
case of Mr. Henderson, are not shut out of the appeals process without 
recourse.
    Our last bill is the Rating and Processing Individuals Disability 
Claims Act, or RAPID Act, H.R. 5549, introduced by a veteran member of 
the DAMA Subcommittee, Mr. Joe Donnelly. H.R. 5549 seeks to improve on 
the VA's adoption of the Fully Developed Claims Pilot provision in P.L. 
110-389 by ensuring that veterans are able to protect their effective 
date while fully developing their claim. It would also ensure that 
veterans are apprised of their appeals right when VA denies a claim.
    These are all worthwhile measures that will help our veterans 
tremendously. I thank the Members for their thoughtful legislation. I 
thank our other esteemed witnesses for joining us today and look 
forward to any further insight they may provide.
    I now yield to Ranking Member Lamborn for his Opening Statement.

                                 <F-dash>
  Prepared Statement of Hon. Doug Lamborn, Ranking Republican Member,
       Subcommittee on Disability Assistance and Memorial Affairs

    Thank you Chairman Hall,
    I look forward to this opportunity to confer with our witnesses on 
the bills we are considering this morning.
    To allow maximum time for discussion, I will limit my opening 
remarks to H.R. 3407 the Severely Injured Veterans' Benefits 
Improvement Act.
    This commendable bill was introduced by full Committee Ranking 
Member Steve Buyer to improve benefits for our most deserving veterans.
    These are the men and women who are so severely injured that they 
require assistance attending to daily personal needs such as bathing 
and eating.
    For veterans in need of regular aid and attendance, H.R. 3407 would 
provide a 50 percent increase in the amount they receive for special 
monthly compensation.
    This increase will ensure that they are able to acquire 
professional medical services that will allow them to remain in their 
homes.
    It would also expand eligibility for veterans with severe traumatic 
brain injury to receive aid and attendance, and it would authorize 
veterans with severe burns to receive specially adapted auto grants.
    H.R. 3407 would make these needed improvements without increases in 
direct spending.
    I urge my colleagues to support this bipartisan bill.
    Thank you, and I yield back.

                                 <F-dash>
              Prepared Statement of Hon. Timothy J. Walz,
        a Representative in Congress from the State of Minnesota

    Chairman Hall, Ranking Member Lamborn, fellow Members of the 
Committee, thank you for the opportunity to testify to the Subcommittee 
today regarding H.R. 3787, the Honor America's Guard Reserve Retirees 
Act.
    As a 24 year guardsman and a veteran myself, I am proud to sponsor 
this legislation, which has been a priority among the veterans 
community for years. As you are all well aware, the reserve component 
of our military performs an invaluable role in supporting the active 
duty component, responding in times of national emergency, and most 
importantly standing ready to deploy to overseas missions in times of 
need, as so many of those who have served in the Guard and Reserve 
post-September 11th have done.
    And for those who take on that responsibility and that risk for 20 
or more years, we reward their service much as we do the members of the 
active duty military, with things like military retired pay, medical 
care through the TRICARE program, and even burial in a veterans' 
cemetery.
    However, under current law, if members of the reserve component 
have not served a qualifying period of federal active duty, there is 
one honor that we do not bestow upon them: we do not give them the 
right to call themselves ``veterans'' of the armed forces.
    I believe that this oversight does a disservice to those who, like 
their counterparts in the active duty component, volunteered to serve 
their country and made themselves liable for activation at any time. 
Furthermore, I think it is a matter of basic common sense that if 
qualification for reserved retired pay is sufficient to secure 
government sponsored burial in a federal veterans' cemetery, it should 
also grant the right to offer a hand salute during the playing of the 
national anthem, or take part in official Veterans' Day events.
    While this may not seem important to some, for those who wore the 
same uniform, were subject to the same code of military justice, 
received the same training and spent 20 years or more being liable for 
call-up, this lack of recognition is a gross injustice.
    H.R. 3787 would finally correct this injustice in the most 
straight-forward way possible: by adding reserve component military 
retirees to the Title 38, section 101(2) definition of the term 
``veteran.'' This particular section of the U.S. Code is considered the 
most fundamental in defining who is and is not a veteran under our law. 
By including Guard and Reserve retirees under this, the most basic 
definition of veteran, we ensure that they are not relegated to second 
class veteran status, but are instead full, unalloyed veterans.
    As I have said, the sole purpose of this legislation is to grant 
veteran status to those who have been denied it up to this point. In 
light of this fact, we have gone to great lengths to ensure that no new 
material benefits accrue to those who would gain veteran status under 
this legislation.
    To begin with, as I have already mentioned, Guard and Reserve 
retirees already have access to a number of veterans' benefits, such as 
retirement pay, TRICARE medical care at age 60, space available 
military aircraft travel, and burial in veterans' cemeteries. 
Furthermore, due to the nature of their service, even as veterans they 
would not qualify for a host of other benefits such as those granted 
under the Post-9/11 GI Bill, which have a minimum active service 
requirement, or for things like VA Health care which have low-income 
requirements (the overwhelming majority of Guard Reserve retirees would 
be Priority Group 7 or 8).
    The original text as introduced used section 106 to qualify reserve 
component retirees by deeming their service active duty. While it would 
have achieved the goal of including this group in the section 101(2) 
definition of veterans, it would also have qualified them for a whole 
slew of benefits which are available only to veterans of active 
service.
    Because of my commitment that this legislation not create any new 
entitlements or benefits, I decided to reject that approach, and intend 
to introduce an amendment in the nature of a substitute that goes at 
the section 101(2) language directly. Furthermore, in order to avoid 
even the potential for any unintended or unforeseen benefits accruing 
to reserve component retirees, we have also included conforming 
amendments to Chapters 11, 13, and 17, covering all disability 
benefits, DIC payments and VA health care, which ensures that those 
servicemembers who qualify for veteran status under the new language 
shall not have access to any benefits to which they would not otherwise 
be entitled.
    The conclusion that this legislation will not result in any 
unintended consequences has been supported by both the non-partisan 
Congressional Budget Office, which has certified this legislation as 
adding no new burden on the Federal budget or cost to taxpayers, and by 
the Congressional Research Service, which has gone through the statute 
with a fine toothed comb and identified every single active reference 
to 38 USC 101(2)--a list which I will gladly share with anyone who is 
interested.
    And of course, in case there is anything the CBO and CRS experts 
have missed, I would be happy to work with the Disability and Memorial 
Affairs sub-committee staff to ensure that those issues are addressed 
in the final legislation.
    Finally, I would like to point out that this legislation is 
supported by the members of The Military Coalition, as well as the 
National Military Veterans Alliance, which together represent several 
million active duty servicemembers, veterans and their families.
    It is my hope that this hearing will address any outstanding issues 
with this legislation so that we can see this long overdue change made, 
and give the members of the reserve component the honor that they have 
earned.

                                 <F-dash>
             Prepared Statement of Hon. Alcee L. Hastings,
         a Representative in Congress from the State of Florida

    Chairman Hall, Ranking Member Lamborn, Distinguished Members of the 
Subcommittee:
    Thank you for holding today's hearing and for the opportunity to 
testify on H.R. 4541, the Veterans Pensions Protection Act of 2010. I 
am grateful for the leadership of the Subcommittee and its long-
standing and unwavering commitment to America's veterans. I share with 
you the goal of building better lives for all veterans and their 
families.
    Before I begin, I would like to welcome and recognize the veterans 
in the room today and express my gratitude for their service to our 
Nation. Each of you has made a difference in the history of our Nation 
and in the lives of so many. I would also like to thank the veterans' 
organizations for their constant hard work improving veterans' lives 
and for appearing before the Subcommittee today.
    In the spring of 2009, one of my constituents, a navy veteran with 
muscular dystrophy, reached out to my office in desperate need of 
assistance. The Department of Veterans Affairs (VA) had abruptly 
cancelled his pension and he had fallen below the poverty line. Unable 
to pay for daily expenses, unable to meet his mortgage payments, Mr. 
Scriber was on the verge of losing his home and joining the ranks of 
the 100,000 homeless veterans in our Nation.
    Mr. Scriber did not break the law, nor did he commit any crime. In 
March 2008, he was hit by a truck when crossing the street in his 
wheelchair, with his service dog. Mr. Scriber was on his way to the 
pharmacy. ``People who saw it said I went 10 feet into the air. I 
landed head-first into the pavement,'' he told me. Mr. Scriber suffered 
from broken bones and teeth. His dog was also injured and his 
wheelchair destroyed.
    As a law-abiding citizen, Mr. Scriber reported to the VA the 
insurance settlement payment that he received from the driver's 
insurance to cover his medical expenses and the replacement cost of his 
wheelchair. As a result, the VA cancelled his pension benefits for an 
entire year.
    When assessing a veteran's eligibility for a pension, the VA 
considers a variety of sources of revenue to determine a veteran's 
annual income. If such income exceeds the income limit set by the VA, 
the veteran does not qualify for a pension or loses their benefits. 
Currently, the VA considers any reimbursement that compensates a 
veteran for his or her expenses due to accidents, theft or loss as 
income. Only reimbursements of expenses related to casualty loss are 
currently exempted from determination of income.
    Under the current law, if a veteran is seriously injured in an 
accident or is the victim of a theft and receives insurance 
compensation to cover his or her medical expenses, the replacement cost 
of the stolen items, or for pain and suffering, he or she will likely 
lose their pension as a result. This means that the law effectively 
punishes veterans when they suffer from such an accident or theft.
    Mr. Scriber reached out to the VA several times, asking to have his 
pension reinstated because he could not cover his medical expenses, 
replace his wheelchair, pay for daily expenses, and afford his mortgage 
without his pension. Each time, the VA refused to reinstate his 
pension. This is when I became personally involved. I contacted the 
West Palm Beach VA medical center and wrote several letters to 
Secretary Shinseki but the VA did not change its policy, nor did they 
restore Mr. Scriber's benefits for a whole year.
    I am distraught that the VA can cancel the pensions of unemployed 
and disabled veterans without further notice. The VA has a moral 
responsibility to care for our veterans and ensure that they live 
decent lives. After serving our Nation so valiantly, they deserve no 
less than the very best benefits. No veterans should be unable to pay 
their medical bills, unable to get the care that they need, or be in a 
situation where they could lose their home. This is simply unacceptable 
and this is why I introduced H.R. 4541, the Veterans Pensions 
Protection Act.
    The Veterans Pensions Protection Act will amend the U.S. Code to 
exempt the reimbursement of expenses related to accidents, theft, loss 
or casualty loss from being included in the determination of a 
veteran's income. This will guarantee the continuity of our veterans' 
pensions and that no veteran will have their benefits unfairly and 
abruptly depreciated or cancelled. My distinguished colleague in the 
Senate, Mr. Tester of Montana introduced the Veterans Pensions 
Protection Act last month after a similar incident happened to one of 
his constituents.
    I understand that the VA is facing increasing issues with regards 
to providing care and benefits to our returning servicemembers, and the 
veterans of previous conflicts. With more veterans coming home from 
Iraq and Afghanistan, the costs of transition and long-term care 
continue to increase. The backlog of claims filed by those who served 
in uniform is growing. While I understand these difficulties, I refuse 
to let them overtake our veterans' well-being. The VA must ensure that 
no veterans are left behind, like Mr. Scriber was.
    There is clearly something wrong with a law that cancels veterans' 
pensions for a whole year following the award of an insurance payment, 
which was only intended to cover exceptional medical expenses. Mr. 
Scriber will never be compensated for his loss. It disheartens me that 
veterans are overlooked and mistreated due to flaws in VA regulations. 
I urge the VA to support the Veterans Pensions Protection Act and the 
Subcommittee on Disability Assistance and Memorial Affairs to take 
action on it.
    Mr. Chairman, we must ensure that pension benefits are issued to 
veterans who legitimately meet the income criteria and rely on such 
assistance to survive. We must enact regulations that help veterans 
live better lives, not hurt them. Our veterans have shown their 
devotion to our Nation with their bravery and sacrifice. We must now 
prove our dedication to those heroes by treating them in accordance 
with the values and ideals upon which we have founded this great 
Nation.
    Mr. Chairman, Ranking Member Lamborn, Distinguished Members of the 
Subcommittee, this concludes my testimony. I would be pleased to answer 
any questions you may have. Thank you.

                                 <F-dash>
Prepared Statement of Hon. John H. Adler, a Representative in Congress 
                      from the State of New Jersey

    I would like to thank Chairman Hall, Ranking Member Lamborn, and 
Members of the Subcommittee for the opportunity to testify on behalf of 
H.R. 5064, the Fair Access to Veterans Benefits Act. This Subcommittee 
has been integral in ensuring that our veterans are receiving the 
benefits they deserve. I commend you on your leadership.
    The need for H.R. 5064 came from a federal appeals court ruling in 
which a Korean War veteran, David Henderson, who suffers from paranoid 
schizophrenia, was denied benefits because his appeal was filed 15 days 
late. The deadline that Mr. Henderson missed was one that required 
filing an appeal within 120 days of the final notice from the Board of 
Veterans' Appeals, the highest administrative authority in the claims 
process.
    Mr. Henderson served in the military from 1950 to 1952. He was 
discharged after being diagnosed with mental health problems and 
assigned a 100 percent disability rating, making him eligible for 
disability compensation. In 2001, Henderson sought an increase in 
compensation based on his need for in-home care. His claim was denied 
at the VA regional office, and the denial was upheld in 2004 by the 
Board of Veterans' Appeals.
    Mr. Henderson appealed to the U.S. Court of Appeals for Veterans' 
Claims, but he filed his appeal 15 days too late. He tried but failed 
to get the court to reconsider, arguing that his service-connected 
disability caused him to miss the deadline. The veterans' court 
rejected his argument and the U.S. Court of Appeals for the Federal 
Circuit agreed, in Henderson v.  Shinseki, that the veterans' court was 
right to reject a late appeal.
    My bill would require the U.S. Court of Appeals for Veterans' 
Claims to hear appeals by veterans of administrative decisions denying 
them benefits when circumstances beyond their control render them 
unable to meet the deadline for filing an appeal. The Fair Access to 
Veterans' Benefits Act would require the U.S Court of Appeals for 
Veterans' Claims to excuse late filings if the veteran demonstrates 
``good cause'' so that meritorious benefits claims are not denied their 
day in court. This bill also requires the Veterans' Claims Court of 
Appeals to reinstate untimely appeals already dismissed as a result of 
the court's failure to toll the filing period for good cause.
    The veterans' claims process is extremely difficult to navigate, 
especially when doing so without the aid of an attorney or while 
suffering from a mental disability. While the Veterans' Claims Court of 
Appeals was intended to be informal and fair, the imposition of rigid 
deadlines has resulted in the denial of benefits for many veterans. 
Oftentimes, the reason these veterans missed the filing deadline was 
because of the very service-connected disabilities that entitle them to 
the benefits they are seeking. It is my hope that H.R. 5064 will help 
ensure that no veteran is denied disability benefits simply because 
they have missed an arbitrary deadline.
    I would again like to thank Chairman Hall, Ranking Member Lamborn, 
and Members of the Subcommittee for allowing me the time to testify on 
this important matter. I would be happy to answer any questions you 
might have.

                                 <F-dash>
                Prepared Statement of Hon. Joe Donnelly,
         a Representative in Congress from the State of Indiana

    Chairman Hall and Ranking Member Lamborn, Members of the 
Subcommittee, thank you for the opportunity to discuss my bill before 
the DAMA Subcommittee today.
    After closely working with the Iraq and Afghanistan Veterans of 
America and the Disabled American Veterans, I have introduced H.R. 
5549, The Rating and Processing Individuals' Disability (RAPID) Claims 
Act, along with Chairman Hall. The goal of The RAPID Claims Act is to 
improve the disability claims process for our Nation's veterans, 
something we all agree is necessary.
    In 2008, Congress passed The Veterans' Benefits Improvement Act 
(P.L. 110-389). Included in the bill was the Fully Developed Claim 
(FDC) pilot program, which allows veterans filing fully developed 
claims to waive the lengthy development period and receive expedited 
consideration. FDC was originally a 1-year pilot program conducted at 
10 VA Regional Offices, and, due to its success, VA recently announced 
that it would implement the program nationwide.
    I support VA's decision to rollout this program nationwide; 
however, I would like to see FDC become law with a couple small 
improvements. The RAPID Claims Act would codify FDC while also 
modifying it to protect a veteran's effective date for disability 
compensation and ensuring a veteran who mistakenly files an 
unsubstantially complete claim in FDC is given fair notice what further 
evidence is needed to complete the claim.
    When participating in the normal claims process, a veteran can 
submit a claim at any time--marking the claim's effective date--and the 
veteran still has up to a year to gather evidence. However, a veteran 
seeking to participate in FDC may gather evidence independently, 
preventing an establishment of an effective date for that veteran's 
disability compensation. This evidence period can take months or up to 
a year, costing a veteran hundreds or even thousands of dollars in 
missed benefits. The RAPID Claims Act would allow a veteran gathering 
evidence for a fully developed claim to mark an effective date for his 
or her compensation by notifying VA that a fully developed claim is 
forthcoming. Marking this effective would help ensure that the 
veteran's compensation is made retroactive to an appropriate date.
    Additionally, some veterans will submit claims through FDC that VA 
will decide do not qualify for the program for a number of reasons, 
including missing evidence. If VA determines that a claim submitted 
through FDC is ineligible, I am concerned VA may not immediately notify 
the veteran of what is needed to substantiate the claim. If VA 
processes the claim before notifying the veteran, this could lead to 
incomplete and unsatisfactory results for the veteran, causing more 
appeals and longer processing periods for veterans. The RAPID Claims 
Act would modify FDC to require VA to notify and assist the veteran to 
help substantiate such claims.
    Finally, The RAPID Claims Act also has a provision targeted at the 
appeals process. The bill would require that the VA Appeals form is 
included with the Notice of Decision letter, instead of waiting for a 
veteran to exercise his or her appeal rights before sending the form to 
the veteran. I believe this is a simple courtesy VA could extend to our 
Nation's veterans.
    Once again, thank you Chairman Hall, Ranking Member Lamborn, and my 
Subcommittee colleagues for the opportunity today to highlight what I 
feel are simple solutions to help improve the disability claims process 
for our veterans. While we have achieved much on behalf of our veterans 
in recent years, I think we all agree further steps are needed to 
reduce the wait times faced by veterans and to simplify the process. 
Thank you.

                                 <F-dash>
               Prepared Statement of Richard F. Weidman,
         Executive Director for Policy and Government Affairs,
                      Vietnam Veterans of America

    Good morning, Mr. Chairman, Ranking Member Lamborn, and 
distinguished Members of the Subcommittee. Thank you for giving Vietnam 
Veterans of America (VVA) the opportunity to offer our comments on the 
important legislative proposals under consideration today.
    H.R. 3407, the ``Severely Injured Veteran Benefit Improvement Act'' 
would increase rates of the following veterans' benefits: (1) wartime 
disability compensation for veterans in need of regular aid and 
attendance or higher levels of care; and (2) the non service-connected 
disability pension for veterans of a period of war whose disability is 
rated permanent and total and who are permanently housebound.
    H.R. 3407 also makes disabled veterans with severe burn injuries 
eligible for automobile and adaptive equipment assistance; and, it 
makes veterans who suffer traumatic brain injury eligible for wartime 
disability compensation; and, this bill also authorizes the Secretary 
of Veterans Affairs (VA) to increase the rate of the special pension 
for persons entered on Medal of Honor rolls.
    Lastly, H.R. 3407 would extend to September 30, 2021, provisions 
concerning the treatment of pension amounts of Medicaid-covered 
veterans who are receiving nursing facility services.
    Vietnam Veterans of America applauds Congressman Buyer for 
introducing this much needed legislation, and also commends the more 
than two dozen co-sponsors from both sides of aisle. This proposal 
would recognize the needs of veterans with severe Traumatic Brain 
Injuries (TBI) and terrible burns to make sure that the special needs 
of these severely wounded veterans are properly recognized and 
compensated to put them on an appropriate par with veterans suffering 
more ``traditional'' catastrophic injuries. Frankly TBI and terrible 
burns from explosive devices have become ``signature wounds'' of our 
current conflicts in Iraq and Afghanistan, along with Post Traumatic 
Stress Disorder (PTSD). When Congressman Buyer introduced this 
important legislation, almost 1 year ago, he correctly noted that many 
(if indeed not most) of these servicemembers would likely have died of 
their wounds in earlier conflicts, therefore it is incumbent on us to 
make sure that the law (and the regulations) reflect the fact that they 
survived and have significant needs that need to be properly addressed. 
It is right and fitting to modify the statutes to ensure that those 
with severe TBI and burns are eligible for automobile and for adaptive 
equipment, and that those with TBI be eligible for wartime disability 
compensation and eligible for aid and attendance.
    Earlier this year Congress passed the so-called ``Care Givers'' 
bill, which VVA supported, even though this bill only assisted the 
caregivers for the veterans of a single conflict. This distinguished 
Committee has a long and history and deep tradition of at least trying 
to ensure equity among the generations, and trying to ensure that one 
generation of veterans is not in effect pitted against another 
generation. The referenced legislation was and is much welcomed by the 
caregivers for the current generation of veterans who have returned 
from the Global War On Terror, as well as by all of us who care deeply 
about their well-being, and the Congress is to be commended for this 
important step. That program is indeed needed to ensure that these 
veterans and their families have every opportunity to stay together, 
solvent, and in their home with dignity and with a relatively decent 
standard of living. The motivation to ``do right by this new 
generation'' and not repeat what the country did to those returning 
from Vietnam and our families is very strong.
    While H.R. 3407 takes a somewhat different approach, enactment of 
this proposed legislation would go a long way toward restoring equity 
for those who have been providing care for veterans of earlier 
conflicts by significantly increasing the rate of special compensation 
to all severely disabled veterans, thereby easing the strain of caring 
for these veterans most in need. It would also accord a major increase 
to non service connected severely disabled wartime veterans who are 
housebound, many of whom served our country well in earlier wars and 
are now in need of such assistance. It will have the effect of making 
it possible for these veterans to stay in their homes, with dignity, as 
they approach the end of life. While we are grateful for COLAs when 
they come, this has not been enough to have nearly the effect that this 
bill will have on these deserving veterans.
    Lastly, H.R. 3407 authorizes the Secretary of Veterans Affairs to 
increase the special pension for persons entered on the Medal of Honor 
rolls, within the limit of existing funds, up to $2,000 per month. As 
there are only 80 or fewer living recipients, this will obviously not 
be fiscal strain on the country, but will help better recognize these 
extraordinary Americans.
    H.R. 3787 the ``Honor America's Guard-Reserve Retirees Act'' (As 
Amended By Nature of A Substitute) would deem as active duty service, 
for purposes of benefits provided through the Department of Veterans 
Affairs (VA), service of a person entitled to retired pay for non-
regular (reserve) service or, but for age, would be so entitled.
    With the advent of the ``total force'' concept in the overall 
United States military, and the very heavy reliance on Reserve forces 
of all of the braches of our military, and also heavy reliance on the 
National Guard, to wage war and to accomplish the mission of defending 
the Nation, the very nature of service in these units has so 
dramatically changed for these personnel since they first entered 
service as to make the previous distinction between active duty and 
Guard-Reserve a very blurred line indeed. There is a need to change the 
law regarding benefits accorded by the VA to reflect these changes in 
the nature of service. The axiom ``same hostile fire--same benefits'' 
is appropriate here. VVA strongly favors enactment of this bill.
    H.R. 4541 the ``Veterans Pensions Protection Act of 2010'' would 
exclude from annual income, for purposes of eligibility for pensions 
for veterans and their surviving spouses and children, reimbursements 
resulting from: (1) any accident; (2) any theft or loss; (3) any 
casualty loss; (4) medical expenses resulting from any such accident, 
theft, or loss; and (5) pain and suffering (including insurance 
settlement payments and general damages awarded by a court) related to 
such accident, theft, or loss.
    The VA practice of including all funds received from any source, 
including one time receipt of restitution of property for theft or 
fire, as income for those on non service connected pension from VA was 
never a particularly wise one, and was often seen a just plain perverse 
and mean spirited. VVA commends Mr. Hastings and his colleagues who 
have co-sponsored this measure, and urge the Congress move toward 
enactment at an early date.
    H.R. 5549 ``The Rating and Processing Individuals' Disability 
Claims Act' or the `RAPID Claims Act' '' would allow a veteran who has 
representation from an accredited representative to waive lengthy 
waiting periods when filing a claim if they and their representative 
have gathered all evidence and relevant information, and it would 
further require the Secretary to consider the claim in an expeditious 
manner.
    VVA has long maintained that the key to eliminating the backlog is 
proper preparation of claims, and making the process yield more 
accurate determinations. This very simple and straightforward bill will 
codify what is just common sense.
    VVA favors early passage of this legislation.
    H.R. 5064 the ``Fair Access to Veterans Benefits Act of 2010'' 
would extend the 120-day limit for the filing of an appeal to the Court 
of Veterans Appeals after a final decision of the Board of Veterans' 
Appeals upon a showing of good cause for such time as justice may 
require. The proposal considers as good cause the inability of a person 
to file within the 120-day period due to a service-connected 
disability. Further, the bill would make such extension applicable to 
appeals of final Board decisions issued on or after July 24, 2008.
    It has never made any sense to those of us at Vietnam Veterans of 
America (VVA) that the VA can take any amount of time such as they may 
consume to take an action on a claim by an individual veteran, but woe 
to the veteran who misses a VA deadline, no matter how valid the 
reason. This proposed action simply makes this process a bit more 
equitable in that if the veteran misses a deadline due to that very 
disability in question, or a related disability, then the appeal will 
be considered.
    VVA strongly favors early passage of this legislation.
    Mr. Chairman, this concludes my remarks. Many thanks to you and 
your colleagues again for allowing Vietnam Veterans of America (VVA) to 
share our views with this distinguished committee today. I will be 
pleased to answer any questions you or your colleagues may have.

                                 <F-dash>
                 Prepared Statement of John L. Wilson,
  Assistant National Legislative Director, Disabled American Veterans

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to have this opportunity to appear before you on 
behalf of the Disabled American Veterans (DAV) to address the various 
bills under consideration by this Subcommittee today.
    H.R. 3407, the Severely Injured Veterans Benefit Improvement Act of 
2009, would amend title 38, United States Code, to make certain 
improvements to laws administered by the Secretary of Veterans Affairs 
relating to benefits for severely injured veterans.
    Section 2 would increase the rate of monthly disability 
compensation for severely injured veterans subject to section 5503 (c) 
of title 38 in need of regular aid and attendance from $1,893 to $2,840 
and from $2,820 to $4,230 for those eligible under paragraphs one and 
two respectively. DAV supports this increase in monthly compensation 
for this important group of veterans who must deal with significant 
levels of disability as a result of their service-connected conditions.
    Section 3 would expand the eligibility for automobile and adaptive 
equipment grants to disabled veterans and members of the armed forces 
with severe burn injuries. Currently a veteran or servicemember must 
have the loss, or permanent loss of use, of one or both feet; loss, or 
permanent loss of use, of one or both hands, or permanent impairment of 
vision in both eyes to a certain degree. Those qualified for the 
automobile grant must currently have ankylosis, immobility of the 
joint, of one or both knees or hips resulting from an injury or disease 
incurred or aggravated by active military service may also qualify for 
the adaptive equipment grant. Adaptive equipment includes power 
steering, power brakes, power windows, power seats, and special 
equipment necessary to assist the eligible person into and out of the 
vehicle.
    While DAV supports the expansion of this benefit, we must also 
raise the related issue of the adequacy of automobile and adaptive 
equipment grants themselves. Because sporadic adjustments have not kept 
pace with increasing costs, over the past 53 years the value of the 
automobile allowance has been substantially eroded. In 1946, the $1,600 
allowance represented 85 percent of the average retail cost and was 
sufficient to pay the full cost of lower priced automobiles. The 
Federal Trade Commission cites National Automobile Dealers Association 
data that indicate that the average price of a new car in 2009 was 
$28,400. The current $11,000 automobile allowance represents 62 percent 
of the 1946 benefit when adjusted for inflation by the Consumer Price 
Index (CPI); however, it is only 39 percent of the average cost of a 
new automobile. To restore equity between the cost of an automobile and 
the allowance, the allowance, based on 80 percent of the average new 
vehicle cost, would be $22,800. In accordance with The Independent 
Budget and DAV Resolution 171, our recommendation is that Congress 
enact legislation to increase the automobile allowance to 80 percent of 
the average cost of a new automobile in 2009 and then provide for 
automatic annual adjustments based on the rise in the cost of living. 
We also recommend that Congress consider increasing the automobile 
allowance to cover 100 percent of the average cost of a new vehicle and 
provide for automatic annual adjustments based on the actual cost of a 
new vehicle, not the CPI.
    Additionally, in accordance with DAV Resolution No. 172, we note 
that section 3902 of title 38, United States Code, and section 
17.119(a) of title 38, Code of Federal Regulations, restrict the 
eligibility for adaptive equipment to those veterans who qualify for 
the automobile grant as specified in section 3901 of title 38, United 
States Code. Not all veterans whose service-connected disabilities 
prohibit the safe operation of a motor vehicle meet the requirements of 
section 3901 of title 38, United States Code and we contend that 
veterans should be provided the adaptive equipment necessary to safely 
operate a motor vehicle. Therefore, DAV recommends that Congress adopt 
legislation to provide or assist in providing the adaptive equipment 
deemed necessary to any veteran whose service-connected disability 
interferes with the safe operation of a motor vehicle.
    Section 4 would increase the non service-connected pension payments 
for certain veterans. DAV has no position on this issue.
    Section 5 would expand the eligibility of veterans with traumatic 
brain injury for aid and attendance benefits. Veterans currently 
eligible in this category include bilateral deafness (and the hearing 
impairment in either one or both ears is service connected) rated at 60 
percent or more disabling and the veteran has also suffered service-
connected total blindness with 20/200 visual acuity or less, or if the 
veteran has suffered service-connected total deafness in one ear or 
bilateral deafness (and the hearing impairment in either one or both 
ears is service connected) rated at 40 percent or more disabling and 
the veteran has also suffered service-connected blindness having only 
light perception or less, or if the veteran has suffered the anatomical 
loss of both arms so near the shoulder as to prevent the use of 
prosthetic appliances. DAV has no position on this issue.
    Section 6 would authorize the Secretary of Veterans Affairs to 
increase the Medal of Honor special pension by up to $1,000 more per 
month, as funds are appropriated. DAV would not be opposed to this 
group of veterans who have rightfully earned this Nation's highest 
honor to also received increased compensation as detailed in this 
legislation.
    Section 7 amends title 38, United States Code, section 5503, which 
addresses hospitalized veterans and estates of incompetent 
institutionalized veterans. This bill extends the statute for 
hospitalization eligibility dates for treatment of veterans with non 
service-connected disabilities from September 30, 2011 to September 30, 
2021. DAV has no position on this issue.
    H.R. 3787 would amend title 38, United States Code, to deem certain 
service in the Reserve components as active service for purposes of 
laws administered by the Secretary of Veterans Affairs. Specifically, 
this bill seeks to extend ``veterans status'' to individuals who have 
completed 20 years of military service in Reserve status. While DAV has 
no resolution on this matter, we do have concerns that by granting 
veterans status now there may be unintended consequences in the future. 
A redefinition of the term veteran may then lead to efforts to extend 
benefits due those newly defined and their dependents and survivors. 
This potential for the expansion of benefits could then negatively 
impact the benefits available to current veterans, their dependents and 
survivors.
    H.R. 4541, the Veterans Pensions Protection Act of 2010, would 
exempt reimbursements of expenses related to accident, theft, loss, or 
casualty loss from determinations of annual income with respect to 
pensions for veterans and surviving spouses and children of veterans. 
This legislation is outside the scope of the DAV's mission as it 
addresses pension benefits for non service-connected conditions. We 
nonetheless have no opposition to its favorable consideration.
    H.R. 5064, the Fair Access to Veterans Benefits Act of 2010, would 
provide for the equitable tolling of the timing of review for appeals 
of final decisions of the Board of Veterans' Appeals. Essentially, 120-
day period would be extended to claimants when they can provide a 
showing of good cause for not previously having been able to file a 
notice of appeal within the normally prescribed timeline. Examples of 
``good cause'' include issues such as physical or mental incapacities. 
Current law does not provide for equitable tolling of the appeal period 
if a veteran is physically or mentally incapacitated and unable to file 
the appeal within the allotted time period. Yet, it is these very 
disabilities that may significantly impact a veteran's ability to file 
the appeal paperwork in the proper time frame. DAV has testified on 
this proposal. This bill partially fulfills DAV Resolution No. 226, 
which calls for legislation to broaden the definition of equitable 
tolling, or the addition of a good cause provision to ensure that all 
veterans are not prevented from timely filing appeals for adverse 
decisions due to physical or mental incapacities, sending the request 
for appeal to the wrong office or other good cause reasons. DAV 
certainly supports this legislation as it moves the appeals process 
closer to providing a reasonable opportunity for veterans in certain 
circumstances to continue their appeals.
    H.R. 5549, the Rating and Processing Individuals' Disability Claims 
Act or the RAPID Claims Act seeks to provide expedited procedures for 
the consideration of certain veterans' claims. Specifically, the bill 
would expedite those claims certified as fully developed for 
individuals represented by veterans service organizations (VSOs) or 
other representatives who waive the development period afforded them by 
the Veterans Claims Assistance Act. Further, if the claimant submits 
written notification of their intent to submit a fully developed claim 
and then does so within 365 days of that notice, the Secretary will 
accept this informal claim when it is submitted with the date of claim 
as that of the claimant's original informal claim notice. Lastly, this 
bill would reinstate VA's duty to assist when VA deems a claim is not 
ready to rate and requires them to notify the claimant accordingly.
    The Fully Developed Claim (FDC), mandated by Congress under Public 
Law 110-389, was recently launched by the VA and is similar to this 
bill in seeking to expedite claims that are ready to rate. However the 
VA's FDC program is missing key protections for veterans that this bill 
offers. First, under the FDC pilot there is no provision that would 
allow a veteran to file an informal claim to protect their effective 
date before submitting the FDC application.
    Also, under the current claims system, a veteran may submit an 
informal claim before beginning development in order to secure an 
earlier effective date for a later disability rating. The FDC program, 
while quicker once adjudication begins, does not protect this earlier 
date, forcing a veteran to choose between an earlier effective date or 
quicker claims processing. Second, when a veteran elects to participate 
in the FDC program and waives some VCAA notice requirements, there are 
no provisions requiring that VA comply with notice requirements should 
that claim be returned to the normal claims process.
    H.R. 5549 offers important adjustments to current processes that 
the VA has yet to incorporate into its many pilots. We recommend its 
passage.
    We are pleased with the interest that Congress has shown in its 
oversight and investigation of the benefits delivery process. While we 
also applaud the Veterans Benefits Administration (VBA) for their 
openness and outreach to the VSO community, we still remain concerned 
about their failure to integrate us into their reform efforts or 
solicit our input at the beginning of the process. This is a mistake 
for a number of reasons: VSOs not only bring vast experience and 
expertise about claims processing, but our local and national service 
officers hold power of attorney (POA) for hundreds of thousands of 
veterans and their families. In this capacity, we are an integral 
component of the claims process. We make VBA's job easier by helping 
veterans prepare and submit better claims, thereby requiring less time 
and resources for VBA to develop and adjudicate veterans' claims. We 
would encourage VBA to integrate us during the planning stages of new 
initiatives and pilots, as well as throughout the ongoing Information 
Technology (IT) development.
    We also encourage Congress to await enactment of other legislation 
modifying any particular approach in the claims process until the 
results of the 30-plus pilots are known. Additionally, we would 
encourage Congress to continue to use its oversight and investigation 
authority in working with the Administration in examining the many 
initiatives currently underway. Questions for your consideration remain 
in the midst of this flurry of activity. For example, is there a 
deliberative, focused structure in place to monitor these pilots? What 
was the planning for each of them? How are the findings for each of 
them organized? What is the plan to assess the successes and lessons 
learned? What is the standard for success? What metrics are in place? 
Do the metrics include timeliness, accuracy and quality measures? How 
are best practices being captured and integrated into other pilots? 
Does the IT piece of this plan respond to the call by VSOs to ensure we 
are kept in the information loop when new evidence is requested from a 
veteran?
    We are concerned that in an effort to meet the Secretary's goal of 
``breaking the back of the backlog'' there could be a bias towards 
process improvements that result in greater production over those that 
lead to greater quality and accuracy. Is the Veterans Benefit 
Management System (VBMS) being rushed to meet self-imposed deadlines in 
order to show progress towards ``breaking the back of the backlog?'' We 
have been told that rules-based decision support will not be a core 
component of the VBMS, but that it will be treated as a component to be 
added-on after its rollout, perhaps years later. We question whether 
the VBMS can provide maximum quality, accuracy and efficiency without 
taking full advantage of the artificial intelligence offered by modern 
IT through the use of rules-based, decision support. In addition, the 
VBMS must have comprehensive quality control built in, as well as 
sufficient business practices established, to ensure that there is 
real-time, in-process quality control, robust data collection and 
analysis and continuous process improvements.
    We would urge the Committee to fully explore these issues with VBA. 
With regard to IT, we offer that an independent, outside, expert review 
of the VBMS system might be helpful while it is still early enough in 
the development phase to make course corrections, should they be 
necessary.
    The last bill to address is an amendment to H.R. 3787, which seeks 
to modify the original bill's title and other provisions. As previously 
stated, while DAV is not opposed, we do have concerns that by granting 
veteran status to those who completed a full career in a Reserve 
status, there may well be unintended consequences in the future.

    That concludes my testimony and I would be happy to answer any 
questions the Subcommittee may have.

                                 <F-dash>
            Prepared Statement of Barry A. Searle, Director,
    Veterans Affairs and Rehabilitation Commission, American Legion

    Mr. Chairman and Members of the Subcommittee.
    Thank you for the opportunity to present the views of The American 
Legion on: H.R. 3407, Severely Injured Veterans Improvement Act of 
2009; H.R. 3787, To deem certain service in the Reserve Components as 
active service for the purpose of laws administered by the Secretary of 
Veterans Affairs; H.R. 4541, Veterans Pensions Protection Act of 2010; 
and, H.R. 5064, Fair Access to Veterans Benefits Act of 2010; and H.R. 
5549, the Rapid Claims Act.
  H.R. 3407: Severely Injured Veterans Benefit Improvement Act of 2009
    The American Legion has a proud history of advocacy for America's 
veterans. All veterans, particularly severely injured veterans and 
those who have been awarded the Purple Heart deserve the utmost respect 
and have truly deserved the thanks of a grateful Nation. The American 
Legion recognizes the importance of caring for those injured through 
service as expressed through an organizational resolution titled: The 
American Legion Policy on VA Compensation. This resolution states that 
we, who are not forced on a daily basis, to contend with physical and 
psychological injuries received as a result of selfless service to this 
Nation, can never fully repay these severely injured heroes.
    H.R. 3407, the ``Severely Injured Veterans Benefit Improvement Act 
of 2009,'' focuses on increased compensation for disabled veterans, and 
recipients of the Purple Heart. It further adds Traumatic Brain Injury 
(TBI) for eligibility for aid and attendance benefits, and severe burn 
injuries of both veterans and active duty members for adaptive 
equipment to automobiles, and extends the provisions of an existing 
pension for certain hospitalized veterans.
    The American Legion has testified before Congress numerous times 
concerning the need for increased assistance to veterans who have been 
injured in service to this country. We are pleased that this bill 
increases the special monthly compensation rate for aid and attendance 
for severely injured veterans. While overall inflation is relatively 
low in today's economy, the costs of caring for severely injured 
veterans at home to include personal health care services on a daily 
basis continue to increase.
    Traumatic Brain Injury (TBI), ``the signature wound for Iraq and 
Afghanistan,'' along with severe burns, is a legacy of the tactics 
being conducted by our enemies in Iraq and Afghanistan. The improvised 
explosive device (IED) is the weapon of choice for our enemy, and is 
insidious in its utilization and often even more devastating in its 
long-term effects than gunshots due to the multiple and terrible wounds 
and burns it produces. The American Legion has undertaken an effort to 
better understand TBI and Post Traumatic Stress Disorder (PTSD) in 
order to become more of a subject matter expert on the issues. On a 
regular basis new information is being developed both by military and 
civilian medical authorities which show how vulnerable the brain is to 
impacts, even those from sporting events such as professional football. 
It can be surmised that in the near future research will conclusively 
show that TBI is a debilitating and long lasting injury. Clearly, 
veterans who in many cases have been exposed to multiple severe 
explosions should be added to the need for aid and attendance.
    Likewise, the terrible scars and the attending loss of appendages 
and range of motion due to the fire resulting in an IED explosion are a 
life-long sacrifice our veterans and military personnel must endure as 
a result of service to this Nation.
    H.R. 3407 authorizes adaptive equipment for automobiles of veterans 
and servicemembers with severe burns and other disabilities. The 
American Legion believes that these warriors have suffered and will 
continue to suffer for their entire lives and should not be forced to 
pay for the adaptive equipment necessary to bring some normalcy to 
their lives upon their return. The cost to adapt personal vehicles to 
improve mobility and to give some semblance of personal independence is 
not too great a cost for this Nation to give these wounded warriors.
    Finally, H.R. 3407 authorizes, subject to the availability of 
appropriations for the purpose, the VA Secretary to increase the 
monthly special pension by not more than $1,000. Once again The 
American Legion feels that a recipient of the Congressional Medal of 
Honor is of a special class of veteran. These recipients have given 
this Nation ``conspicuous gallantry above and beyond the call of 
duty.'' It is right that this Nation give some token of esteem in the 
form of an increase to their special pension.
The American Legion supports H.R. 3407
H.R. 3787: To amend title 38, United States Code, to deem certain 
        service in the reserve components as active service for 
        purposes of laws administered by the Secretary of Veterans 
        Affairs.
The American Legion has no position on this specific legislation at 
        this time.
    However, The American Legion does feel that there is a need for 
appropriate entitlements based on levels of sacrifice. In the case of 
H.R. 3787 reserve component members must meet the criteria of having 
completed a minimum of 20 ``good'' years for retirement. In those 20 
years the servicemember is required to maintain physical fitness and 
professional standards to include military and civilian education, and 
weapons and equipment qualifications. In some cases these activities, 
in particular, maintaining physical fitness, and weapons qualification 
can have long term negative impact on hearing, and sensitive joints 
such as knees and shoulders.
    The role of the Reserve Component servicemember has changed since 
the Gulf War that began in 1990. Prior to that war the reserve 
component was regarded as a strategic force to be called upon when 
greater mobilization of the armed forces was required for our national 
security. However, much of the combat power that comprises our 
warfighting efforts now resides in the reserve component. For this 
reason, the reserve component has changed from a strategic force to an 
operational force. Thus, in a wartime era, where we as a Nation are 
relying more and more on the Guard and Reserve, it is imperative that 
earned benefits fairly reflect level of sacrifice. The American Legion 
will continue to review the issue of fair entitlements for Reserve and 
Guard members to develop a fair and complete organizational resolution 
that supports fair equity in benefits for all who have served.
          H.R. 4541: Veterans Pensions Protection Act of 2010
    This legislation would amend title 38, United States Code, to 
exempt reimbursements of expenses related to accident, theft, loss or 
casualty loss from determinations of annual income with respect to 
pensions for veterans and surviving spouses, and children of veterans.
The American Legion has no position on this legislation
            H.R. 5064: Fair Access to Veteran's Benefits Act
    H.R. 5064 reflects current procedures concerning equitable tolling. 
Equitable tolling is a doctrine or principle of tort law: a statute of 
limitations will not bar a claim if despite use of due diligence the 
plaintiff did not or could not discover the injury until after the 
expiration of the limitations period.
    Under 38 U.S.C. Sec. 7266(a), an appellant has 120 days from the 
date the notice of a final decision of the Board of Veterans' Appeals 
(BVA) is mailed to file a notice of appeal (NOA) to the United States 
Court of Appeals for Veterans Claims (CAVC). From 1998-2008, previous 
precedential decisions of the United States Court of Appeals for the 
Federal Circuit (Bailey) had permitted equitable tolling by the CAVC 
for the 120 day time period under Sec. 7266(a). The Supreme Court, 
however, in Bowles v. Russell, 551 U.S. 205 (2007), made it clear that 
the timely filing of a NOA in a civil case is a jurisdictional 
requirement and that courts have no authority to create exceptions. The 
Supreme Court further concluded that only Congress can make such 
exceptions.
    In Henderson v. Shinseki, the CAVC ultimately dismissed the 
veteran's appeal because he had missed the 120 day deadline by 15 days. 
The veteran argued that his service-connected mental disorder, rated 
100 percent disabling, caused him to miss the deadline. While Mr. 
Henderson's appeal was pending at the CAVC, the Supreme Court rendered 
its decision in Bowles, in which it stated that ``the timely filing of 
a notice of appeal in a civil case is a jurisdictional requirement,'' 
and thus cannot be waived. The Court also stated that it had no 
authority to create equitable exceptions to jurisdictional 
requirements.
    On July 24, 2008, the CAVC ruled in a 2-1 decision that the holding 
in Bowles prohibited it from using equitable tolling to extend the 120-
day appeal period set forth in Sec. 7266(a). The CAVC determined that 
Congress had ``specifically authorized'' it to conduct ``independent 
judicial appellate review'' of the BVA, and that well-settled law 
established that its cases were ``civil actions.'' Starting from that 
premise, the CAVC concluded that Sec. 7266(a) was a notice of appeal 
provision in a civil case, and that it was jurisdictional and could not 
be equitably tolled. Accordingly, the court ruled that the Federal 
Circuit's precedent in Bailey was effectively overruled, and it 
dismissed Mr. Henderson's appeal for lack of jurisdiction.
    Mr. Henderson subsequently filed a timely appeal of the CAVC 
decision with the United States Court of Appeals for the Federal 
Circuit. On December 17, 2009, the Federal Circuit affirmed the 
decision of the CAVC dismissing the veteran's appeal for lack of 
jurisdiction.
    The Federal Circuit decision in Henderson, citing the Supreme Court 
decision in Bowles, has made it quite clear that equitable tolling in 
veterans' appeals at the Federal court level is prohibited. In April of 
this year, Senator Arlen Specter introduced S. 3192, the ``Fair Access 
to Veterans Benefits Act,'' to require the CAVC to consider if a 
veteran's service-connected disability would have made it difficult or 
impossible for him or her to meet a deadline for filing an appeal.
    The American Legion Resolution No. 32, adopted at the 2008 National 
Convention, supports proposed legislation that would extend the 120 day 
CAVC appeal deadline to 1 year following the BVA final denial of an 
appeal. It is in keeping with both the spirit and intent of Resolution 
No. 32 to support legislation, such as H.R. 5064, that would allow the 
CAVC to apply equitable tolling in certain situations, especially in 
such instances where the veteran's service-connected disability 
hindered the filing of a timely appeal.
The American Legion supports H.R. 5064.
                               H.R. 5549
  The Rating and Processing Individual's Disability Claims Act (RAPID 
                              Claims Act)
    This legislation would amend title 38, United States Code, to 
provide for expedited procedures for the consideration of certain 
veteran's claims, and for other purposes. H.R. 5549 allows for the 
waiver of claim development by VA in those cases where a veteran 
certifies that he or she has submitted a ``fully developed claim.'' 
While this measure stands to potentially increase the speed with which 
a veteran may receive benefits, there are still concerns about this 
legislation. The American Legion supports efforts to streamline the 
claims process, and to fast track those claims where additional work is 
unnecessary. However, it is essential to ensure that veterans fully 
understand what is being asked of them when they submit to these 
waivers.
    The intent is to relieve VA of certain required waiting periods so 
that they may move more swiftly to a decision provided the veteran 
certifies that no additional research is needed. While this is very 
beneficial in many cases, unrepresented veterans may not fully 
understand what is required to grant their claim, and therefore may 
place themselves in jeopardy by not submitting crucial evidence.
    The American Legion believes that there must be further 
clarification on what mechanism is provided by H.R. 5549 to protect a 
veteran in situations where a veteran may erroneously believe, and 
therefore certify that all necessary development has been performed on 
a claim. It is critical that the veteran would be entitled to return to 
the traditional claims process at any point when it becomes clear that 
the claim is in fact, ``not fully developed.'' In this way the rights 
of the veteran would be protected while allowing for more speed in 
processing.
    It is understood that the veteran has the right to file a Notice of 
Disagreement (NOD) with a decision and enter into the appeals process. 
However, this would delay the claim as it moves through another bag 
logged system and thereby defeats the purpose of the original intent of 
H.R. 5549 to expedite accurate decisions of original claims.
    In short, there are still concerns about the implementation of a 
measure such as this and how it will affect veterans. The American 
Legion would like to see more clarification and assurances of 
protections for veterans so that they are not put in a situation where 
they sacrifice their ability to receive thorough review of their claim 
in the hopes of having it processed more swiftly.
With the previous concerns noted, The American Legion American Legion 
        supports H.R. 5549
    As always, The American Legion appreciates the opportunity, to 
testify and represent the position of the over 2.5 million veterans of 
this organization and their families. This concludes my testimony.

                                 <F-dash>
           Prepared Statement of Eric A. Hilleman, Director,
 National Legislative Service, Veterans of Foreign Wars of the United 
                                 States

    MR. CHAIRMAN AND MEMBERS OF THIS COMMITTEE:
    On behalf of the 2.1 million members of the Veterans of Foreign 
Wars of the United States and our Auxiliaries, the VFW would like to 
thank this committee for the opportunity to present our views on 
today's pending legislation.
H.R. 3407, Severely Injured Veterans Benefits Improvement Act of 2009.
    We are proud to support this bill, which would increase aid and 
attendance for severely injured veterans, qualify severely burned 
veterans adaptive grants, increase pension for housebound veterans, 
expand aid and attendance to cover veterans with traumatic brain injury 
(TBI), and increase the service pension for Congressional Medal of 
Honor (CMH) recipients.
    Under this legation aid and attendance would increase by 50 
percent. Section 2 increases the rate from $1,893 to $2,840 for 
veterans qualifying for specific levels of Special Monthly Compensation 
(SMC) and from $2,820 to $4,230 for veterans in receipt of SMC and in 
need of regular aid and attendance. Further, section 5 allows veterans 
suffering from TBI to qualify for SMC, as well as aid and attendance. 
Veterans suffering from seriously debilitating injuries, such as TBI 
and other injuries that qualify for SMC, will benefit greatly from this 
increase in compensation. Rising costs of in-home care and assistance 
have forced veterans and their families into tradeoffs between seeking 
the assistance needed and purchasing basic staples. With this increase, 
veterans will be able to live with a higher level of dignity and 
quality of life.
    Section 3 expands eligibly for those who have suffered severe burn 
injuries to qualify for automobile and adaptive equipment grants. Given 
the severe burns caused by many improvised explosive devices, veterans 
are living with scar tissue that decreases range of motion and limits 
the use of digits and extremities. Burn injuries, in some cases, are 
extreme enough to require special adaptation to simply achieve basic 
functionality and independent living. The VFW believes every possible 
accommodation should be made to restore the highest level of 
independence possible to these deserving veterans.
    Section 4 increases certain special monthly pension by 10 percent 
for veterans from $4,340 to $4,774 for a single veteran and from $5,441 
to $5,985 for veterans with dependents. The VFW supports this increase.
    The VFW enthusiastically supports this raising the CMH monthly 
pension to $2000. Section 6 seeks to increase the rate of special 
pension for CMH recipients from $1,000 a month up to an additional 
$1,000 a month; but this additional pension is to be determined by the 
Secretary subject to funding availability. We encourage Congress to 
appropriate the necessary funding to provide CMH recipients with a full 
monthly pension of $2,000. These extraordinarily brave American heroes 
deserve our support and recognition for their sacrifice. As the few 
remaining CMH recipients age, this compensation will serve to support 
our prized heroes in their latter years.
    Finally, the VFW supports Section 7, to extend pension to support 
certain hospitalized veterans from September 30, 2011, to September 30, 
2021.
H.R. 3787, the Honor America's Guard-Reserve Retirees Act
    H.R. 3787 has in mind an extremely important goal: to give the men 
and women who choose to serve our Nation in the Reserve Component the 
recognition that their service demands. The mission of many guard and 
reservists is to facilitate and support the deployments of their 
comrades, so the unit is fully prepared when called upon. 
Unfortunately, the law does not currently allow those who serve several 
years and are entitled to retirement pay, TRICARE, and other benefits, 
to call themselves `veterans'. Such men and women have been extremely 
busy and have made extraordinary sacrifices and we believe they have 
earned the right to call themselves a veteran.
    In recent years, Congress has enhanced benefits to the members of 
the Guard and Reserve to reflect our Nation's continued reliance on 
their service. This bill adds noble recognition to those Americans who 
stand at the ready for the duration of their career. Congressman Walz 
has reaffirmed his intent by amending the language to ensure there will 
be no budgetary impact to by bestowing the noble distinction of 
`veteran' on this group of men and women.
    The VFW is proud to support passage of this bill.
H.R. 4541, Veterans Pensions Protection Act of 2010
    This legislation would protect pension payments from including 
insurance settlements of any kind from the calculation amount in 
determining pension. Further, this bill would require VA to make 
determinations on the fair market value and replacement value of any 
assets claimed for exclusion under the insurance settlement.
    The VFW supports the intent of this legislation, but cannot support 
this language. We believe that this bill would require VA to make 
further determinations regarding replacement value in the cases of 
insurance settlements. The current pension threshold for a veteran 
without dependents is $11,830 annually. In order to exclude any income 
resulting from an insurance settlement from factoring against that 
amount, VA would need to further examine the values associated with the 
insurance settlement. These additional decisions will further delay and 
complicate a relatively simple benefit.
    We would suggest this legislation be rewritten to accept any 
insurance settlement as excluded from the calculation of pension. It is 
likely this will achieve the noble goal of aiding a veteran in serious 
financial distress, while allowing them to replace the loss of damaged 
property. This also prevents VA from expending more resources to 
develop other pension claims.
H.R. 5064, Fair Access to Veterans Benefits Act of 2010
    VFW supports this bill, which would provide some flexibility in the 
equitable tolling of timelines for the Board of Veterans' Appeals, and 
for other purposes. We believe that this bill creates flexibility that 
could favor veterans within the claims appeal process. The current 120-
day deadline to file an appeal to the U.S. Court of Appeals for 
Veterans Claims (CAVC) does not leave room for veterans that may have 
unique circumstances due to medical or mental health problems. An 
example of this is the David Henderson case. Because he suffers from 
paranoid schizophrenia, he was unable to meet the 120-day deadline and 
was denied the right to appeal to the CAVC.
    This is but one of many instances where a veteran was unable to 
file a timely appeal due to the effects of a mental condition. 
Subsequently, he was denied the ability to have his appeal heard by the 
appropriate appellate body. We applaud the change that this legislation 
makes in granting veterans, of past and present, latitude in the 
appeals process. It provides a just and equitable system for those who 
have suffered due to circumstances beyond of their control and ensures 
they have their day in court.
H.R. 5549, the Rating and Processing Individuals' Disability Claims Act 
        or the Rapid Claims Act
    The VFW is encouraged by this legislation, which would provide VA a 
mechanism for identifying and expediting claims that are `ready-to-
rate' by granting the Secretary the authority to wave the mandatory 60-
day development period with the written permission of the veteran. If a 
veteran submits a statement, which indicates the veteran's intent to 
submit a fully developed claim, the veteran would have 1 year from the 
date of submission to provide the Secretary with a fully developed 
claim and access to the expeditious treatment of their claim. If the 
Secretary determines a claim is not fully developed, the VA will notify 
the veteran within 30 days of the evidence and information required to 
rate the case.
    The backlog of veterans' claims for disability compensation and 
pension is approaching 900,000 and over a hundred thousand new claims 
are expected to be filed every year for the foreseeable future. This 
legislation will create the incentive for veterans and their duly 
appointed representatives to present VA with fully developed cases in a 
timely fashion. In turn, it will reduce the time and energy required of 
VA to track down external evidence while developing cases.
    While this legislation creates an incentive to compile outside 
evidence and quickly address a veteran's claim, it does not stress the 
importance of quality rating decisions. The VFW has always believed 
quality decisions are central to addressing the long-term backlog and 
instilling confidence in the VA's disability benefits system.
    The VFW cannot support this legislation as written due to the 
absence of the preservation of the date of claim in cases described 
under Section 2, paragraph (2); which allows a veteran to submit a 
statement of intent to submit a fully developed claim. As worded, we 
believe the intent of this section was to imply that a veteran could 
preserve a date of claim and still access the expedited claim process. 
We would be happy to fully support this legislation with the inclusion 
of language preserving the right to the date of claim.
    Thank you for the opportunity to present our views before this 
Subcommittee, and we welcome your questions.

                                 <F-dash>
               Prepared Statement of Thomas J. Pamperin,
  Associate Deputy Under Secretary for Policy and Program Management, 
 Veterans Benefits Administration, U.S. Department of Veterans Affairs

    Mr. Chairman, I am pleased to provide the Department of Veterans 
Affairs' (VA) views on pending legislation. I am accompanied today by 
Assistant General Counsel Richard J. Hipolit.
    I will not be able to address H.R. 5549, the Rating and Processing 
Individuals' Disability Claims Act (RAPID Claims Act), included on 
today's agenda, because we did not have sufficient time to develop and 
coordinate the Administration's position and cost estimates. With your 
permission, we will provide that information in writing for the record. 
We also will provide in writing the completed cost estimates for 
sections 2 and 5 of H.R. 3407, which we are currently completing.
                               H.R. 3407
    H.R. 3407, the ``Severely Injured Veterans Benefits Improvement Act 
of 2009,'' includes provisions that would: (1) increase special monthly 
compensation rates for severely injured Veterans; (2) provide 
eligibility for automobiles and adaptive equipment to disabled Veterans 
and members of the Armed Forces with severe burn injuries; (3) increase 
non service-connected disability pension for certain wartime Veterans; 
(4) provide eligibility for aid and attendance benefits to Veterans 
with traumatic brain injuries; (5) authorize the Secretary of Veterans 
Affairs to increase Medal of Honor Special Pension; and (6) extend 
current provisions relating to pensions for certain hospitalized 
Veterans. The amendments made by this bill would become effective 
September 30, 2011.
Section 2
    Section 2 of the bill would increase the monthly rates of 
disability compensation specified in 38 U.S.C. Sec. 1114(r)(1) and 
(r)(2) as payable for aid and attendance, from $1,893 to $2,840, and 
for higher levels of care, from $2,820 to $4,230.
    VA supports the objective of H.R. 3407, to ensure that severely 
injured Veterans are provided with the financial means to receive 
proper care for their service-connected disabilities. However, we do 
not support this provision. VA already has numerous authorities to 
provide the most severely disabled Veterans with higher levels of care, 
including the recently passed Caregivers and Veteran Omnibus Health 
Services Act of 2010. There is no evidence that the proposed rate is 
the correct rate. In addition, Congress would need to identify 
appropriate cost-saving PAYGO offsets to offset the benefit costs which 
are estimated to be $30.9 million for the first year, $163.4 million 
over 5 years, and $351.3 million over 10 years. VA estimates that there 
would be no additional administrative costs associated with this 
provision.
Section 3
    Section 3 would expand the category of persons eligible for 
automobile allowance and adaptive equipment as specified in 38 U.S.C. 
Sec. 3901(1) to include certain Veterans and members of the Armed 
Forces serving on active duty who are disabled with a severe burn 
injury, as determined under regulations prescribed by the Secretary.
    VA recognizes that burn injuries are a likely result of the current 
conditions of warfare in Iraq and Afghanistan because of the ubiquitous 
use of improvised explosive devices (IED) by enemy forces. We also 
understand the importance of providing Veterans disabled because of 
severe burn injuries with eligibility for automobiles and adaptive 
equipment benefits to help better manage their disability. Therefore, 
VA does not object to this provision, subject to Congress identifying 
appropriate cost-saving PAYGO offsets.
    We are unable at this time to provide cost estimates associated 
with enactment of this provision, but will provide that information in 
writing for the record.
Section 4
    Section 4 would increase monthly payments of non service-connected 
disability pension under 38 U.S.C. Sec. 1521(e) to Veterans who, in 
addition to being permanently and totally disabled, have additional 
disability rated 60-percent or greater or are permanently housebound. 
The rates would increase from $4,340 to $4,774 for unmarried Veterans 
without dependents and from $5,441 to $5,985 for Veterans with a spouse 
or dependent. VA supports the intent of providing for those Veterans 
who served our country during wartime but who have limited income and 
are severely disabled or permanently housebound because of non service-
connected disabilities. However, VA cannot support this provision 
without better understanding how the new proposed pension level was 
developed.
    Under the 2006 precedent of the United States Court of Appeals for 
Veterans Claims in Hartness v.  Nicholson, the increased pension rate 
under section 1521(e) would also be payable to wartime Veterans who are 
not totally disabled but who are 65 years of age or older and who are 
permanently housebound or have a disability rated at least 60-percent 
disabling. Because we do not believe Congress intended payment of the 
heightened pension rate to Veterans who are not totally disabled, 
Secretary Shinseki on May 26, 2010, submitted to Congress proposed 
legislation, the Veterans Benefit Programs Improvement Act of 2010, to 
clarify that the rates payable under section 1521(e) apply only to 
Veterans who are permanently and totally disabled and are also 
permanently housebound or have additional disability independently 
rated at least 60-percent disabling. That proposal would ensure that 
the payments to which this legislation pertains are consistently based 
on the existence of severe disability that includes permanent and total 
disability.
    Benefit costs are estimated to be $14.3 million for the first year, 
$77.3 million over 5 years, and $160.3 million over 10 years. VA 
estimates that there would be no additional administrative costs 
associated with this provision.
Section 5
    Section 5 would amend 38 U.S.C. Sec. 1114(o) to include traumatic 
brain injury (TBI) among the list of disabilities that qualify for 
special monthly compensation at the rated specified in section 1114(o). 
Under the provision as written, this level of compensation would be 
payable without regard to the severity of the TBI or the resulting 
disability. Further, eligibility for payment under section 1114(o) 
would also make Veterans with a TBI of any severity who are also in 
need of aid and attendance eligible for payment of the higher rate 
payable under 38 U.S.C. Sec. 1114(r) to Veterans in need of aid and 
attendance.
    We support the intent of providing equitable benefits to Veterans 
suffering from severe traumatic brain injury symptoms. However, VA 
cannot support the provision as written. The proposal would extend 
eligibility for increased compensation rates currently payable only for 
severe disabilities to Veterans suffering from any level of severity of 
TBI disability, including mild TBI characterized by minor symptoms. The 
inclusion of all levels of TBI as a basis for the payment rates under 
section 1114(o) and (r) would be inconsistent with the purpose of those 
provisions to address the needs of severely disabled Veterans. VA 
believes any expansion of eligibility for the rates under section 
1114(o) and (r) should be reserved for severe TBI cases with 
significant physical, cognitive and/or emotional or behavioral 
impairment. In addition, VA is implementing several new benefits for 
Veterans with severe TBI through the recent regulation and legislation, 
including the Caregivers and Veteran Omnibus Health Services Act of 
2010.
    We are unable at this time to provide cost estimates associated 
with enactment of this provision, but will provide that information in 
writing for the record.
Section 6
    Section 6 would authorize the Secretary to increase by no more than 
$1,000 the monthly rate of Medal of Honor Pension for fiscal years 2012 
and 2013. The proposed increase is subject to the availability of 
appropriations.
    VA has serious concerns with this provision. Congress generally 
prescribes rates of pension, compensation, and related benefits, and it 
would be appropriate for it to prescribe a specific rate should it 
choose to effect an increase in rates, dependent upon appropriations. 
This proposal does not indicate the purpose of providing only a 
temporary rate increase and provides no guidelines to determine the 
extent of the increase. Further, we have significant concerns with the 
prospect of using discretionary funds to provide a temporary enhanced 
benefit on top of an existing mandatory entitlement. Two equally 
eligible Veterans could receive different levels of compensation should 
the discretionary funds appropriated for the purpose be insufficient.
    VA estimates that costs for this provision, if the maximum 
authorized increase were provided, would be $1.0 million per year and 
$2.0 million over 2 years.
Section 7
    Section 7 would amend 38 U.S.C. Sec. 5503(d)(7) to extend current 
provisions governing pensions for certain Veterans in Medicaid-approved 
nursing facilities that will expire on September 30, 2011. The proposal 
would extend until September 30, 2021, the provisions in section 
5503(d) providing such Veterans a protected pension payment that cannot 
be used to reduce the amount of Medicaid benefits payable for the 
Veteran's care. VA supports this proposal to extend valuable benefits 
to deserving wartime Veterans who have limited incomes and require 
hospitalization for non service-connected disabilities.
    VA estimates that enactment of this provision would result in VA 
cost savings of approximately $560 million during the first year, $2.9 
billion for 5 years, and $6.2 billion over 10 years. There will be 
Medicaid costs, and VA will provide the net budgetary effect to the 
Federal Government in writing at a later date. Also, States may incur 
costs as Medicaid will pay a larger share of nursing home care.
                               H.R. 3787
    H.R. 3787 would revise 38 U.S.C. Sec. 106 to deem certain persons 
(namely, former members of the National Guard or Reserves who are 
entitled under chapter 1223 of title 10, United States Code, to retired 
pay for nonregular service or who would be entitled to such retired pay 
but for their age) who have not otherwise performed ``qualifying active 
duty service'' to have been on active duty for purposes of VA benefits.
    Under current law, a National Guard or Reserve member is considered 
to have served on active duty only if the member was called to active 
duty under title 10, United States Code, and completed the period of 
duty for which he or she was called to service. Eligibility for some VA 
benefits, such as disability compensation, pension, and dependency and 
indemnity compensation, requires a period of ``active military, naval, 
or air service,'' which may be satisfied by active duty, or by certain 
periods of active duty for training and inactive duty training during 
which the servicemember becomes disabled or dies. Generally, those 
periods are: (1) active duty for training during which the member was 
disabled or died from disease or injury incurred or aggravated in line 
of duty; and (2) inactive duty training during which the member was 
disabled or died from an injury incurred or aggravated in line of duty.
    H.R. 3787 would eliminate these service requirements for National 
Guard or Reserve members who served in such a capacity for at least 20 
years. Retirement status alone would make them eligible for all VA 
benefits, despite not having served on active duty or in active service 
or, if called to active duty, not having served the minimum active-duty 
period required for eligibility.
    VA does not support this bill. Current benefits eligibility is 
based either on active duty or a qualifying period of active service 
during which a member was physically engaged in serving the Nation in 
an active military role. Active service is the foundation for providing 
VA benefits. In recent years, the National Guard and Reserves have 
played an important role in our Nation's overseas conflicts. Virtually 
all those who served in recent conflicts were called to active duty, 
which qualifies them as Veterans and provides potential eligibility for 
VA benefits. This bill, however, would extend the same status to those 
who were never called to active duty and did not suffer disability or 
death due to active duty for training or inactive duty training, and 
hence do not have active service. VA would be obligated to provide 
compensation and health-care for disabilities resulting from injuries 
incurred in civilian activities, as well as from diseases that develop, 
during the 20 years that count toward retirement, regardless of any 
relationship to actual active duty or training drills. Providing 
compensation and other VA benefits based solely on retirement status 
would be inconsistent with VA's mission of providing benefits to 
Veterans who earned them as a result of active service.
    Statutes already authorize memorial benefits (burial in national 
cemeteries, burial flags, and grave markers) to this group of 
individuals. Therefore, H.R. 3787 would not provide any additional 
benefit related to the National Cemetery Administration (NCA), nor 
would it present any additional budget concerns related to the benefits 
NCA provides.
    If H.R. 3787 as currently drafted were enacted, VA would incur 
estimated benefit costs of $957.5 million during the first year, $6.0 
billion over 5 years and $15.5 billion over 10 years. Veterans Benefits 
Administration administrative costs are estimated to be $50.0 million 
the first year, $73.2 million over 5 years, and $110.9 million over 10 
years.
    An alternate version of H.R. 3787 introduced as an amendment would 
revise the definition of the term ``veteran'' in 38 U.S.C. Sec. 101(2) 
to include these individuals. This broader definition of the term 
Veteran would not be applicable for purposes of compensation under 
chapter 11 of title 38, dependency and indemnity compensation under 
chapter 13 of title 38, and hospital, nursing home, domiciliary and 
medical care under chapter 17 of title 38. VA does not support this 
alternative version of H.R. 3787 because it represents a departure from 
active service as the foundation for Veteran status. VA estimates that 
there would be no additional benefit or administrative costs associated 
with this alternate version of H.R. 3787.
                               H.R. 4541
    H.R. 4541, the ``Veterans Pensions Protection Act of 2010,'' would 
liberalize the existing exemption in section 1503(a)(5) of title 38, 
United States Code, by excluding from income, for purposes of 
determining eligibility for improved pension, payments regarding 
reimbursement for expenses related to: accident, theft, loss, or 
casualty loss; medical expenses resulting from such causes; and pain 
and suffering related to such causes.
    The exemption for payments received to reimburse Veterans for 
medical costs and pain and suffering is an expansion of the current 
exclusions. We oppose excluding from countable income payments received 
for pain and suffering because such payments do not represent a 
reimbursement for expenses related to daily living. The proposed 
treatment of such payments would be inconsistent with a needs-based 
program. We believe that payments for pain and suffering are properly 
considered as available income for purposes of the financial needs test 
for entitlement under section 1503.
    VA does not oppose the remaining provisions of this section 
exempting reimbursement for accident, theft, loss, casualty loss, and 
resulting medical expenses, subject to Congress identifying offsets for 
any additional costs.
    Because the current law excludes from pension income calculations 
reimbursements from any casualty loss, there would be no benefit costs 
associated with the provisions relating to accident, theft, loss, or 
casualty loss. VA estimates there would be no additional administrative 
or full-time employee costs associated with this bill.
                               H.R. 5064
    H.R. 5064, the ``Fair Access to Veterans Benefits Act of 2010,'' 
would require the Court of Appeals for Veterans Claims (Veterans Court) 
to extend ``for such time as justice may require'' the 120-day period 
for appealing a Board of Veterans' Appeals (Board) decision to the 
Veterans Court upon a showing of good cause. It would apply to a notice 
of appeal filed with respect to a Board decision issued on or after 
July 24, 2008. It would require the reinstatement of any ``petition for 
review'' that the Veterans Court dismissed as untimely on or after that 
date if, within 6 months of enactment, an adversely affected person 
files another petition and shows good cause for filing the first 
petition on the date it was filed.
    Although VA supports the extension of the 120-day appeal period 
under certain circumstances, VA has several concerns with this bill. 
Because the bill would not limit the length of time the appeal period 
could be extended, appellants would potentially be able to appeal a 
Board decision at any time after it was issued--even decades later--as 
long as good cause is shown. This would create great uncertainty as to 
the finality of Board decisions, which could burden an already 
overburdened claim-adjudication system and create confusion as to 
whether a VA regional office, the Board, or the Veterans Court has 
jurisdiction over a claim.
    Petitions for relief under the ``good cause'' provision could 
potentially add hundreds of cases to the Veterans Court's docket, which 
could increase the processing time for all cases in the court's 
inventory. The reinstatement of already dismissed untimely appeals 
could add even more cases. In view of the open-ended and retroactive 
nature of the provision, the potential number of new appeals is 
impossible to quantify, but it might be enormous.
    To avoid these and other potential problems resulting from an 
unlimited appeal period and retroactive application, Secretary Shinseki 
submitted to Congress the Veterans Benefit Programs Improvement Act of 
2010, mentioned earlier in this testimony, which would take a more 
focused approach. It would permit the Veterans Court to extend the 
appeal period for up to an additional 120 days from the expiration of 
the original 120-day appeal period upon a showing of good cause, 
provided the appellant files with the Veterans Court, within 120 days 
of expiration of the original 120-day period, a motion requesting 
extension. The proposal would ameliorate harsh results in extreme 
circumstances, e.g., if a claimant were mentally incapacitated during 
the entire 120-day appeal period, but by limiting how late an appellant 
could request extension and how long the period could be extended, 
would not unduly undermine the finality of Board decisions, which is 
necessary for efficient administrative functioning. Placing an outer 
limit on the appeal period would maintain the purpose of the rule of 
finality, which is to preclude repetitive and belated adjudication of 
Veterans' benefits claims.
    In addition, the proposal would be applicable to Board decisions 
issued on or after the date of enactment and to Board decisions for 
which the 120-day period following the 120-day appeal period has not 
expired as of the date of enactment. It would provide a generous 
approach but one that is carefully crafted so as not to unduly increase 
the court's caseload and delay Veterans' receipt of timely final 
decisions on their appeals.
    We estimate that enactment of VA's legislative proposal as 
contemplated would result in no significant costs or savings.
    This concludes my statement, Mr. Chairman. I would be happy to 
entertain any questions you or the other Members of the Subcommittee 
may have.

                                 <F-dash>
 Statement of Captain Ike Puzon, USN (Ret.), Director of Governmental 
      Affairs--Legislation, Association of the United States Navy

    Mister Chairman and distinguished Members of the Committee, the 
Association of the United States Navy is very grateful to have the 
opportunity to submit testimony for the record on H.R. 3787, to amend 
title 38, United States Code, to deem certain service in the reserve 
components as active service for purposes of laws administered by the 
Secretary of Veterans Affairs.
    Our newly transitioned VSO-MSO association, since 1954, has worked 
diligently to educate Congress, our members, and the public on Navy 
veterans, Navy equipment, force structure, policy issues, and 
personnel, DoD civilian and family issues.
    I thank this Committee for the on-going stewardship on the 
important issues of national defense and on behalf of veterans. Our 
military and veterans along with their families are watching what 
Congress is considering very carefully. At a time of war, non-partisan 
leadership sets the example.
   H.R. 3787--Full Veteran Status For Certain Guard/Reserve Retirees
    Issue: Certain members of the Guard and Reserve components with 20 
years or more service do not otherwise qualify under current law (Title 
38) as veterans.
    Background. All members of the Selected Reserve--those who 
regularly train in designated military positions--volunteer for service 
to the Nation and are liable for activation in its defense.
    In the event that a reserve component member has not been called to 
federal active duty during a 20-year-or-more service career, that full 
reserve career service should be recognized as equivalent qualification 
for full veteran status under the law. Over time, Congress has 
authorized a number of veteran's benefits for such `gray area' reserve 
retirees. In establishing such benefits, it's clear that these former 
servicemembers are indeed veterans. (See accompanying rationale)
    Twenty or more years of service in the reserve forces and 
eligibility for reserve retired pay should be sufficient qualifying 
service for full veteran status under the law.
    This issue is a matter of honor to those who through no fault of 
their own were never activated, but served their Nation faithfully for 
20 or more years. It's now time for Congress to take the final step and 
formally authorize these volunteer career citizen-warriors as veterans 
under the law.
    Military Coalition Position and The National Military Veterans 
Alliance Position. Amend Title 38 to include in the definition(s) of 
`veteran' retirees of the Guard/Reserve components who have completed 
20 or more years of service, but are not otherwise considered to be 
``veterans'' under the current statutory definitions. Career military 
service in the reserve forces of our Nation should constitute 
qualification for veteran status under the law.
    Status. The Military Coalition recommends the introduction of 
legislation that would accomplish this change. Suggested language 
follows:
    Adding a new subsection (g) in Section 106, 38 USC, `Certain 
service deemed to be active service':

         `(g) Any person--
            (1) who is qualified for reserve retired pay under section 
        12731 of title 10 and is in receipt of reserve retired pay for 
        non-regular service under the provisions of chapter 1223 of 
        title 10; or,
            (2) who is qualified for reserve retired pay under section 
        12731 of title 10 and has been separated or retired from the 
        Ready Reserve but is not yet age 60; and,
            (3) has not otherwise performed qualifying active duty 
        service shall be considered to have been on active duty for the 
        purpose of all laws administered by the Secretary' [of Veterans 
        Affairs]

Rationale
    As defined in law, members of the reserve components who have 
completed 20 or more years of service are military retirees and 
eligible upon reaching age 60 for all of the benefits of active duty 
military retirees. However, they are not considered to be ``veterans'' 
if they have not served the number of consecutive days on federal 
active duty (defined as active duty other than active duty for 
training) required by law.
    According to the Department of Veterans Affairs, ``Reservists who 
served on active duty establish veteran status and may be eligible for 
the full-range of VA benefits, depending on the length of active 
military service and a discharge or release from active duty under 
conditions other than dishonorable. In addition, reservists not 
activated may qualify for some VA benefits''.
    National Guard members can establish eligibility for VA benefits if 
activated for federal service during a period of war or domestic 
emergency. Activation for other than federal service does not qualify 
Guard members for all VA benefits.''
    Over time, Congress has authorized certain veterans benefits for 
these retirees, indicating their `quasi-veteran' status. For purposes 
of this discussion, these individuals will be referred to as ``non-
veteran retirees.''
    VA benefits for non-veteran retirees who have not served on federal 
active duty for the consecutive number of days required by law include:

    <bullet>  VA disability compensation and VA health care for a non-
veteran retiree who is injured and/or disabled while performing 
inactive duty for training regardless of length of service.
    <bullet>  VA home loan eligibility in exchange for six or more 
years of honorable service in the Selected Reserve
    <bullet>  VA burial and memorial benefits for the non-veteran 
retiree entitled to reserve retired pay at the time of death
    <bullet>  Servicemen's Group Life Insurance (SGLI) and Veterans 
Group Life Insurance (VGLI)

    To qualify for a reserve retirement at age 60, a Guard or Reserve 
member must accrue the equivalent of 20 years of ``points'' based on 
the performance of military duty at a minimum of 50 points per year. 
The minimum of 1000 qualifying retirement points roughly equates to 
2.77 years of military duty based on the performance of drill duty 
(inactive duty training), annual training, and professional development 
in military science. (20 yrs. <greek-e> 50 points = 1000 pt minimum div 
by 360 = 2.77 years military duty). Moreover, as volunteers, reservists 
are liable for activation throughout their careers and required to 
maintain their readiness for such eventualities.
Budgetary Considerations
    Of primary concern to policy makers is the cost of designating non-
veteran retirees as veterans. We believe there would be little or no 
cost for the following reasons:
    By definition, non-veteran retirees will not have a VA disability 
rating. Indeed, if they were injured while on military duty, they would 
be eligible for a VA disability rating and VA health care. Most would 
have assets and incomes above the VA Priority Group 8 means test, which 
has been closed to new applicants for more than 4 years. A few 
individuals in the non-disabled, non-veteran retiree cohort might 
qualify for VA health care as Priority Group 7 means-tested 
individuals. Very few would qualify for enrollment in Priority Group 5 
as indigent veterans.
    In almost all instances, these individuals will have other full-
time employment, either in the private sector, or as civilian 
government employees. Many have health care insurance through their 
employer. Once they reach age 60, they will be eligible for TRICARE.
    Finally, the Nation's operational reserve policy requires the 
routine activation of Guard and Reserve servicemembers for 12 months 
every fifth or sixth year. Going forward, there will be a negligible 
number of career reservists who would not qualify as active duty 
veterans.
Summary
    For the vast majority of non-veteran retirees, this issue is about 
honor not benefits. They seek public and statutory recognition as 
``veterans of the Armed Forces of the United States''. They volunteered 
to serve, served honorably, and were prepared to serve on active duty 
if called. The absence of statutory recognition is a vestige of the 
Cold War, when the Nation relied upon conscription for its manpower. A 
small cohort of today's volunteers should not be penalized for 
decisions beyond their control concerning federal activation.
AUSN Request that you pass H.R. 3787, including as it may be amended
by Congressman Walz.

                               __________
                              Association of the United States Navy
                                                    Alexandria, VA.
                                                      June 28, 2010



The Honorable John Hall                                    The Honorable
U.S. House of Representatives                               Douglas L.
Washington, DC 20515                                        ``Doug''
                                                            Lamborn
                                                           U.S. House of
                                                            Representati
                                                            ves
                                                           Washington,
                                                            DC 20515



Dear Chairman Hall and Ranking Member Lamborn:

    The Association of the United States Navy (AUSN) representing 
veterans, military members and their families strongly support H.R. 
3787, a bill to assign veterans status to members of the Reserve 
Components of the United States Military who have served for 20 years 
or more--thus becoming military retirees--but who were never on active 
duty status long enough to qualify as a ``veteran.''
    All members of the Selected Reserve volunteer for service to the 
Nation and are liable for activation in its defense. In the event that 
a Reserve component member has not been called to federal active duty 
during a twenty-year-or-more service career, we believe that service 
should qualify the member for full status as a veteran under the law. 
This issue is a matter of honor to those who through no fault of their 
own were never activated, but served their Nation faithfully for 20 
years.
    As a Nation, our military cannot function without the Guard and 
Reserve. Our Reserve Components are `operational reserve' and have been 
for a long time. The large numbers of Reserve component members who 
have been called to serve in OEF/OIF will qualify as veterans. However, 
there are those who serve at the armories and bases and whose jobs are 
to make sure the other members of their units are qualified and ready 
to deploy. Almost all members do deploy in some format but do not stay 
on active duty for the required amount of time--for at least 30 days 
continuous. There are others who, while ready to deploy had they been 
needed, were not called to active duty during their time of service. 
Under current law, even if they serve for 20 years or more, they are 
not and will not be considered as veterans under Title 38. These 
members serve less than 30 days active duty time--but, over a 20 year 
span--serve our Nation in natural disasters, current boarder duty, and 
even deploy to overseas bases--in support of conflicts--but, all in 
less than 30 days. Thus, the simple step of recognizing the service of 
those who spend 20 years or more as meriting the distinction of being 
called a veteran is a major issue for them and our country, one of 
pride and one of having their sacrifices recognized. Our Total Force 
includes the Guard and Reserve Components. They wear the same uniforms 
and earn the same medals and awards for honorable service and in our 
Nations conflicts. They are worthy of the honor of being called 
``veteran.''
    H.R. 3787 would eliminate this inequity. This legislation as it is 
written will not qualify Reserve components for any additional benefits 
that they already do not have access to. It does redefine them as 
Veterans in Title 38, and in some cases they will be recognized as 
Veterans for burial in some states. All current wartime veterans that 
serve in a combat zone will already qualify.
    The Association of the United States Navy ask the Committee to pass 
this important piece of legislation. A briefing paper is attached. Our 
point of contact is Ike Puzon, Captain, USN, retired, Director of 
Governmental Affairs--Legislation AUSN, 703-548-5800, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4920222c67393c33262709283c3a2767263b2e67">[email&#160;protected]</a> Written testimony has been submitted.

            Sincerely,

                                  C. Williams Coane RADM, USN (Ret)
                                                 Executive Director

                                 <F-dash>
  Statement of Master Sergeant Michael P. Cline, USA (Ret.), Executive
  Director, Enlisted Association of the National Guard of the United 
                                 States

    Mister Chairman and distinguished Members of the Committee, the 
Enlisted Association of the National Guard of the United States 
(EANGUS) is very grateful to have the opportunity to submit testimony 
for the record on H.R. 3787.
    Our association has worked diligently since 1972 to educate 
Congress, our members, and the public on National Guard veterans, 
equipment, force structure, policy issues, and personnel, DoD civilian 
and family issues.
    I thank this Committee for the on-going stewardship on the 
important issues of national defense and on behalf of veterans. Our 
military and veterans along with their families are watching what 
Congress is considering very carefully. At a time of war, non-partisan 
leadership sets the example.
   H.R. 3787--Full Veteran Status For Certain Guard/Reserve Retirees
    Issue: Certain members of the Guard and Reserve components with 20 
years or more service do not otherwise qualify under current law (Title 
38) as veterans.
    Background. All members of the Selected Reserve--those who 
regularly train in designated military positions--volunteer for service 
to the Nation and are liable for activation in its defense.
    In the event that a reserve component member has not been called to 
federal active duty during a 20-year-or-more service career, that full 
reserve career service should be recognized as equivalent qualification 
for full veteran status under the law. Over time, Congress has 
authorized a number of veteran's benefits for such `gray area' reserve 
retirees. In establishing such benefits, it's clear that these former 
servicemembers are indeed veterans. (See accompanying rationale)
    Twenty or more years of service in the reserve forces and 
eligibility for reserve retired pay should be sufficient qualifying 
service for full veteran status under the law.
    This issue is a matter of honor to those who through no fault of 
their own were never activated, but served their Nation faithfully for 
20 or more years. It's now time for Congress to take the final step and 
formally authorize these volunteer career citizen-warriors as veterans 
under the law.
    Military Coalition Position and The National Military Veterans 
Alliance Position. Amend Title 38 to include in the definition(s) of 
`veteran' retirees of the Guard/Reserve components who have completed 
20 or more years of service, but are not otherwise considered to be 
``veterans'' under the current statutory definitions. Career military 
service in the reserve forces of our Nation should constitute 
qualification for veteran status under the law.
    Status. The Military Coalition recommends the introduction of 
legislation that would accomplish this change. Suggested language 
follows:
    Adding a new subsection (g) in Section 106, 38 USC, `Certain 
service deemed to be active service':

        `(g) Any person----
            (1) who is qualified for reserve retired pay under section 
        12731 of title 10 and is in receipt of reserve retired pay for 
        non-regular service under the provisions of chapter 1223 of 
        title 10; or,
            (2) who is qualified for reserve retired pay under section 
        12731 of title 10 and has been separated or retired from the 
        Ready Reserve but is not yet age 60; and,
            (3) has not otherwise performed qualifying active duty 
        service shall be considered to have been on active duty for the 
        purpose of all laws administered by the Secretary' [of Veterans 
        Affairs]

Rationale
    As defined in law, members of the reserve components who have 
completed 20 or more years of service are military retirees and 
eligible upon reaching age 60 for all of the benefits of active duty 
military retirees. However, they are not considered to be ``veterans'' 
if they have not served the number of consecutive days on federal 
active duty (defined as active duty other than active duty for 
training) required by law.
    According to the Department of Veterans Affairs, ``Reservists who 
served on active duty establish veteran status and may be eligible for 
the full-range of VA benefits, depending on the length of active 
military service and a discharge or release from active duty under 
conditions other than dishonorable. In addition, reservists not 
activated may qualify for some VA benefits''.
    National Guard members can establish eligibility for VA benefits if 
activated for federal service during a period of war or domestic 
emergency. Activation for other than federal service does not qualify 
Guard members for all VA benefits.
    Over time, Congress has authorized certain veterans benefits for 
these retirees, indicating their `quasi-veteran' status. For purposes 
of this discussion, these individuals will be referred to as ``non-
veteran retirees.''
    VA benefits for non-veteran retirees who have not served on federal 
active duty for the consecutive number of days required by law include:

    <bullet>  VA disability compensation and VA health care for a non-
veteran retiree who is injured and/or disabled while performing 
inactive duty for training regardless of length of service.
    <bullet>  VA home loan eligibility in exchange for six or more 
years of honorable service in the Selected Reserve
    <bullet>  VA burial and memorial benefits for the non-veteran 
retiree entitled to reserve retired pay at the time of death
    <bullet>  Servicemen's Group Life Insurance (SGLI) and Veterans 
Group Life Insurance (VGLI)

    To qualify for a reserve retirement at age 60, a Guard or Reserve 
member must accrue the equivalent of 20 years of ``points'' based on 
the performance of military duty at a minimum of 50 points per year. 
The minimum of 1000 qualifying retirement points roughly equates to 
2.77 years of military duty based on the performance of drill duty 
(inactive duty training), annual training, and professional development 
in military science. (20 yrs. <greek-e> 50 points = 1000 pt minimum div 
by 360 = 2.77 years military duty). Moreover, as volunteers, reservists 
are liable for activation throughout their careers and required to 
maintain their readiness for such eventualities.
Budgetary Considerations
    Of primary concern to policy makers is the cost of designating non-
veteran retirees as veterans. We believe there would be little or no 
cost for the following reasons:
    By definition, non-veteran retirees will not have a VA disability 
rating. Indeed, if they were injured while on military duty, they would 
be eligible for a VA disability rating and VA health care. Most would 
have assets and incomes above the VA Priority Group 8 means test, which 
has been closed to new applicants for more than 4 years. A few 
individuals in the non-disabled, non-veteran retiree cohort might 
qualify for VA health care as Priority Group 7 means-tested 
individuals. Very few would qualify for enrollment in Priority Group 5 
as indigent veterans.
    In almost all instances, these individuals will have other full-
time employment, either in the private sector, or as civilian 
government employees. Many have health care insurance through their 
employer. Once they reach age 60, they will be eligible for TRICARE.
    Finally, the Nation's operational reserve policy requires the 
routine activation of Guard and Reserve servicemembers for 12 months 
every fifth or sixth year. Going forward, there will be a negligible 
number of career reservists who would not qualify as active duty 
veterans.
Summary
    For the vast majority of non-veteran retirees, this issue is about 
honor not benefits. They seek public and statutory recognition as 
``veterans of the Armed Forces of the United States''. They volunteered 
to serve, served honorably, and were prepared to serve on active duty 
if called. The absence of statutory recognition is a vestige of the 
Cold War, when the Nation relied upon conscription for its manpower. A 
small cohort of today's volunteers should not be penalized for 
decisions beyond their control concerning federal activation.
Addendum
    According to 38 USC,

    (2) The term ``veteran'' means a person who served in the active 
military, naval, or air service, and who was discharged or released 
there from under conditions other than dishonorable.
    (10) The term ``Armed Forces'' means the United States Army, Navy, 
Marine Corps, Air Force, and Coast Guard, including the reserve 
components thereof.
    (21) The term ``active duty'' means----
        (A) full-time duty in the Armed Forces, other than active duty 
        for training;
    (22) The term ``active duty for training'' means----
        (A) full-time duty in the Armed Forces performed by Reserves 
        for training purposes;
        (B) full-time duty for training purposes performed as a 
        commissioned officer of the Reserve Corps of the Public Health 
        Service (i) on or after July 29, 1945, or (ii) before that date 
        under circumstances affording entitlement to ``full military 
        benefits'', or (iii) at any time, for the purposes of chapter 
        13 of this title;
        (C) in the case of members of the Army National Guard or Air 
        National Guard of any State, full-time duty under section 316, 
        502, 503, 504, or 505 of title 32, or the prior corresponding 
        provisions of law;
        (D) duty performed by a member of a Senior Reserve Officers' 
        Training Corps program when ordered to such duty for the 
        purpose of training or a practice cruise under chapter 103 of 
        title 10 for a period of not less than four weeks and which 
        must be completed by the member before the member is 
        commissioned; and
        (E) authorized travel to or from such duty.

    The term does not include duty performed as a temporary member of 
the Coast Guard Reserve.

    (23) The term ``inactive duty training'' means----

            (A) duty (other than full-time duty) prescribed for 
        Reserves (including commissioned officers of the Reserve Corps 
        of the Public Health Service) by the Secretary concerned under 
        section 206 of title 37 or any other provision of law;
            (B) special additional duties authorized for Reserves 
        (including commissioned officers of the Reserve Corps of the 
        Public Health Service) by an authority designated by the 
        Secretary concerned and performed by them on a voluntary basis 
        in connection with the prescribed training or maintenance 
        activities of the units to which they are assigned; and
            (C) training (other than active duty for training) by a 
        member of, or applicant for membership (as defined in section 
        8140(g) of title 5) in, the Senior Reserve Officers' Training 
        Corps prescribed under chapter 103 of title 10.

    In the case of a member of the Army National Guard or Air National 
Guard of any State, such term means duty (other than full-time duty) 
under sections 316, 502, 503, 504, or 505 of title 32, or the prior 
corresponding provisions of law. Such term does not include (i) work or 
study performed in connection with correspondence courses, (ii) 
attendance at an educational institution in an inactive status, or 
(iii) duty performed as a temporary member of the Coast Guard Reserve.

    (24) The term ``active military, naval, or air service'' includes--
--
            (A) active duty;
            (B) any period of active duty for training during which the 
        individual concerned was disabled or died from a disease or 
        injury incurred or aggravated in line of duty; and
            (C) any period of inactive duty training during which the 
        individual concerned was disabled or died----
                    (i) from an injury incurred or aggravated in line 
                of duty; or
                    (ii) from an acute myocardial infarction, a cardiac 
                arrest, or a cerebrovascular accident occurring during 
                such training.

EANGUS Requests that you pass H.R. 3787.

                                 <F-dash>
         Statement of Military Officers Association of America
    Chairman Hall, Ranking Member Sanborn and Members of the Disability 
and Memorial Assistance Subcommittee, the Military Officers Association 
of America (MOAA) is pleased to submit for the official record of this 
hearing the following statement in support of H.R. 3787.
    MOAA does not receive any grants or contracts from the Federal 
Government.
H.R. 3787 (Rep. Tim Walz, D-MN), the Honor America's Guard and Reserve 
        Retirees Act.
    The purpose of the bill is to establish in law that members of the 
National Guard and Reserve who are qualified for a non-regular 
retirement under Chapter 1223 of 10 USC but who were never called to 
active federal service during their careers, are ``veterans of the 
Armed Forces of the United States'' as defined in Title 38.
    This issue is a matter of honor to those who through no fault of 
their own were never activated, but served their Nation faithfully for 
20 or more years. It's now time for Congress to take the final step and 
formally authorize these volunteer career citizen-warriors as veterans 
under the law.
    MOAA understands that the intent of this bill is honorific only: 
the bill does not seek to award any benefit for which these veterans 
have not qualified for elsewhere in law.
Justification for H.R. 3787
    All members of the National Guard and Reserve forces volunteer for 
service to the Nation and are liable for activation in its defense.
    Over time, Congress has authorized a number of veterans' benefits 
for National Guard and Reserve members, including military reserve 
retirees. In establishing such benefits, the Nation acknowledges that 
these servicemembers are ``veterans'' in many respects except for 
specific recognition in the statute.
    In the VA's booklet, Federal Benefits for Veterans and Dependents, 
``Reservists who served on active duty establish veteran status and may 
be eligible for the full-range of VA benefits, depending on the length 
of active military service and a discharge or release from active duty 
under conditions other than dishonorable. In addition, reservists not 
activated may qualify for some VA benefits''.
    Some of the benefits available to never-activated career reservists 
include:

    <bullet>  VA home loan eligibility at six or more years of 
honorable service in the Selected Reserve
    <bullet>  burial in a national cemetery or state veterans' 
cemetery; and, memorial benefits for the non-veteran retiree entitled 
to reserve retired pay at the time of death
    <bullet>  Servicemen's Group Life Insurance (SGLI) and Veterans 
Group Life Insurance (VGLI)

    During the course of a military reserve career, a Guard or Reserve 
member who is disabled in the line-of-duty during military training--
either inactive duty (drill) or active duty training--or traveling to 
or from such duty on competent military orders may be awarded a VA-
rated disability, compensation and access to VA health care for life. 
Survivors of reservists who die from an injury incurred during such 
duty are entitled to survivors' benefits. See Section 106(d), 38 USC.
    In terms of military benefits under Title 10, members of the 
reserve components who have completed 20 or more years of qualifying 
service are entitled, upon reaching age 60, to all of the benefits of 
active duty military retirees. These earned entitlements include a 
monthly pension, military health care--TRICARE and TRICARE for LIFE--
and other benefits related to their status as military retirees.
    Notwithstanding eligibility for certain veterans benefits and 
entitlement to military retired pay and other Title 10 benefits, 
reserve retirees who have not been called to active duty during their 
military careers are not cited as ``veterans of the Armed Forces'' in 
Title 38.
    Under the Nation's ongoing ``operational reserve'' policy, over 
time there will be fewer and fewer Guard and Reserve members who will 
not have served at least one qualifying tour of active duty in the 
course of a normal reserve career. For the remaining cohort, the issue 
of their status as veterans is about honor not benefits.
    Never-activated reserve retirees seek public and statutory 
recognition as ``veterans of the Armed Forces of the United States''. 
They volunteered to serve, served honorably, and were prepared to serve 
on active duty if called. The absence of specific statutory recognition 
of this cohort as ``veterans'' is a vestige of the Cold War, when the 
Nation relied upon conscription for its manpower. These career 
servicemembers--all volunteers--should not be penalized for decisions 
beyond their control concerning federal activation.
    MOAA understands that the bill's sponsor, Rep. Tim Walz, may offer 
an Amendment in the nature of a substitute bill at today's hearing to 
clarify the bill language to ensure that no unearned veterans' benefits 
would accrue to these veterans subsequent to the bill's enactment.
    The Military Officers Association of America strongly supports 
enactment of H.R. 3787, the Honor America's Guard-Reserve Retirees Act. 
In the event that Rep. Walz offers an Amendment in the nature of 
substitute language to clarify the intent of the bill, MOAA supports 
that objective, namely that no veterans' benefits not otherwise 
authorized in law would accrue to these veterans should the bill 
subsequently be enacted.

                                 <F-dash>
       Statement of Peter J. Duffy, Deputy Director Legislation,
            National Guard Association of the United States

    The National Guard is unique among components of the Department of 
Defense in that it has the dual state and federal missions. While 
serving operationally on Title 10 active duty status in Operation Iraqi 
Freedom (OIF) or Operation Enduring Freedom (OEF), National Guard units 
are under the command and control of the President. However, when not 
deployed on title 10 orders, members of the National Guard serve under 
the command and control of their governors to protect their communities 
from all manner of threats while continuing to train. As a special 
branch of the Selected Reserves they train not just for their federal 
missions but for their potential state active duty missions such as 
fire fighting, flood control and providing assistance to civil 
authorities in a variety of possible disaster scenarios.
    While serving in their states, members are scattered geographically 
with their families as they hold jobs, own businesses, pursue academic 
programs and participate actively in their civilian communities. 
Against this backdrop, members of the National Guard remain ready to 
uproot from their families and civilian lives to serve their governor 
domestically or their President in distance parts of the globe as duty 
calls and to return to reintegrate within the same communities when 
their missions are accomplished. The National Guard is always ready and 
always there as the daily national news will certainly reflect.
    When persons join the National Guard or Reserve they give the 
President a blank check to use them as the President deems necessary. 
It remains up to the President to decide just how to use them. 
Historically there was no assurance that those serving in the National 
Guard would be deployed in federal service under title 10 orders that 
would qualify them as veterans as that term is defined in the U.S. 
Code. It was not unusual for members to serve their state and Nation 
honorably for 20 years trained and ready for a call to federal service 
which never came. This was through no design or machinations on their 
part but strictly a function of the President's exercise of discretion 
in deciding whether to activate them for federal service or not.
    Because of an oddity in the law, those members of the National 
Guard and Reserve who have served honorably for 20 years to earn 
military retirement pay cannot call themselves veterans unless they 
have served on qualifying title 10 active duty. This is neither fair 
nor respectful as these members remained trained and ready for federal 
missions throughout their honorable service. But for the chance call up 
order from the President, their service is indistinguishable from that 
of the active forces who can freely separate from service and use the 
veterans appellation irrespective of any overseas deployment.
    NGAUS strongly supports H.R. 3787. The time is long past due to 
extend the well earned status of veteran to our dedicated career men 
and women of the National Guard and Reserve without conditioning the 
same on a chance call to serve on qualifying title 10 active duty. 
Their selfless and honorable service deserves nothing less than to 
bestow upon them the right to call themselves veterans.

                                 <F-dash>
    Statement of Reserve Officers Association of the United States,
                    and Reserve Enlisted Association
INTRODUCTION
    Mr. Chairman and distinguished members of the House Veterans 
Affairs Subcommittee on Disability Assistance and Memorial Affairs on 
behalf of 1.1 million Reserve Component members, the Reserve Officers 
Association (ROA) of the United States and the Reserve Enlisted 
Association (REA) expresses our appreciation for the opportunity to 
testify.
    Many Guard and Reserve servicemembers have served admirably for 20 
plus years and qualify for retirement without having been called to 
active duty service during their careers. At age 60, they are entitled 
to Reserve military retired pay, government health care, and other 
benefits of service, including some Veterans' benefits. Yet current law 
denies them full standing as a Veteran of the armed forces.
                             Veteran Status
    Often times those Reserve Component members who after serving their 
country, particularly for 20 years or more, believe they are considered 
to be a veteran. Unfortunately as many of you may know by now, this is 
not the case. Both ROA and REA have listed in our 2010 legislative 
agendas that Veteran status is a top issue.
    Reserve Component members, as defined in law, who have completed 20 
or more years of service are military retirees and eligible once 
reaching 60 years of age for all of the active duty military retiree 
benefits. Conversely they are not considered to be ``Veterans'' if they 
have not served the required number of uninterrupted days on Federal 
active duty (defined as active duty other than for training).
    REA's executive director, Lani Burnett, retired Chief Master 
Sergeant of the U.S. Air Force, wrote in THE OFFICER, January 2009, in 
regards to Veteran status, that, ``It may surprise you to know that 
even after serving honorably in the Reserve or Guard for 20 years, you 
may not be considered a `veteran' of the armed forces, under the 
current statutory definition, if you were not called to active duty 
during your career.'' This statement shocked many of our readers.
    As she pointed out later in a May 2009 article, servicemembers 
focus on numerous things such as the mission at hand, the job, training 
and development, the troops, going where needed, and others, but not 
much thought is given to making sure they had the right kind of duty to 
qualify to become a Veteran upon retirement.
    Those Reserve Component members that have been called to serve in 
Operation Enduring Freedom or Operation Iraqi Freedom will undoubtedly 
qualify as Veterans. Though there are many others who stand in front of 
and behind these men and women--preparing them and supporting them--
individuals that are also ready to deploy but because of their assigned 
duties may never serve in that capacity. Nevertheless they serve 
faithfully.
    Twenty or more years of service in the reserve forces and 
eligibility for reserve retired pay should be sufficient qualifying 
service for full Veteran status under the law.
    This issue is a matter of honor for those, who through no fault of 
their own were never activated, but served their Nation faithfully for 
20 or more years.
Hurdles
    Seemingly, the biggest hindrance to passing H.R. 3787 to grant 
Veterans status, is the misconception that passage would have 
unintended consequences, causing this group of Veterans to receive 
benefits that they would not otherwise qualify for. The argument is to 
not use Section 101 language, rather select a different section. This 
would be a grave error.
    The pending legislation would change the legal definition of 
`Veteran' so that proper acknowledgment and recognition that comes with 
the designation of `veteran' would be made. BUT it would NOT change the 
legal qualification for access to any benefits.
    Each benefit has a different set of qualifications because each was 
created at a different time. Every time Congress passes new legislation 
that is signed into law authorizing new Veteran benefits, the 
eligibility requirements are determined for that specific benefit. 
Veteran status depends on which Veteran program or benefit you are 
applying for.
    There are innumerable programs to outline, but an example could be 
``Veteran's Preference for Federal Jobs'' in which preference is given 
to separated Veterans who received an honorable or general discharge 
and served on active duty (not active duty for training). Furthermore 
Reservists that are retired from the Reserve but not receiving retired 
pay (such as Gray-area retirees) are not considered ``retired 
military'' for purposes of Veterans' preference.
    Thus allowing the utilization of Section 101 language does not 
generate unintended consequences. Although if that were to happen, and 
it was placed elsewhere it would cause harm because a disparate outcome 
would be created causing this specific group to be classified as 
second-class veterans. Such a result would not only, not grant these 
admirable men and women the honor they deserve for their 20 years plus 
service, but denigrate it.
    H.R. 3787 would amend Title 38 to include in the definition of 
Veteran retirees Guard and Reserve Component members who have completed 
20 or more years of service, but are not considered to be Veterans 
under the current statutory definitions. ROA and REA have signed 
letters supporting the efforts of Congressman Tim Walz (D-Minn.) on 
this issue.
Cost
    Reserve Component members with 20 years or more service without 
qualifying consecutive active duty time, cannot have a Veterans Affairs 
(VA) disability rating. Though, if they are injured while on military 
duty, they would be eligible for a VA disability rating and VA health 
care. Some would have assets and incomes above the VA Priority Group 8 
means test (closed to new applicants for over 4 years). Some in the 
non-disabled and non-veteran retiree group might qualify for VA health 
care for Priority Group 7. Only a very small amount would qualify for 
enrollment in Priority Group 5 as indigent veterans.
    In the majority of circumstances these individuals will have other 
full-time employment in the private sector or as a civilian government 
employee. Therefore many have health care insurance through their 
employer. Upon reaching 60 years of age they will be eligible for 
TRICARE.
    Lastly, the operational reserve policy requires routine activation 
of Reserve Component members for 12 months every fifth or sixth year. 
There will be as we move forward a small number of career reservists 
that will not qualify as active duty veterans.
CONCLUSION
    The Reserve Officers Association and Reserve Enlisted Association, 
again, would like to thank this sub-committee for the opportunity to 
present our testimony.
    America's servicemen and women from the Reserve Components come 
from the heart of communities across this great country and its 
territories. They have proven themselves to be worthy and capable, and 
have earned the respect they so richly deserve from their fellow 
citizens. What they also deserve is the honor to be called Veteran.
    ROA and REA appreciate efforts by this Subcommittee to address 
employment issues that veterans face. We are looking forward to working 
with you, and supporting your efforts in any way that we can.
    Upon request ROA and REA can provide copies of THE OFFICER articles 
referenced.

                                 <F-dash>
      Statement of Master Sergeant Larry D. Madison, USAF (Ret.),
     Legislative Director, Washington Office, The Retired Enlisted 
                              Association

    Mr. Chairman, Ranking Member Lamborn, and Members of the Committee, 
thank you for this opportunity to provide testimony for the record to 
the Disability Assistance and Memorial Affairs Subcommittee of the 
House Committee on Veterans Affairs.
    The Retired Enlisted Association is a Veterans Service Organization 
founded 46 years ago to represent the needs and points of view of 
enlisted men and women who have dedicated their careers to serving in 
all the branches of the United States Armed Services: Active Duty, 
National Guard and Reserves, as well as the members who are doing so 
today.
    The Retired Enlisted Association enthusiastically supports the 
passage of H.R. 3787, the Honor America's Guard and Reserve Retirees 
Act, and whatever amendments may be offered by Congressman Walz of 
Minnesota.
    As currently defined in law, members of the reserve components who 
have completed 20 or more years of service are military retirees and 
eligible upon reaching age 60 for all of the benefits of active duty 
military retirees. However, they are not considered to be ``veterans'' 
if they have not served the number of consecutive days on federal 
active duty (defined as active duty other than active duty for 
training) required by law.
    According to the Federal Benefits for Veterans, Dependents and 
Survivors handbook, 2009 edition, published by the Department of 
Veterans Affairs, ``Reservists who served on active duty establish 
veteran status and may be eligible for the full-range of VA benefits, 
depending on the length of active military service and a discharge or 
release from active duty under conditions other than dishonorable. In 
addition, reservists not activated may qualify for some VA benefits'' 
[emphasis added].
    It adds further that ``National Guard members can establish 
eligibility for VA benefits if activated for federal service during a 
period of war or domestic emergency. However, activation for other than 
federal service does not qualify Guard members for all VA benefits'' 
[emphasis added].
    Over time, Congress has authorized certain veterans benefits for 
these retirees, indicating their `quasi-veteran' status. For purposes 
of this discussion, these individuals will be referred to as ``non-
veteran retirees.''
    VA benefits for non-veteran retirees who have not served on federal 
active duty for the consecutive number of days required by law include:

    <bullet>  VA disability compensation and VA health care for a non-
veteran retiree who is injured and/or disabled while performing 
inactive duty for training regardless of length of service.
    <bullet>  VA home loan eligibility in exchange for six or more 
years of honorable service in the Selected Reserve
    <bullet>  VA burial and memorial benefits for the non-veteran 
retiree entitled to reserve retired pay at the time of death
    <bullet>  Servicemen's Group Life Insurance (SGLI) and Veterans 
Group Life Insurance (VGLI)

    These are substantial and appreciated benefits and this legislation 
contemplates adding no new benefits if veterans status is granted.
    To qualify for a reserve retirement at age 60, a Guard or Reserve 
member must accrue the equivalent of 20 years of ``points'' based on 
the performance of military duty at a minimum of 50 points per year. 
The minimum of 1000 qualifying retirement points roughly equates to 
2.74 years of military duty based on the performance of drill duty 
(inactive duty training), annual training, and professional development 
in military science. (20 yrs. <greek-e> 50 points = 1000 point minimum 
divided by 365 = 2.74 years military duty). Moreover, as volunteers, 
reservists are liable for activation throughout their careers and 
required to maintain their readiness for such eventualities.
    It is not well known that members of the Reserve Components who are 
sent for duty on the southern border of the United States are sent in 
other than active duty orders. So no matter how long those individuals 
may be on duty, their time does not count as active duty time and 
therefore does not count toward gaining veterans status.
    In addition, for many years members of the air Reserve Components, 
including the Naval Air Reserve, the Air National Guard and the Air 
Force Reserve have flown missions to many destinations around the 
world, doing what the active duty components would otherwise have to 
do. Again, many, if not most of these missions are flown in other than 
active duty status, once again depriving these individuals of time that 
could count for veterans status.
    In short, an individual may serve a career in the Reserve 
Components of the United States Armed Forces and become a military 
retiree, with all of the earned benefits that come with that status, 
and yet not be a ``veteran'' as defined by law. Frankly, this makes no 
sense in today's world, if it ever did.
    When one looks at the uniform of someone serving in the United 
States military, several things are very noticeable. Among these are 
the ribbons and medals worn on the uniform, the branch of service, and 
on some, the unit patch. As the Army says on its Web site, ``Soldiers 
wear a wide assortment of insignia, ribbons, medals, badges, tabs and 
patches. To the uninitiated, the variety can be bewildering. Yet, each 
device represents a Soldier's accomplishment--or that of his or her 
unit--and is a great source of pride and accomplishment'' [emphasis 
added]. The same can be said of all the other branches of service.
    Within the U.S. Armed Forces, things without monetary value are 
meaningful and are a source of great pride and honor. Clearly, one of 
those things is the distinction of being called a ``veteran.'' And yet 
that honor is denied to some who serve honorably and with distinction 
for 20 years or more in the Reserve components. It is time to change 
that.
    The Congressional Budget Office has said there is no cost involved 
in making this change because there are no new benefits that will be 
granted to the personnel involved. The fact is, this is strictly an 
issue of honor.
    It should be noted that the Guard-Reserve, Veterans, and Retiree 
Committees of The Military Coalition have each put this initiative on 
their top 10 priorities list for 2010, and it is endorsed by both The 
Military Coalition and the National Military Veterans Alliance.
    Finally, the Nation's operational reserve policy requires the 
routine activation of Guard and Reserve servicemembers for 12 months 
every fifth or sixth year. Going forward, there will be a negligible 
number of career reservists who would not qualify as active duty 
veterans.
Summary
    For the vast majority of non-veteran retirees, this issue is about 
honor not benefits. They seek public and statutory recognition as 
``veterans of the Armed Forces of the United States.'' They volunteered 
to serve, served honorably, and were prepared to serve on active duty 
if called. The absence of statutory recognition is a vestige of the 
Cold War, when the Nation relied upon conscription for its manpower. A 
small cohort of today's volunteers should not be penalized for 
decisions beyond their control concerning federal activation.
    This is a chance for the House Veterans Affairs Committee and the 
Congress to honor the service of those individuals at virtually no cost 
to taxpayers. We sincerely hope Congress will do the right thing and 
pass the Honor America's Guard and Reserve Retirees Act.

                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                      July 21, 2010

Thomas Pamperin
Associate Deputy Under Secretary for Policy and Programs Management
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20402

Dear Mr. Pamperin:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs' 
legislative hearing on ``H.R. 3407, H.R. 3787 and related draft 
legislation, H.R. 4541, H.R. 5064, and H.R. 5549'' held on July 1, 
2010. We would greatly appreciate if you would provide answers to the 
enclosed follow-up hearing questions by Wednesday, August 18, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
by fax at (202) 225-2034. If you have any questions, please call (202) 
225-3608.

                               Sincerely,


John J. Hall                                                                      Doug Lamborn
Chairman                                                                          Ranking Republican Member


                               __________
                        Questions for the Record
                  The Honorable John J. Hall, Chairman
            Subcommittee on Disability and Memorial Affairs
               The Honorable Doug Lamborn, Ranking Member
            Subcommittee on Disability and Memorial Affairs,
                  House Committee on Veterans' Affairs
           ``Legislative Hearing on H.R. 3407, H.R. 3787 and
      Related draft legislation, H.R. 4541, H.R. 5064, H.R. 5549''
                              July 1, 2010
    Question 1: Please provide the completed cost estimates for H.R. 
3407.

    Response: Please see attachment for cost estimates for H.R. 3407.

    H.R. 3407, the ``Severely Injured Veterans Benefits Improvement Act 
of 2009,'' includes provisions that would: (1) increase special monthly 
compensation rates for severely injured Veterans; (2) provide 
eligibility for automobiles and adaptive equipment to disabled Veterans 
and members of the Armed Forces with severe burn injuries; (3) increase 
non service-connected disability pension for certain wartime Veterans; 
(4) provide eligibility for aid and attendance benefits to Veterans 
with traumatic brain injuries; (5) authorize the Secretary of Veterans 
Affairs to increase Medal of Honor Special Pension; and (6) extend 
current provisions relating to pensions for certain hospitalized 
Veterans. The amendments made by this bill would become effective 
September 30, 2011.
Section 2
    Section 2 of the bill would increase the monthly rates of 
disability compensation specified in 38 U.S.C. Sec. 1114(r)(1) and 
(r)(2) as payable for aid and attendance, from $1,893 to $2,840, and 
for higher levels of care, from $2,820 to $4,230.
    As stated in testimony, costs are estimated to be $30.9 million for 
the first year, $163.4 million over 5 years, and $351.3 million over 10 
years. VA estimates that there would be no additional administrative 
costs associated with this provision.
Section 3
    Section 3 would expand the category of persons eligible for 
automobile allowance and adaptive equipment as specified in 38 U.S.C. 
Sec. 3901(1) to include certain Veterans and members of the Armed 
Forces serving on active duty who are disabled with a severe burn 
injury, as determined under regulations prescribed by the Secretary.
    Benefit costs are estimated to be $14.5 million during the first 
year, $75.1 million for 5 years and nearly $148.0 million over 10 
years. VA estimates that there would be no additional administrative 
costs associated with this provision.
Section 4
    Section 4 would increase monthly payments of non service-connected 
disability pension under 38 U.S.C. Sec. 1521(e) to Veterans who, in 
addition to being permanently and totally disabled, have additional 
disability rated 60-percent or greater or are permanently housebound. 
The rates would increase from $4,340 to $4,774 for unmarried Veterans 
without dependents and from $5,441 to $5,985 for Veterans with a spouse 
or dependent.
    As stated in testimony, benefit costs are estimated to be $14.3 
million for the first year, $77.3 million over 5 years, and $160.3 
million over 10 years. VA estimates that there would be no additional 
administrative costs associated with this provision.
Section 5
    Section 5 would amend 38 U.S.C. Sec. 1114(o) to include traumatic 
brain injury (TBI) among the list of disabilities that qualify for 
special monthly compensation at the rating specified in section 
1114(o). Under the provision as written, this level of compensation 
would be payable without regard to the severity of the TBI or the 
resulting disability. Further, eligibility for payment under section 
1114(o) would also make Veterans with a TBI of any severity who are 
also in need of aid and attendance eligible for payment of the higher 
rate payable under 38 U.S.C. Sec. 1114(r) to Veterans in need of aid 
and attendance.
    Benefit costs just for the added beneficiaries under 38 U.S.C. 
Sec. 1114(o) are estimated to be $1.6 billion during the first year, 
$9.1 billion for 5 years and $20.7 billion over 10 years. Additional 
significant costs would be incurred as many of the new 38 U.S.C. 
Sec. 1114(o) beneficiaries would now be eligible for the increased aid 
and attendance under 38 U.S.C. Sec. 1114(r)(1). VA estimates that there 
would be no additional administrative costs associated with this 
provision.
Section 6
    Section 6 would authorize the Secretary to increase by no more than 
$1,000 the monthly rate of Medal of Honor Pension for fiscal years 2012 
and 2013. The proposed increase is subject to the availability of 
appropriations.
    As stated in testimony, VA estimates that costs for this provision, 
if the maximum authorized increase were provided, would be $1.0 million 
per year and $2.0 million over 2 years.
Section 7
    Section 7 would amend 38 U.S.C. Sec. 5503(d)(7) to extend current 
provisions governing pensions for certain Veterans in Medicaid-approved 
nursing facilities that will expire on September 30, 2011. The proposal 
would extend until September 30, 2021, the provisions in section 
5503(d) providing such Veterans a protected pension payment that cannot 
be used to reduce the amount of Medicaid benefits payable for the 
Veteran's care.
    As stated in testimony, VA estimates that enactment of this 
provision would result in VA cost savings of approximately $563 million 
during the first year, $2.9 billion for 5 years, and $6.2 billion over 
10 years.
    VA regrets any confusion resulting from our response during the 
hearing on July 1, 2010, regarding the net budgetary effect to the 
Medicaid Program as a result of extending the provisions of 38 U.S.C. 
Sec. 5503(d)(7). VA contacted the Center for Medicare and Medicaid 
Services of the Department of Health and Human Services, but did not 
receive a response as to the budgetary impact of extending 
Sec. 5503(d)(7). VA is therefore unable to provide a forecast of costs 
that will be incurred by the Medicaid Program as a result of this 
amendment.

    Question 2: The Department of Veterans Affairs (VA) expressed 
opposition to H.R. 4541, the ``Veterans Pensions Protection Act of 
2010,'' in so far as it seeks to exclude, from countable income, 
payments received by Veterans for pain and suffering from insurance 
companies and other third parties. Please inform us how many Veterans 
would fall into this category?

    Response: VA cannot determine the number of Veterans that this 
provision would affect and/or how many fall into this category. Data 
are not available regarding the frequency or amounts of such payments 
to pension beneficiaries.

    Question 2(a): What are the policy considerations for excluding 
medical expense reimbursements from countable income and not payments 
received for pain and suffering due to severe accidents such as that by 
Congressman Hastings' constituent?

    Response: The distinction between these two types of payments is 
that reimbursement for medical expenses replaces an economic loss, 
whereas payment for pain and suffering does not. Disability pension is 
a need-based program in which the level of need is determined by 
counting the amount of income available to the Veteran. A Veteran who 
incurs medical expenses due to an accident may be required to expend 
his or her income to pay such expenses. Reimbursement for such 
expenditures returns the Veteran's available income to the same level 
it would have been at but for the accident, with no net increase in 
available income. In contrast, payment for pain and suffering does not 
replace expended income, but constitutes additional income available to 
the Veteran.

    Question 2(b): What are the costs associated with H.R. 4541?

    Response: Current law excludes reimbursement for casualty loss as 
countable income in determining pension entitlement; therefore, no 
benefit costs are associated with this provision. This proposal would 
additionally exclude payments received for pain and suffering related 
to accident, theft or loss, and casualty loss. VA cannot determine 
potential benefit costs related to this proposed provision because data 
are not available regarding the frequency or amounts of such payments 
to the population of pension beneficiaries.

    Question 3: According to your testimony, VA opposes both H.R. 3787 
and an alternate draft version of this legislation. Please elaborate on 
your opposition to H.R. 3787 and the alternative version of the bill, 
including any unintended consequences that VA foresees.

    Question 3(a): VA contends that extending even honorary Veteran 
status to retired Reservists and National Guard members represents a 
departure from the principle that active duty service is the foundation 
for Veteran status. What is VA's position in response to proponents of 
the draft alternative to H.R. 3787 who argue that a departure in policy 
concerning veteran status is appropriate given the new nature and 
character of Reserve and National Guard service?

    Response: There is minimal value in amending 38 U.S.C. section 
101(2) for the purpose of extending honorary Veteran status to retired 
Reserve or Guard members who did not otherwise have active military 
service at some point during their careers. Proponents of this bill 
want Reserve and Guard members to receive proper recognition based on 
the enhanced role they have assumed over the last decade. However, 
individuals who assume this enhanced role through a period of active 
service are currently recognized as ``Veterans'' as defined in 38 
U.S.C. 101(2). It is arbitrary and inequitable to provide the same 
Veteran status to 20-year Guard or Reserve members who did not serve 
the minimum period of active duty time necessary to become a Veteran. 
Furthermore, it is not clear what tangible benefits outside of the 
currently available VA benefits would be extended based on this status.

    Question 3(b): Does VA have an alternative approach to address the 
concerns raised by the draft bill's proposal?

    Response: Outside the existing benefits and services that are 
available to Reserve and Guard members, VA does not have an alternate 
approach to recognize these individuals.

    Question 3(c): What is the population of retired Reservists and 
National Guard members who would benefit from the alternative version 
of H.R. 3783?

    Response: According to the Defense Finance and Accounting Service, 
there are currently 357,726 living National Guard and Reserve Component 
retirees. VA estimates 25,000 new National Guard and Reservist retirees 
per year. However, we do not know how many of these retirees have or 
will have qualifying active duty service. A more precise number would 
need to be obtained from DoD.

    Question 4: Please provide VA's position on H.R. 5549, specifically 
how would this bill change the way VA currently preserves effective 
dates and provides VCAA notice?

    Response: The legislation would not affect VA's longstanding 
regulations and policy regarding determining and assigning effective 
dates. Although H.R. 5549 introduces new procedural practices regarding 
waiver of development that VA has traditionally provided to claimants, 
the effective date for any grant of benefits for a claim filed through 
a standard or expedited adjudicatory process will generally still be 
the date of claim or date entitlement arose, whichever is later, under 
current VA laws and regulations.
    We also do not believe this bill would affect VA's provision of 
Veterans Claims Assistance Act (VCAA) notice under 38 U.S.C. 
Sec. 5103(a), although we note that there is some ambiguity as to the 
intent of the bill in this regard. The bill states that, if VA 
determines that a claim is not a ``fully developed'' claim, it must 
provide VCAA notice. Although this may imply that VA need not provide 
VCAA notice if the claim is ``fully developed,'' the bill contains no 
language explicitly relieving VA of the duty under section 5103(a) to 
provide such notice. Section 5103(a) directs VA to notify claimants of 
any information and evidence, not previously submitted to VA, that is 
necessary to substantiate the claim. VA interprets that statute to mean 
that VA need not provide notice if the claim is substantiated by the 
information and evidence submitted with a claim. However, nothing in 
current section 5103(a) or H.R. 5549 excuses VA from providing VCAA 
notice in cases in which VA determines that additional information or 
evidence is needed. H.R. 5549 would define a ``fully developed claim'' 
as one in which the claimant indicates that he or she does not intend 
to submit additional information and evidence and does not require 
assistance from VA in developing the claim. It is possible that a claim 
may meet this definition of a ``fully developed claim,'' but that VA 
may still determine that further information or evidence is needed to 
substantiate the claim. In such circumstances, we believe that section 
5103(a) would require VA to provide VCAA notice and that H.R. 5549 does 
not clearly provide otherwise.
    The U.S. Court of Appeals for Veterans Claims has recognized that 
claimants may waive the opportunity to submit information and evidence 
under 38 U.S.C. Sec. 5103(a), provided the waiver is voluntary and 
fully informed. However, absent notice from VA of the information and 
evidence needed to substantiate the claim, it is questionable whether 
the Court would find a waiver to be fully informed.
    VA does not support this legislation, as further statutory 
authority is not needed for VA to employ an expedited claims process. 
VA has already implemented a Fully Developed Claim (FDC) program across 
all regional offices under the existing authority of 38 U.S.C. 
Sec. 501(a)(4), which provides the Secretary's authority to prescribe 
rules and regulations to include establishing the method in which 
claims are adjudicated. The Secretary has complied with the Veterans' 
Benefits Improvement Act of 2008, Public Law 110-389, section 221(a), 
which directed VA to carry out a 1-year pilot program to assess the 
feasibility and advisability of expeditiously processing fully 
developed compensation and pension claims within 90 days after receipt 
of the claim. Based on the favorable results from the pilot, VA has 
expanded and fully implemented the program, thereby rendering H.R. 5549 
unnecessary.
    The amendment to section 5104 is also unnecessary and adds 
ambiguity to the existing statute. The amendment would require VA, when 
it denies a benefit sought, to provide the claimant with ``any form or 
application required by the Secretary to appeal such decision.'' VA has 
never required a notice of disagreement to be submitted on a specific 
form or application. Section 7105(b)(2) of title 38 only requires that 
a Notice of Disagreement be in writing, and requiring claimants to file 
a specific form would place an unnecessary burden on them. Although 
H.R. 5549 would not require VA to adopt a specific form for appeal, 
amending section 5104 to include reference to such a form would likely 
create confusion as to whether claimants are required to use a specific 
form to appeal VA decisions.

    Question 4(a): Do you foresee any shortcomings or potential 
exploitations of the bill's provision that would allow a veteran to 
signal his/her intent of filing a Fully Developed Claim (FDC) while 
filing an informal claim to secure the earlier effective date? Would 
there be a way to avoid potential abuse such as veterans filing 
meritless claims and then using FDC?

    Response: VA's current Fully Developed Claim (FDC) Program includes 
procedures to consider any communication or action that shows intent to 
apply for benefits under the FDC Program as an informal FDC. Further, 
current VA regulations permit payment from the date of an informal 
claim irrespective of whether the claim is fully developed when 
received.

    Question 4(b): What steps, if any, is VA taking to inform veterans 
of claims that lack necessary evidence, prior to processing fully 
developed claims?

    Response: A claim that does not meet, or no longer meets, FDC 
criteria will be processed routinely and the Veteran will be notified 
of this status change. An FDC claim must meet criteria that include 
all, if any, relevant private medical treatment records and an 
identification of any treatment records from a Federal treatment 
facility such as a VA medical center. A claim is not qualified for the 
FDC Program if the claim requires additional development such as a 
request for private medical evidence, Guard/Reserve records, or other 
evidence.

    Question 4(c): VA contends that including a VA Appeals form along 
with notices of claim decisions, as proposed by H.R. 5549, would not 
speed up the appeals process and may confuse veterans who still may be 
able to avail themselves of administrative processes. Does VA have any 
alternative ideas for achieving the bill's aim of better informing 
veterans, family members, and survivors of their rights to appeal claim 
decisions?

    Response: Outside of the current practice of communicating appeal 
rights in the decision notification letter, VA does not have an 
alternative approach. The following paragraph is included in all 
notification letters to claimants. A toll free number is also provided 
if claimants have questions or require additional assistance.
What You Should Do If You Disagree With Our Decision
    If you do not agree with our decision, you should write and tell us 
why. You have one year from the date of this letter to appeal the 
decision. The enclosed VA Form 4107, ``Your Rights to Appeal Our 
Decision,'' explains your right to appeal.


                                 <F-dash>
                               H.R. 3407
                           VBA Cost Estimate
       Severely Injured Veterans Benefit Improvement Act of 2009
Issue
    H.R. 3407: Severely Injured Veterans Benefits Improvement Act of 
2009, 1st session of 111th Congress.
Purpose
    Section two provides for a special monthly compensation rate 
increase for severely injured Veterans. Section three provides 
eligibility for automobiles and adaptive equipment to disabled Veterans 
and members of the armed forces with severe burn injuries. Section four 
provides for an increase in non service-connected disability pension 
for certain Veterans of a period of war. Section five provides 
eligibility for aid and attendance benefits to veterans with traumatic 
brain injuries. Section six provides authority to the Secretary of 
Veterans Affairs to increase Medal of Honor Special Pension. Section 
seven extends the current provisions relating to pensions for certain 
hospitalized Veterans.
Section 2--Increase in Rate of Special Monthly Compensation for 
        Severely Injured Veterans
Summary
    This proposed section would amend 38 U.S.C. Sec. 1114(r)(1) and (2) 
by increasing the special monthly compensation rate of aid and 
attendance from $1,893 to $2,840 and, for a higher level of aid and 
attendance, from $2,820 to $4,230.
Cost
Benefits Costs (Mandatory)
    Benefit costs are estimated to be $30.9 million during the first 
year, $163.4 million for 5 years and $351.3 over 10 years.
Benefits Methodology
    Caseload for R1 (lower level aid and attendance) and R2 (higher 
level aid and attendance) recipients in FY 2012 and the out-years were 
based on historical trends. In order to calculate the payment amount 
for the increase in Special Monthly Compensation (SMC) rates, we 
annualized the difference between the benefit rates in FY 2010 at the 
R1 ($6,669) and R2 level ($7,650) and the proposed rates ($7507 at the 
R1 level and $8,897 at the R2 level). Obligations were calculated by 
applying the caseload to the increase in the special monthly 
compensation rates. The effective date of this bill is September 30, 
2011.

------------------------------------------------------------------------
       FY            Veteran  Caseload       Total Obligations  (000's)
------------------------------------------------------------------------
2012                               2,653                        $30,898
------------------------------------------------------------------------
2013                               2,671                        $31,764
------------------------------------------------------------------------
2014                               2,689                        $32,652
------------------------------------------------------------------------
2015                               2,708                        $33,563
------------------------------------------------------------------------
2016                               2,726                        $34,497
------------------------------------------------------------------------
2017                               2,744                        $35,490
------------------------------------------------------------------------
2018                               2,762                        $36,510
------------------------------------------------------------------------
2019                               2,780                        $37,557
------------------------------------------------------------------------
2020                               2,798                        $38,631
------------------------------------------------------------------------
2021                               2,816                        $39,735
------------------------------------------------------------------------
Total                             27,347                       $351,298
------------------------------------------------------------------------

    COLAs commensurate with current economic assumptions and have been 
factored into this estimate.
Administrative/General Operating Expense Costs (GOE)
    No administrative costs are associated with section 2.
Section 3--Eligibility of Disabled Veterans and Members of the Armed 
        Forces with Severe Burn Injuries for Automobiles and Adaptive 
        Equipment.
Summary
    This proposed section would amend Chapter 39, which provides 
eligibility for an automobile allowance and adaptive equipment to 
disabled Veterans and members of the armed forces. It would add to 
those who make up the current ``eligible person'' category, under 38 
U.S.C. Sec. 3901(1), a category of Veterans and members of the armed 
forces serving on active duty who are disabled with ``a severe burn 
injury.'' The definition of a severe burn injury is to be determined 
through regulations prescribed by the Secretary.
Cost
    Benefit costs are estimated to be $14.5 million during the first 
year, $75.1 million for 5 years and nearly $148.0 million over 10 
years.
    The passage of this bill will extend eligibility to those severely 
burned Veterans who fall into the 40 percent and 50 percent disability 
rating and are not currently in receipt of automobile and adaptive 
equipment benefits. Based on the rating schedule, those rated 0 percent 
through 30 percent will not be eligible, and it is assumed that those 
rated 60 percent and above are highly likely to be already eligible for 
adaptive equipment and automotive grants.
    To determine caseload, we based estimates on current diagnostic 
codes from RCS 20 227: Specific Diagnosis, Major and Largest 
Evaluation, by Entitlement and Conflict report. According to third 
quarter data for FY 2010 from this report, there are over four thousand 
Veterans with burns at 40 percent or greater disability. Of these total 
Veterans, 3,611 or 86 percent, are rated 40 and 50 percent and will 
become eligible in 2012. Based on this report, we anticipate 76 
accessions per year.
    C&P service assumes an 85 percent application rate. In year one 
through four, an even caseload distribution is assumed for both 
automobile and adaptive equipment grants. Accessions are distributed 
evenly over a 4-year period. Automobile grants are a one-time payment. 
Adaptive equipment benefits are granted once within a 4-year period, 
and it is assumed half the eligible population will reapply after every 
fifth year in addition to the new accessions.
    Average payments from the FY 2011 President's Budget were applied 
to the caseload to calculate obligations.
    For purposes of this cost estimate, we assume an enactment date of 
October 1st 2011.

----------------------------------------------------------------------------------------------------------------
                                                 Automobile      Adaptive  Equipment       Total  Obligations
                      FY                           Grants              Grants                   ($000's)
----------------------------------------------------------------------------------------------------------------
2012                                                    767                       767                   $14,469
----------------------------------------------------------------------------------------------------------------
2013                                                    783                       783                   $15,875
----------------------------------------------------------------------------------------------------------------
2014                                                    800                       800                   $17,479
----------------------------------------------------------------------------------------------------------------
2015                                                    816                       816                   $19,310
----------------------------------------------------------------------------------------------------------------
2016                                                     64                       448                    $7,924
----------------------------------------------------------------------------------------------------------------
2017                                                     64                       456                    $9,102
----------------------------------------------------------------------------------------------------------------
2018                                                     64                       464                   $10,466
----------------------------------------------------------------------------------------------------------------
2019                                                     64                       472                   $12,044
----------------------------------------------------------------------------------------------------------------
2020                                                     64                       672                   $19,164
----------------------------------------------------------------------------------------------------------------
2021                                                     64                       684                   $22,145
----------------------------------------------------------------------------------------------------------------
Total                                                                                                  $147,978
----------------------------------------------------------------------------------------------------------------

Section 4--Increase in Non-Service Connected Disability Pension for 
        Certain Veterans of a Period of War.
Summary
    This proposed section would amend 38 U.S.C. Sec. 1521(e), which 
authorizes non service-connected disability pension benefits to 
Veterans of a period of war, to increase monthly payments for those 
veterans who are eligible for permanently housebound benefits from 
$4,340 to $4,774 for unmarried Veterans without dependents, and from 
$5,441 to $5,985 for Veterans with a spouse or dependent.
Cost
Benefits Costs (Mandatory)
    Benefit costs are estimated to be $14.3 million during the first 
year, $77.3 million for 5 years and $160.3 million over 10 years.
Benefits Methodology
    Caseload for Veterans and Veterans with dependents for FY 2012 and 
out-years were based on historical trends. To calculate the payment 
amount for the increase in special monthly pension rates, we annualized 
the difference between the benefit rates. In FY 2010, the Veterans' 
rate is $14,457 and the Veterans' with dependent rate is $18,120. The 
proposed rate for Veterans is $15,563 and $19,513 for Veterans with 
dependent. COLAs were factored into the rates in the out-years. 
Obligations were calculated by applying the caseload to the increase in 
the special monthly pension rates. The effective date of this bill is 
September 30, 2011.

------------------------------------------------------------------------
       FY            Veteran  Caseload      Total Obligations  ($000's)
------------------------------------------------------------------------
2012                              10,923                        $14,347
------------------------------------------------------------------------
2013                              10,813                        $15,505
------------------------------------------------------------------------
2014                              10,704                        $15,655
------------------------------------------------------------------------
2015                              10,596                        $15,808
------------------------------------------------------------------------
2016                              10,490                        $15,961
------------------------------------------------------------------------
2017                              10,384                        $16,249
------------------------------------------------------------------------
2018                              10,279                        $16,423
------------------------------------------------------------------------
2019                              10,176                        $16,599
------------------------------------------------------------------------
2020                              10,073                        $16,776
------------------------------------------------------------------------
2021                               9,962                        $16,939
------------------------------------------------------------------------
Total                                                          $160,262
------------------------------------------------------------------------

Administrative/General Operating Expense Costs (GOE)
    No administrative costs are associated with section 4.
Section 5--Eligibility of Veterans with Traumatic Brain Injury for Aid 
        and Attendance Benefits.
Summary
    This proposed section would amend 38 U.S.C. Sec. 1114(o) by adding 
the words ``if the Veteran has suffered traumatic brain injury'' to the 
statutory list of severe disability combinations that qualify for 
special monthly compensation.
Benefits Costs (Mandatory)
    Benefit costs just for the added beneficiaries under 38 U.S.C. 
Sec. 1114(o) (an SMC rating required before consideration for aid and 
attendance benefits) are estimated to be $1.6 billion during the first 
year, $9.1 billion for 5 years and $20.7 billion over 10 years. 
Additional significant costs would be incurred as many of the new 38 
U.S.C. Sec. 1114(o) beneficiaries would now be eligible for the 
increased aid and attendance under 38 U.S.C. Sec. 1114(r)(1).
    According to the Office of Performance Analysis and Integrity 
(PA&I), as of March 2010, there were 31,198 Veterans on the rolls with 
an evaluation for TBI. This is 1 percent of the total estimated Veteran 
compensation caseload in 2010 from the 2011 President's Budget. This 
percentage was applied to the total Veteran compensation caseload from 
the 2011 President's Budget to estimate the number of Veterans with TBI 
in the out-years. Based on 2009 data, there were 156 Veterans with 
service connected TBI and also in receipt of aid and attendance. Based 
on this, we estimate that 1 percent of total Veterans with TBI are 
currently in receipt of the SMC ``R1'' rate. In order to estimate the 
number of Veterans who are eligible to receive SMC at the ``O'' level, 
the total number of Veterans on the rolls with TBI was reduced by the 
percentage of Veterans who are currently in receipt of SMC R1 rate.
    The average degree of disability for Veterans receiving 
compensation is 40 percent. Obligations were calculated by taking the 
difference between the September average payment at 40 percent (from 
the 2011 President's Budget) and the rates at the SMC ``O'' level and 
applying it to the estimated caseload.

------------------------------------------------------------------------
       FY            Veteran  Caseload       Total Obligations ($000's)
------------------------------------------------------------------------
2012                              33,698                     $1,639,825
------------------------------------------------------------------------
2013                              34,967                     $1,717,985
------------------------------------------------------------------------
2014                              36,197                     $1,813,997
------------------------------------------------------------------------
2015                              37,389                     $1,911,244
------------------------------------------------------------------------
2016                              38,545                     $2,009,722
------------------------------------------------------------------------
2017                              39,665                     $2,109,152
------------------------------------------------------------------------
2018                              40,750                     $2,212,353
------------------------------------------------------------------------
2019                              41,801                     $2,317,099
------------------------------------------------------------------------
2020                              42,829                     $2,423,915
------------------------------------------------------------------------
2021                              44,269                     $2,558,911
------------------------------------------------------------------------
Total                                                       $20,714,204
------------------------------------------------------------------------

    COLAs commensurate with current economic assumptions have been 
factored into this estimate.
GOE Costs
    Based on program knowledge, we believe that there will be minimal 
GOE costs associated with this proposal due to the small number of 
cases that need to be adjusted due to special monthly compensation.
Section 6--Authority of Secretary of Veterans Affairs to Increase Medal 
        of Honor Special Pension
Summary
    The proposal will amend Subsection (a) Section 1562 of title 38 to 
increase Medal of Honor Special Pension by no more than $1,000 per 
month for fiscal years 2012 and 2013. The bill states that this 
increase is, ``subject to the availability of appropriations.''
Cost
Benefits Costs
    The cost of this legislation is estimated to be $1.0 million per 
year with a 2-year total of $2.0 million.
Benefits Methodology
    According to C&P Service, as of May 2010, there are 84 Veterans in 
receipt of the Medal of Honor Pension. The rate for special pension 
will increase by $1,000 per recipient with the proposed amendment. For 
purposes of this cost estimate, we assumed a constant caseload. 
Obligations were calculated by applying the caseload to the annualized 
rate increase in special pension. The effective date of this bill is 
September 30, 2011. Authority expires September 30, 2013.

------------------------------------------------------------------------
       FY            Veteran  Caseload      Total  Obligation  ($000's)
------------------------------------------------------------------------
2012                                  84                         $1,008
------------------------------------------------------------------------
2113                                  84                         $1,008
------------------------------------------------------------------------
Total                                                            $2,016
------------------------------------------------------------------------

Administrative/General Operating Expense Costs (GOE)
    No administrative costs are associated with section 6.
Section 7--Extension of Provisions Relating to Pensions for Certain 
        Hospitalized Veterans
Summary
    This proposed section would amend 38 U.S.C. Sec. 5503(d)(7) by 
extending the current provisions relating to pensions for certain 
Veterans in Medicaid approved nursing facilities [which are scheduled 
to expire on September 30, 2011] to September 30, 2021.
Cost
Benefits Savings (Mandatory)
    Benefit savings are estimated to be $562.9 million during the first 
year, $2.9 billion for 5 years, and $6.2 billion over 10 years. 
Although VA will reflect a savings due to lower pension costs, the 
states may reflect costs, as Medicaid will continue to pay a larger 
share of Veteran pensioners' nursing home care.
Benefits Methodology
    According to the Medicaid Nursing Home Beneficiaries report, in 
September 2008, there were 14,918 Veterans and 23,968 surviving spouses 
in receipt of improved pension (P.L. 95-588) who are being paid $90 per 
month under this provision, for an annual payment of $1,080 each. 
Should the authority expire, the benefit for each of these Veterans 
would be increased to the A&A rate of $19,953 annually, and the benefit 
for each surviving spouse would be increased to $12,820 annually.
    The cost of the current provision's obligations is calculated by 
applying the caseload for both Veterans and survivors to the current 
$1,080 annual payment for each. We assume constant caseload through FY 
2021. Annual obligations, should the authority expire, are calculated 
similarly with the cost of living adjustment applied to the benefit 
rates. The total decrease in obligations is derived from taking the 
difference between the total annual obligations of assuming the 
authority expires and the annual obligations with the current 
provision.

------------------------------------------------------------------------
                                                        Obligations
                        FY                               ($000's)
-----------------------------------------------------------------------
2012                                                       ($562,945)
------------------------------------------------------------------------
2013                                                       ($575,044)
------------------------------------------------------------------------
2014                                                       ($587,385)
------------------------------------------------------------------------
2015                                                       ($599,972)
------------------------------------------------------------------------
2016                                                       ($612,812)
------------------------------------------------------------------------
2017                                                       ($626,563)
------------------------------------------------------------------------
2018                                                       ($640,602)
------------------------------------------------------------------------
2019                                                       ($654,937)
------------------------------------------------------------------------
2020                                                       ($669,573)
------------------------------------------------------------------------
2021                                                       ($684,515)
------------------------------------------------------------------------
Total                                                    ($6,214,347)
------------------------------------------------------------------------

Administrative/General Operating Expense Costs (GOE)
    No administrative costs are associated with this legislation.
Contact
    Thomas J. Kniffen, Chief, Compensation and Pension Service 
Regulation Staff (21), 202-461-9625; Sadaf Rahmani 202-461-9956, ORM 
Benefits Budget Division (24); or Kerry Baker, Policy Staff, 
Compensation and Pension Service (202) 461-1452 (21).

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
